         CONTRACTING OFFICER DETERMINATIONS
             OF PRICE REASONABLENESS WHEN
        COST OR PRICING DATA WERE NOT OBTAINED


Report No. D-2001-129                      May 30, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DCAA                  Defense Contract Audit Agency
DISA                  Defense Information Systems Agency
DLA                   Defense Logistics Agency
FAR                   Federal Acquisition Regulation
FASA                  Federal Acquisition Streamlining Act
PNM                   Price Negotiation Memorandum
TINA                  Truth in Negotiations Act
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                       Office of the Inspector General, DoD
Report No. D-2001-129                                                   May 30, 2001
 (Project No. D2000CF-0059)

       Contracting Officer Determinations of Price Reasonableness
                   When Cost or Pricing Data Were
                             Not Obtained

                                Executive Summary

Introduction. The audit was initiated as a result of issues identified in other recent
Inspector General, DoD, audits related to price reasonableness. Specifically, we were
concerned about how contracting officials were adjusting to Federal Acquisition
Regulation changes dealing with the definition of commercial items and how items were
being evaluated for price reasonableness.

We selected our sample from a FY 1998 and FY 1999 DD-350 database of contracts
that were more than $100,000 in value and were either sole-source actions or
competitive one-bid actions for which certified cost or pricing data were not obtained.
The numerous miscodings in the DD-350 contracts database precluded any use of
statistical sampling. The apparent lack of competition and certified cost or pricing data
make these contract actions more difficult than many for price analyses and price
reasonableness determinations. Our audit examined 145 contracting actions, valued at
$652 million, on contracts worth $3.1 billion. The actions were awarded in FY 1998
and FY 1999 and included 103 sole-source actions and 42 competitive one-bid actions.
Of the 145 contracting actions, 93 were noncommercial and 52 were commercial. The
contracts were reviewed at 18 contracting activities (5 each at the Army, Navy, and Air
Force, and at 3 Defense agencies).
Objectives. Our objective was to determine whether contracting officials obtained
information, in accordance with the Federal Acquisition Regulation, to determine price
reasonableness when certified cost or pricing data were not required, and whether these
reasonableness determinations were adequate. We also reviewed the management
control program as it related to the overall audit objective.

Results. Contracting officials lacked valid exceptions from obtaining certified cost or
pricing data, and failed to obtain required data in 46 (32 percent) of the 145 contracting
actions. In addition, price analysis documentation did not adequately support price
reasonableness in 124 (86 percent) of those 145 actions. Also contracting officials did
not challenge items categorized as commercial, and they accepted prices based on
contractor catalogs and price lists without analyses. Contracting officials used
questionable competition as a basis for accepting contractor prices and relied on
unverified prices from prior contracts as the basis for determining that current prices
were reasonable. Problems contributing to poor price analysis included an atmosphere
of urgency caused by a lack of planning, staffing shortages, the need for additional
senior leadership oversight, and a generally perceived lack of emphasis on obtaining
cost or pricing data. As a result, we calculated that 52 of the 124 contract actions in
which price reasonableness was not adequately supported were overpriced by about
$23.1 million (22.7 percent). Of the other 72 contract actions, data were inadequate to
determine whether overpricing existed.

The Defense Supply Center Richmond was the only organization that did an excellent
job analyzing price trends and quality control on pricing actions. For an 8 month
period ending May 2000, the Center identified 3,707 contract actions, totaling
$72 million, in which price was determined to be unreasonable, and 682 contract
actions, valued at $15 million, where price reasonableness could not be determined.
The urgent purchases were made because delays would effect readiness. The list of
contracts will be used to assist management in developing aggressive strategies to solve
and prevent future problems. For details of the audit results, see the Finding section of
the report. See Appendix A for details on the management control program.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics address acquisition staff and workload
mismatches at contracting organizations, initiate price trend analyses for sole-source
and competitive acquisitions where only one offer is received, and emphasize the
proper process for dealing with contractors that refuse to provide needed data when
requested by the contracting officer. We also recommend that the Assistant Secretary
of the Army for Acquisition, Logistics, and Technology; Assistant Secretary of the
Navy for Research, Development, and Acquisition; Assistant Secretary of the Air Force
(Acquisition); Director, Defense Information Systems Agency; and the Director,
Defense Logistics Agency, initiate action to alleviate conditions leading to
unnecessarily urgent procurements, obtain cost or pricing data when needed, utilize the
Defense Contract Audit Agency for pricing assistance, provide necessary tools to
determine price reasonableness, establish controls on the use of exceptions for not
obtaining cost or pricing data, establish a process to identify sole-source and
competitive one-bid contracts with unreasonably high-priced items, and institute
corrective actions for future contracts.

Management Comments. The Director, Defense Procurement responded for the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics.
The Director stated that her office collected data from the Military Departments and the
Defense Logistics Agency about the contract actions addressed in the audit and that they
did not agree with pricing problems on a number of contracts. In a subsequent
meeting, the Director, Defense Procurement, Military Departments, and Defense
Logistics Agency representatives agreed that the documentation supporting the contract
prices was not good in many cases, but they believe pricing was adequate in most
cases. The Director also stated that reasonable prices for items fall within a range, and
that agreeing to a price in the range reflects proper judgement regarding all factors
affecting the procurement.

The Director agreed that there is a need for the review of staffing requirements for
contracting activities and noted that a workforce review had been initiated. The Army
stated it believed it had a contracting manpower crisis. The Director disagreed with the




                                            ii
need for a price trend analysis of sole-source and one-bid contracts. The Director also
stated that a contractor refusal to provide data should be made a part of the overall past
performance evaluation.

The Defense Information Systems Agency concurred with all recommendations. The
Military Departments and the Defense Logistics Agency stated that action had already
commenced or that procedures or policy were in place to satisfy the intent of many of
the recommendations. The Military Departments and Defense Logistics Agency
believed, however, that no widespread problem exists with price analysis. This belief
stems from their review of the contract actions cited in the report as having price
reasonableness problems and, in some cases, overpricing. They performed a data call
to contracting organizations and provided specific comments on 87 contract actions
cited in the report. They initially disagreed with the audit conclusions on 65 of the
contract actions. For a complete discussion of management comments and our audit
response, see the Recommendations, Management Comments, Audit Response, and
Required Actions section of this report.

Audit Response. We agree with the Director’s comments that a range of anticipated
prices can be established prior to negotiating contracts. However, we found that
contracting officials were not using historical prices, Defense Contract Audit Agency
reviews, government cost estimates, and other data available through basic market
research to establish such ranges. Accordingly, we believe the prices we calculated
have validity. The Military Departments and Defense Logistics Agency originally
provided comments that disagreed with the audit conclusion for 65 contract actions. In
subsequent meetings and discussions, disagreements regarding whether price
reasonableness had been established were reduced to 42 contract actions. Appendix F
provides a summary of the Military Departments and Defense Logistics Agency
comments pertaining to their contract actions, and our response.

The Director, Defense Procurement, Military Departments and Defense Logistics
Agency comments on the recommendations were not fully responsive. As indicated by
the audit results, even if the disputed determinations of price reasonableness and
overpricing calculations are set aside, the existing DoD procedures and policies were
not adequately working and additional actions are necessary. Sole-source contracts or
those with only one offer received are a difficult pricing challenge and require more
management attention to be directed at those types of contracts. We request the Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics, Military
Departments and Defense Logistics Agency reconsider their responses on the
unresolved recommendations, as discussed individually in Part I of the report, and
provide additional comments by July 30, 2001.




                                            iii
Table of Contents

Executive Summary                                                              i

Introduction
     Background                                                                1
     Objectives                                                                3

Finding
     Price Reasonableness                                                      4

Appendixes
     A. Audit Process
          Scope                                                               34
          Methodology                                                         35
          Management Control Program Review                                   36
     B. Prior Coverage                                                        37
     C. Summary of Price Reasonableness Determination Problems                38
     D. Overpricing                                                           46
     E. Contractors That Refused to Provide Additional Information for
        Commercial Items                                                      50
     F. Management Comments on Individual Contract Actions and
        Audit Response                                                        52
     G. Report Distribution                                                  108

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   111
     Department of the Army                                                  129
     Department of the Navy                                                  158
     Department of the Air Force                                             167
     Defense Information Systems Agency                                      197
     Defense Logistics Agency                                                200
Background

    The audit was initiated as a result of issues identified in several recent Inspector
    General, DoD, audits related to price reasonableness. Furthermore, we were
    concerned about how contracting officials were implementing new commercial
    practices as part of Acquisition Reform.

    Since FY 1998, the Inspector General, DoD, has issued 11 reports related to price
    reasonableness determinations and the classification of items as commercial. Eight
    of the reports determined that the Defense Logistics Agency (DLA) frequently did
    not negotiate the most economical price for items. The audits also determined that
    DLA often paid higher prices when using contractor catalog prices as opposed to
    cost-based prices. Two of the reports identified that fair prices were received
    because the contractor provided cost data and because of the way the contracts were
    structured. Nine of these audits primarily centered around spare parts provided by
    a major defense contractor. The complete list of these audits is included in
    Appendix B. Because this audit was initiated to provide a more comprehensive
    evaluation of price reasonableness within DoD, the audit focused on contracting
    offices instead of major suppliers. Specifically, we visited 18 contracting offices in
    the Military Departments and Defense Agencies.

    Our review included 145 actions, valued at $652 million, (83 contract actions,
    valued at more than $500,000 and 62 contract actions, valued at less than
    $500,000), on contracts worth about $3.1 billion. The actions occurred between
    FY 1998 through FY 1999, and included 103 sole-source actions and 42
    competitive one-bid actions--93 actions were for noncommercial items or services
    and 52 actions were for items or services classified as commercial. Certified cost
    or pricing data were not obtained on any of the contracts. Items purchased
    sole-source or on a competitive one-bid contract are more difficult to fairly price,
    especially if certified cost or pricing data were not obtained. Table 1 provides a
    breakdown of commercial and noncommercial actions and whether the actions were
    for goods, services, or both.


                       Table 1. Commercial vs. Noncommercial

                                  Commercial                   Noncommercial

                        Actions       Dollar Amount    Actions      Dollar Amount

         Goods            39          $367,737,305        75         $170,716,087

         Services         12          $ 29,123,160        14         $ 52,425,091

         Both Goods
                           1          $    596,174        4          $ 31,195,230
         & Services
                        ______       _____________     ______       _____________
         Total            52          $397,456,639        93         $254,336,408



                                               1
           Regulatory Changes Related to Contract Pricing. The Federal Acquisition
           Streamlining Act (FASA) enacted in October 1994 created new Truth In
           Negotiations Act (TINA) exceptions so that requirements to obtain certified cost or
           pricing data would not apply to modifications of contracts or subcontracts of
           commercial items. FASA provided a definition of a commercial item and provided
           specific guidance about obtaining information for commercial items. Where there
           is adequate price competition, the head of an agency could not require cost or
           pricing data to be submitted. If additional information was needed to determine
           price reasonableness, the agency must to the maximum extent practicable obtain this
           information from sources other than the offeror. FASA also required the Federal
           Acquisition Regulation (FAR) to include reasonable limitations on requests for sales
           data relating to commercial items and limits information from offerors to the form
           regularly maintained by the offeror in commercial operations. In addition, FASA
           requires the FAR to include standards for determining when the TINA exceptions
           were applicable. In making FAR changes to address FASA, the drafters added
           language that prevented the contracting officer from obtaining any more
           information than necessary.

           The FAR, part 15 provides guidance to determine exemptions from cost or pricing
           data for these items. In addition, comparing catalog prices with proposed prices
           could only be done based on similar items so that any difference in price could be
           identified without resorting to a cost analysis.

           In October 1996, the Federal Acquisition Reform Act, subsequently renamed the
           Clinger-Cohen Act of 1996, enacted several procurement changes that raised the
           complexity of a contracting official’s duties including a change with respect to
           commercial items. The Clinger-Cohen Act eliminated the previous TINA exception
           for commercial items based on substantial sales and created a TINA exception for
           all commercial items. Before this change, only commercial item acquisitions that
           were based on catalog or market prices for commercial items sold in substantial
           quantities to the general public were exempt from the requirements for certified cost
           or pricing data. The change altered the conditions that the contracting official
           worked under by limiting options for obtaining cost or pricing data to make
           decisions on price reasonableness. This change occurred at a time when contractors
           began to increasingly make claims that items were commercial.

           Contracting officials’ approach for determining price reasonableness can differ
           depending on whether contract actions are above or below $500,000.∗ Negotiated
           contract actions above $500,000 require the submission of certified cost or pricing
           data, unless one of the five exceptions to obtaining cost or pricing data apply. FAR
           15.403-1(b) “Exceptions to Cost or Pricing Data Requirements” (formerly FAR
           15.804) provides guidance on when certified cost or pricing data are not required.
           It states that the contracting officer shall not require submission of cost or pricing
           data:

∗
    On October 1, 2000, the threshold was changed to $550,000 because of inflation adjustment provisions
    of 10 USC 2306a



                                                     2
                     (1) When the contracting officer determines that prices agreed upon
                         are based on adequate price competition;

                     (2) When the contracting officer determines that prices agreed upon
                         are based on prices set by law or regulation;

                     (3) When a commercial item is being acquired;

                     (4) When a waiver has been granted; or

                     (5) When modifying a contract or subcontract for commercial
                         items.

     The changes discussed do not represent all of the changes enacted as a result of the
     FASA and the Clinger-Cohen Act, only those portions pertaining to the objectives
     of our audit. Furthermore, the laws and regulations for purchasing services are
     somewhat different from those that apply to the purchase of goods. Even though
     certified cost or pricing data can not be obtained for contract actions having valid
     exceptions, contracting officials still have the responsibility to ensure that fair and
     reasonable prices are being paid for the goods and services.

     Price Trend Analysis. As a result of previously reported problems on pricing of
     items, section 803(c) of the Strom Thurmond National Defense Authorization Act
     for FY 1999 requires the Secretary of Defense to implement procedures that
     provide for the collection and analysis of price trends for categories of commercial
     items exempt from the submission of certified cost or pricing data. It also stipulates
     that items selected for analysis be in a single Federal Supply Group or Federal
     Supply Class, provided by a single contractor, or otherwise logically grouped for
     the purpose of analyzing information on price trends. Price trends must be
     analyzed where there is a potential that prices paid will be significantly higher (on a
     percentage basis) than the prices previously paid for procurements of the same or
     similar items. Subsection 803(c) further directed that the head of a DoD agency or
     the Secretary of a Military Department take appropriate action to address any
     unreasonable escalation in prices being paid for items procured by that agency or
     Military Department. Subsection 803(c) also required an annual report to the
     Senate and House Armed Services Committees not later than April 1, 2000, that
     reviews the price trend analyses conducted during the preceding fiscal year, and
     describes actions taken to identify and address unreasonable price escalation.


Objectives

     The audit objectives were to determine whether contracting officials obtained
     information, in accordance with the Federal Acquisition Regulation to determine
     price reasonableness when certified cost or pricing data were not required, and
     whether these reasonableness determinations were adequate. We also reviewed the
     adequacy of the management control program as it applied to the audit objectives.
     See Appendix A for a discussion of the audit scope and methodology and the review
     of the management control program. See Appendix B for prior coverage related to
     the audit objectives.


                                               3
            Price Reasonableness
            Contracting officials did not comply with FAR requirements and used
            invalid exceptions as a basis for not obtaining certified cost or pricing
            data in 46 of the 145 contract actions reviewed. Contracting officials
            also relied on incomplete information and the cost or price analysis and
            contract file documentation did not determine or adequately support price
            reasonableness decisions in 124 of the 145 contract actions.

            These inadequacies occurred because of the following issues:

                   •   Program offices and contracting officials did not adequately
                       plan for acquisitions, thus creating an unjustified state of
                       urgency.

                   •   Contracting officers had increased workloads because of
                       staffing shortages at 12 of 18 organizations.

                   •   Contracting officials did not obtain cost data when other means
                       were insufficient to determine price reasonableness. There was
                       limited use of the Defense Contract Audit Agency (DCAA) for
                       price analysis support. Contractors refused to provide cost or
                       other data for 18 contracts when requested by contracting
                       officials.

                   •   Senior leadership oversight of the process needed
                       improvement.

            As a result, DoD did not always obtain fair and reasonable prices and
            paid more than it should have for goods and services. We calculated that
            for 52 of the 124 contract actions, valued at $125.1 million, in which
            price reasonableness was not adequately supported, DoD paid about
            $23.1 million (22.7 percent) too much. Data was inadequate to
            determine whether overpricing occurred on the remaining 72 actions.


Exceptions for Not Obtaining Certified Cost or Pricing Data

     Contracting officials used invalid exceptions as a basis for not obtaining certified
     cost or pricing data. Furthermore, they inappropriately used exceptions to enable
     them to award contracts more quickly and to avoid delays caused by contractor
     unwillingness to provide such data. Also, contractors more readily refused to
     provide cost information requested, and contracting officials used faulty exceptions
     rather than aggressively challenging contractors to provide the information.
     Contracting officials, on their own or at the request of contractors, classified items
     as commercial, improperly determined that adequate competition existed, and
     inappropriately used waivers, all to avoid having to obtain certified cost or pricing
     data. Contracting officials also awarded actions valued at more than $500,000
     without obtaining certified cost or pricing data and without using any of the


                                            4
exceptions. Contracting officials also lost the opportunity to obtain certified cost or
pricing data by not combining actions and awarding actions slightly below the
$500,000 threshold. All of the 46 contract actions that were deemed to have invalid
exceptions had inadequate documentation to support the price reasonableness
determinations. Contracting officials are also responsible for determining whether
prices are fair and reasonable, even for procurements that are exempt from the
requirements to obtain certified cost or pricing data. Table 2 provides a breakdown
of invalid exceptions along with all of the inadequate documentation supporting
price justifications and overpriced actions.



       Table 2. Breakdown of Invalid Exceptions, Inadequate Price
                 Justifications, and Overpriced Actions
                                                 Inadequate     Data Sufficient
     Exception       Contract      Invalid          Price        To Compute
       Used          Actions      Exception     Justification    Overpricing

   Commercial          46            11              42               12
   Competition         16             9              9                9
   Waiver               8             4              4                1
   No Exception        16            16              16               5
   Threshold           59             6             53               25
                     ______        ______         ______           ______
   Total               145           46             124               52



Of the 145 contract actions, 62 were below the $500,000 threshold. Fifty nine of
these actions used the threshold as the exception from obtaining certified cost or
pricing data including 6 that circumvented the threshold and which we classified as
invalid exceptions. Three of the 62 actions used the commercial item status as the
exception. Of the remaining 83 contract actions above the threshold, 40 had invalid
exceptions. For the 46 actions with invalid exceptions, 23 were Army, 6 Navy, 11
Air Force, and 6 Defense agencies. For the 124 actions with inadequate price
justifications, 46 were Army, 20 were Navy, 35 were Air Force, and 23 were
Defense agencies. See Appendix C for a complete list of these actions.

Commercial Exceptions. For 46 actions, valued at $318.6 million, contracting
officials used commerciality as the exception for not obtaining certified cost or
pricing data. Eleven of those actions, valued at $217.7 million, had exceptions that
were improper. Furthermore, 42 of those actions, valued at $299 million,
including the 11 actions with improper exceptions, had inadequate support for price
reasonableness determinations.

Contracting officials inadequately determined price reasonableness for the
42 actions by using catalog prices, prior history, and cost analyses. Catalog prices



                                      5
were used in 26 actions, valued at $263.5 million; prior history was used in
13 actions, valued at $23.4 million; and cost analysis was used in 3 actions, valued
at $12.1 million.

For an example of an improper exception, contracting officials under contract
DAAB07-97-C-J230 with Litton Systems, valued at $1.9 million, accepted the
contractor’s commercial exception for the repair/conversion of 500 AN/VVS-2
driver’s night vision viewers (unit price of $4,153), used in the M-1 series Abrams
Main Battle Tank and M2/M3 family of Bradley Fighting Vehicles. The viewers
enable a closed-hatch vehicle to be driven during nighttime conditions by
amplifying ambient light. FAR, part 2 states that commercial services must be
services of a type offered and sold competitively in substantial quantities in the
commercial marketplace based on established catalog or market prices for specific
tasks performed under standard commercial terms and conditions. There was no
evidence that contracting officials performed any market research to support the
commercial services determination. Also, FAR Part 12 requires firm fixed price
contracts for the acquisition of commercial items. Although the Army considered
this contract firm fixed-price, the contract pricing was a not to exceed amount and
the actual contract costs were not known. The description of the night vision
viewers, along with the purpose, indicates that they have military rather than
commercial application. In addition, there was no documentation in the contract
files that supported any commercial application of the viewers or that the items
were sold to the general public. Despite the fact that the contracting official had no
knowledge of any commercial application, he stated that he did not recall the
circumstances regarding accepting the commercial status of the viewers, but added
that he would have had no reason to question the contractor’s claim that the viewers
were commercial. See item 2, Appendix F for further details.

In another example, contracting officials used the commercial exception when they
awarded contract DAAH23-98-D-0117, with Kaiser Aerospace and Electronics
Corporation, valued at $574,476, to acquire “buddy part assemblies” for military
helicopters at a unit price of $5,862. It was evident that contracting officials
intended to circumvent the requirement for certified cost or pricing data by
awarding the contract under the $500,000 threshold. An unsigned briefing
memorandum stated that the contractor was not set up to provide certified cost or
pricing data and that the new strategy was to reduce quantity to under $500,000 to
avoid these hurdles. When the reduction in quantity did not occur, the commercial
exception without market research was used even after identifying major differences
between the commercial and military versions and after identifying that the
commercial price was substantially higher than historical DoD prices. See item 35,
Appendix F for details.

Other examples of invalid commercial item exceptions are at items 9, 16, 38, 50,
59, and 62, Appendix F.

Competitive Exceptions. For 16 actions, valued at $178 million, contracting
officials used competition, even though only one offer was received, as the
exception to obtaining certified cost or pricing data. Contracting officials also used
competition as the primary factor in determining price reasonableness. However,



                                      6
for 9 of these actions, valued at $36 million, there was no evidence of either a
realistic expectation of competition or that more than a single contractor would
submit a proposal.

For example, contracting officials determined that adequate competition had
occurred under contract DAAE20-99-D-0099 (delivery order 0001, valued at
$858,700), with Island Components Group, for an alternating current motor, at a
unit price of $277, even though the award was made to the only approved source.
There was no evidence of market research to identify other sources. Based on prior
history, we calculated that DoD overpaid by $274,530 on this action. See item 31,
Appendix F.

The FAR provides guidance describing when adequate competition occurs. FAR
15.403-1(C)(ii) states that adequate competition occurs when:

           There was a reasonable expectation, based on market research or other
           assessment, that two or more responsible offerors, competing
           independently, would submit priced offers in response to the solicitation’s
           expressed requirement, even though only one offer is received from a
           responsible offeror and if-

               (A)       Based on the offer received, the contracting officer can
                         reasonably conclude that the offer was submitted with the
                         expectation of competition, e.g. circumstances indicate that-

                         (1)      The offeror believed that at least one other offeror
                                  was capable of submitting a meaningful offer; and

                         (2)      The offeror had no reason to believe that other
                                  potential offerors did not intend to submit an
                                  offer…

In FY 1999, DoD reported 3,078 contract actions, valued at $2.2 billion, that were
claimed as competitive, even though there was only one offer received. We
identified a lack of real competition for 9 actions that were above the $500,000
threshold and 6 actions below the threshold, with only one offer that cited
competition as the primary factor in determining price reasonableness. We caution
that our results can not be extrapolated to the reported universe of competitive
contract actions with one offer received. However, the Department still needs to
evaluate the frequency and validity of adequate price competition with only one
bidder. Additional examples of inadequate competition are at items 3, 4, 19, 21,
30, and 44, Appendix F.

Waivers. For eight actions, valued at $105.7 million, head of contracting activities
granted waivers from obtaining certified cost or pricing data. We determined that
four of the eight actions, valued at $25.8 million, were given waivers although facts
used to support the waiver were incorrect and included inadequate price
reasonableness determinations. Waivers were issued because contracting officials
believed there would be sufficient information available to determine price
reasonableness without obtaining certified cost or pricing data. However, the



                                           7
documentation either did not provide support for the waiver or changed before
award, and therefore, the waivers should not have been requested or should have
been withdrawn. Examples of inadequate waivers are at items 12, 33, and 37, in
Appendix F.

No Exceptions. Contracting officials did not obtain required certified cost or
pricing data for 16 actions, valued at $32 million, even though the 16 actions did
not qualify for any of the exceptions to certified cost or pricing data. Contracting
officials did not adequately document and determine price reasonableness for any of
the 16 actions. One of the 16 actions initially had a waiver but it was ultimately
deemed invalid, and certified cost or pricing data should have been obtained.

The head of the contracting activity waived the requirement for certified cost or
pricing data for contract DAAH01-99-D-0076 with Raytheon Company, valued at
$845,046, for Dewar cooler assemblies (unit price $46,947), because he expected
that prior history would provide sufficient information to justify the anticipated unit
price of approximately $12,500. Once the contractor proposed prices that started at
$29,167 and ultimately through additional amendments reached $68,140,
contracting personnel realized the waiver was no longer valid and that certified cost
or pricing data would be necessary to determine price reasonableness. However,
the contracting official did not obtain certified cost or pricing data and did not
justify why this contractor was not required to certify. DoD paid a higher price and
lost the benefits of TINA, which allows the Government to recoup overpricing
caused by defective cost or pricing data. Based on prior history, we estimated
overpricing on this action of $610,003. See item 32, Appendix F for further
details.

Contracting officials did not determine or adequately document price reasonableness
for the 16 actions, through their use of catalog prices, prior history, and cost
analyses. Catalog prices were used without determining whether items were sold to
the general public or whether the general public paid those prices. Prior history
was used without the reasonableness of those prices being known and cost data were
obtained but included insufficient or no analysis. Catalog prices were used in 1
action, valued at $0.9 million; prior history in 5 actions, valued at $9.3 million;
and cost analysis was used in 10 actions, valued at $21.8 million.

In addition, Inspector General, DoD, Report No. D-2001-061, “Waivers of
Requirement for Contractors to Provide Cost or Pricing Data,”
February 28, 2001, identified 11 cases that were coded as waivers but actually had
no waiver or any other exception to obtaining certified cost or pricing data.

Threshold. FAR 15.403-4(a)(1) “Requiring Cost Or Pricing Data,” states that the
threshold for obtaining cost or pricing data is $500,000. Contracting officials
awarded 59 actions, valued at $17.5 million, below the $500,000 threshold.
Contracting officials should have obtained certified cost or pricing data for six of
these contract actions, valued at $2.9 million, where, in our opinion, the threshold
was abused. Obtaining the data would have protected the Government if defective
pricing occurred.




                                      8
     For example, contract DAAE07-99-C-N045 was awarded to General
     Thermodynamics for engine radiators for the Bradley Fighting Vehicle at just under
     the $500,000 threshold. Contracting officials had also previously awarded two
     contracts within a 5-month period of this award, each slightly under the $500,000
     threshold, to the same contractor, for the same item. The total value of the three
     contracts was $1,494,844. However, certified cost or pricing data was not required
     since each of the three procurements was under the $500,000 threshold. If
     contracting officials would have added just one more item to any of the three
     contracts, the contract award amount would have been over the $500,000 threshold.
     It appears that the contracting officials intentionally kept the price below the
     $500,000 threshold because the number of units procured under each of the
     contracts was the maximum number of units that could be obtained while keeping
     the price below the threshold. If not intentionally planned to avoid the threshold,
     these types of procurements at least indicate a need for more thorough advance
     planning. We calculated overpricing of $54,298 based on prior history. Table 3
     provides details of these three awards.



               Table 3. Contracts Awarded Slightly Under Threshold
                         Requiring Cost Or Pricing Data

           Contract Number      Award Date       # Of Units   Unit Price   Total Price
           DAAE07-99-C-N013       3/29/99           196        $2,539      $497,644

           DAAE07-99-C-N033        6/9/99           200        $2-,493     $498,600

           DAAE07-99-C-N045       8/30/99           200        $2,493      $498,600




     See item 15, Appendix F for additional details.

     Contracting officials did not effectively determine or support price reasonableness
     for 53 of the 59 actions below the threshold for certified cost or pricing data,
     valued at $16 million.


Price Reasonableness Determinations

     Contracting officials determined price reasonableness for the 145 contract actions,
     valued at $652 million (overall contract value of $3.1 billion), primarily through
     the use of contractors’ catalog prices, prior history, competition, and cost analysis.
     Price reasonableness was not adequately determined in 124 of these actions, totaling
     $408.9 million. Table 4 depicts the price reasonableness problems related to these
     124 contract actions.




                                             9
              Table 4. Summary of Price Reasonableness Problems
                    Problems                         Number of          Data Sufficient To
                                                     Occurrences       Compute Overpricing

 Acceptance of catalog prices without any
                                                          34                      7
 additional review of price
 Use of prior prices without establishing the
                                                          42                     21
 reasonableness of the prior prices
 Inadequate competition                                   15                      9
 Cost analyses                                            24                      9
 Other reasonableness problems                             9                      6
 Total                                                  124                      52



Of the 124 contract actions, 19 were for services and 105 were for items. The 19
service contracts were included in the 72 contract actions in which documentation
was inadequate to determine whether overpricing existed.

Catalog Prices. Contractor catalogs were typically developed with unit prices for
unspecified quantities or with unit prices at varying quantities. When catalog unit
prices were shown without quantities, the unit price was developed based on a
quantity of one unit; therefore, discounts should have been negotiated off of the
catalog unit price for large quantity purchases. FAR specifies the requirements that
the contracting officer must follow when determining price reasonableness for
commercial catalog items. FAR 15-403.3(c) states:

             At a minimum, the contracting officer must use price analysis to
             determine whether the price is fair and reasonable whenever the
             contracting officer acquires a commercial item. The fact that a price is
             included in a catalog does not, in and of itself, make it fair and
             reasonable.

Contracting officials did not use price analysis or otherwise properly determine
price reasonableness for 34 actions awarded at $282 million. Contracting officials
accepted items as commercial even when DoD was the only apparent purchaser of
the items. More importantly, contracting officials did not challenge contractor
catalog prices. Even when contracting officials made large quantity buys that
should have been subjected to discounts, unit prices that applied to single purchases
were accepted with very limited review. In cases where discounts were offered,
price analyses were not performed, yet there was no other basis to determine
whether the discounted price was fair and reasonable. For example, prior to
awarding contract N00019-99-C-1598, with Fatigue Technology, valued at
$317,221, the contracting official stated that the contractor had to demonstrate that
the item, air frame change modification kits consisting of seven items ranging in


                                                10
unit price from $2,221 to $59,152, was available to the general public at a
commercial price before the contract could be awarded for the proposed amounts.
However, the contracting official did not conduct adequate market research and
eventually relied on a statement from the contractor that the price list was available
to the general public. See item 41, Appendix F for details.

In another case, contracting officials disagreed with Allied Signal Inc., over the
commercial status of the item being procured. For contract F42630-99-C-0022, the
market research and an Air Force engineer concluded that the 367 heat stacks in
support of the F-15 aircraft were not commercial items. However, the contractor
declared the item to be commercial under the new FAR definition … and stated that
cost or pricing data would not be provided. The Government accepted the
contractor’s catalog price with no additional documentation such as invoices or
price lists to support this claim. There was also no explanation given as to why the
Air Force price analysis, which supported a price 38 percent below the Air Force
objective, was not used. We used prior history to compute overpricing of $1.2
million for 367 units on the contracting action. Our computation was based on a
difference in unit price of $3,273 from previous prices paid which was adjusted for
inflation, quantity, and learning curve ($11,445 versus $8,172 unit price). The Air
Force price analysis also supports an overpricing amount almost identical to our
computation. See item 62, Appendix F for details.

Prior History. The FAR also allows for the use of prior history and specifies
procedures to be used when making this comparison. FAR 15.404-1(b)(2)(ii)
states:

           Comparison of previously proposed prices and previous Government and
           commercial contract prices with current proposed prices for the same or
           similar items if both the validity of the comparison and the reasonableness
           of the previous price(s) can be established.

There was no evidence in 42 contract actions, valued at $41.7 million, that the prior
price was reasonable when contracting officials used prior history as the basis for
price reasonableness. As a rule, contracting officials used prior prices as a basis to
determine price reasonableness for the current procurement, but they did not
comply with the FAR requirement to ensure the validity of the comparison or the
reasonableness of the prior price. Comparisons were made even when quantities
were dissimilar or contracting officials lacked complete historical data.

We used an automated database of historical data to determine the prior prices paid.
This database provided information on all DoD procurements at Military buying
organizations. From this database, we determined that contracting officials often
did not have a complete history and reached conclusions based on incomplete
information. We believe that each contracting office should have access to current
data on prices to make more informed decisions about price reasonableness when
historical comparisons are used. The contracting office should validate the
reasonableness of any price used in comparisons.

For example, contracting officials awarded Contract F42630-99-C-0161 to Hydro-
Mill Company for yoke assembly landing gear for the C-5 Aircraft, at a unit price
of $3,744. The price reasonableness determination was based on a 1990 buy with a


                                          11
unit price of $3,362. This determination was based on incomplete information
since there was a procurement awarded in 1995 at a unit price of $1,025, which
was not included in the procurement office records. If this information were
available to the contracting officer, she would have been in a better position to
evaluate factors affecting price. We computed overpricing of $49,938 for this
procurement. See item 63, Appendix F for further details.

Contracting officials, awarded contract SPO475-99-C-5561, valued at $358,074, to
Llamas Plastics Inc., for 76 window panels for the F-4 Aircraft, at an average unit
price of $4,712. The officials determined that prices were fair and reasonable by
comparing the proposed amount with a buy from May 1998 at a unit price of
$4,945. However, the officials ignored another procurement from just 5 months
earlier for eight window panels awarded at a unit price of $2,700. This action with
a lower unit price was coded as competitive. In addition, there were two other buys
from similar time periods at prices that were in the same range. By not reviewing
the prior history, the contracting officials paid a price that was 75 percent higher
than the recently paid price, notwithstanding the additional savings associated with
the larger quantity. We computed overpricing of $177,273 based on prior history.

Contracting officials awarded contract DAAJ09-97-D-0202, valued at
$188.9 million, to Allison Engine Company for 600 250-C30R/3 engines,
containers, engineering and logistical support services, and associated data in
support of the Kiowa Warrior helicopter without adequately determining price
reasonableness. The 600 engines were to be procured over a 5-year period (120
units per year) at an average unit price of $309,011. As of March 2001, 255
engines had been procured off this contract totaling approximately $74 million.
The item was classified as a commercial item; however, documentation was not
sufficient to support a commercial application for the engine. The engine is not
sold to the general public. Therefore, certified cost or pricing data should have
been obtained. The contractor had a starting price of $270,000 per unit in its
May 6, 1997, proposal, which was based on a previous buy by another buying
command for 78 units. The contractor did not offer a quantity adjustment even
though the contract was for 600 units, substantially more than the 78 units. An
escalation factor was then applied to the $270,000 to determine pricing for each of
the 5 years (1998 through 2002). Allison significantly increased its escalation about
6 weeks later. Contracting officials included in its negotiation objective the
$270,000 without explaining why the price/technical analysis, that was almost
$20,000 lower in the initial year, was not used. The contracting position also
increased the objective in each subsequent year when the contractor proposed higher
escalation without explaining why this was reasonable.

DCAA in a June 24, 1997, memorandum to the contracting officer stated, “. . . that
the engine unit price of $270,000 was unsupported because Allison Engine
Company would not provide the necessary supporting data as required by the
RFP.” In a subsequent memorandum on August 27, 1997, DCAA states, “. . . we
have no basis to determine if the proposed engine price to the Government of
$270,000 is reasonable.” Although DoD has been buying the engine for 31 years
the contractor now claims it is commercial, however, the contractor refused to
provide sales data to support his claim. We calculated overpricing on the 255
engines purchased using this contract. We determined overpricing of $7.1 million,


                                     12
based on the price/technical analysis performed by the Government, with potential
overpricing of $24.2 million if the full quantity of 600 engines are purchased. See
item 38, Appendix F for details.

Competition. Contracting officials used competition as the primary factor in
determining price reasonableness when competition was not apparent and only one
offer was received for 15 contract actions, valued at $37.7 million. The contracting
officials had no evidence that a reasonable expectation of competition would occur.

For example, under contract DAAE20-99-C-0074, with General Reliance
Corporation, valued at $175,380, for electrical solenoids at a unit price of $222,
contracting officials used competition as the basis for determining price
reasonableness even though there was no likelihood that more than one offer would
be received. The contracting office did not conduct adequate market research. In
fact, the successful contractor had been the incumbent for 24 years. Based on prior
history, we calculated overpricing of $106,704. See item 26, Appendix F for
further details.

Cost Analysis. Contracting officials cited cost analysis as the primary basis for
price reasonableness in 24 contract actions, valued at $43.8 million. Contracting
officials appeared to take the extra step of requesting cost data in these 24 actions,
where catalog prices, prior history, or competition was insufficient. However, the
cost data was neither documented in the file nor supported the price paid. In
addition, contracting officials accepted contractor cost data without further analysis.

For example, under contract DAAE20-99-C-0082, with BF Systems Inc., valued at
$318,700 (unit price $3,187), for 100 actuator, electrical-mechanical units used on
the M1 and the M1-A1 tanks, the contract specialist included a cursory cost analysis
within the business clearance memorandum. The cost analysis did not provide
detailed information related to the specific cost elements. The contracting official
accepted direct labor, material, overhead, (general and administrative expenses) and
profit as proposed. The amount of effort devoted to the cost analysis is
questionable since it was performed on the same day that the contract was awarded.
We computed overpricing of $143,583 based on prior history. See item 27,
Appendix F for details.

Under contract DAAH23-98-D-0014, with Allied Signal Inc., valued at $596,174,
the cost analyst merely accepted the contractor’s cost estimate for 149 anti-icing
valve overhauls, replacement shipping containers and scrap effort, (unit price of
$4,001), without obtaining and reviewing support documentation. See item 34,
Appendix F for details.

Other Reasonableness Problems. In addition to the previous stated problems,
contracting officials documented that prices were unreasonable in three actions and
could not determine reasonableness in six other actions.

For example, in a memorandum on a contractor’s pricing, one contracting official
at the U.S. Army Aviation and Missile Command, when informed that Raytheon
Systems Company’s proposal came in at four times the estimate, stated that “she
wasn’t surprised -- everyone is sticking it to us.” She went on to say that “they


                                      13
     have to have these.” We calculated overpricing of $610,000 on this action based
     on prior history. See item 32, at Appendix F for further details. At the U.S. Army
     Tank and Automotive Command, the contracting official expressed concern with
     the pricing proposed by Minowitz Manufacturing Company, which was the only
     contractor that expressed interest and submitted a bid. The contracting official
     stated: “but their price is so OUTRAGEOUS I possibly cannot find any justification
     for their offer unless you will support the blank check.” This comment was
     prompted by a unit price increase of 426 percent from the previous procurement
     ($6,987 versus $1,638). We calculated overpricing of $103,470 on this contract
     action, valued at $174,675, based on prior history. See item 18, Appendix F for
     further details.

     In another example, contracting officials determined that it would be in the best
     interest of the Government to award contract SP0441-99-C-5526, valued at
     $462,317, to Roller Bearing Company of America although the price was
     determined to be unreasonable. The contract was for bearings, rollers, and needles
     at a unit price of $1,125. The contracting officials reasoned that since the item was
     not commercial and since the contractor would not provide cost information, the
     only option to obtain the item was to purchase it. We calculated overpricing of
     $111,602 based on prior history. In this case, we commend DLA for
     acknowledging that while the part was, indeed needed, it was also priced
     unreasonably.


Contributing Factors To Price Analysis Problems

     Various factors have contributed to contracting officials’ inadequate documentation
     and support for price reasonableness determinations and failure to obtain certified
     cost or pricing data when required from contractors. These factors included poor
     acquisition planning and urgent procurements, staffing shortages, contracting
     officials’ inappropriate use of the exceptions for submission of certified cost or
     pricing data, less emphasis on obtaining cost data resulting from acquisition reform,
     failure to use DCAA for pricing assistance, and the need for additional senior
     leadership oversight.

     Acquisition Planning. Program and contracting offices did not adequately plan for
     procurements causing acquisitions to be conducted too quickly to adequately
     determine price reasonableness. Contracting officials worked under urgent and
     compressed timeframes and took shortcuts when attempting to establish price
     reasonableness. Forty-seven of the 145 actions reviewed, valued at $88.8 million,
     were awarded under urgent conditions. The reader should be aware of the
     distinction between these 47 actions awarded under urgent conditions and the 47
     actions previously stated as having invalid exceptions. In 44 of the 47 actions,
     contracting officials performed no or limited price analysis and accepted prices that
     were not justified. Files lacked data and included cursory results even to the extent
     that basic documentation such as pricing negotiation memoranda were not always
     prepared.




                                          14
For example, contract SP0441-99-C-5360, with MRC Bearings, valued at
$496,725, for the acquisition of ball bearings used urgency as justification for not
negotiating a fair and reasonable price. In this case, the price was accepted at
$2,685 per unit. This price represented a 54.5 percent increase over the last buy
from just 2 years earlier. We calculated overpricing of $175,057 based on prior
history.

Contracting officials stated that contract DAAA09-98-C-0070, with DSE Inc.,
valued at $5.9 million, for the acquisition of 727,115 units of 40-millimeter
ammunition at a unit price of $8.14, was awarded quickly because of urgency. As
a result, the officials worked so quickly that they did not develop the necessary pre-
award documentation such as a solicitation, acquisition plan, independent
Government cost estimate, or price negotiation memorandum needed to ensure that
DoD paid a fair and reasonable price. By not performing the necessary procedures
for obtaining reasonable prices, the Government overpaid $1.9 million on this
contract. See item 1, Appendix F for further details.

Contracting Officials Workloads. Staff shortages and shifts in personnel also
contributed to increased workloads that further strained contracting staffs.
Personnel at 12 of 18 locations visited cited increased workload, staff shortages
from retirements and transfers, along with the urgent atmosphere as key reasons for
missing documentation and shortfalls in contracting files. One contracting official
at the Naval Air Systems Command was responsible for 34 contracts. In another
case, a contracting official at the Army Communications and Electronics Command
could not answer basic questions about price reasonableness on one contract
because the contract specialist who had worked on the contract had retired and had
not documented the files.

A contracting official at the Defense Supply Center Richmond stated that the
workload was so great that a delay in the award of even one contract could not be
tolerated because of the impact the delay would have on all other pending awards.
The official gave this answer to a question about why cost or pricing data was not
obtained when there was no other basis to establish reasonableness.

Emphasis on Obtaining Cost Data. Changes in acquisition regulations have
placed less emphasis on obtaining cost data for determining price reasonableness.
As a result, contracting officials are less inclined to request and contractors are
more reluctant or unwilling to provide these data. Contractors have used the
changes in the definition of commercial items to classify items as commercial and
then have refused to provide cost information. These changes have limited the
information available to contracting officials in determining price reasonableness.

Under FAR changes that resulted from the changes in FASA, contracting officials
were instructed to obtain just enough information to make informed decisions and
not to obtain certified cost or pricing data unless it was absolutely necessary. The
Clinger-Cohen Act also changed the requirements for commercial item exceptions
for cost or pricing data by not mandating that commercial item prices be based on
catalog sales or market prices and be sold in substantial quantities to the general
public.



                                      15
The addition of a commercial item definition and the restrictions imposed on
obtaining cost or pricing data has limited the contracting officials’ abilities to
determine price reasonableness. Items that previously were considered
noncommercial, and for which certified cost or pricing data were required, are now
being deemed commercial items, which limits the information available to the
contracting officials in determining price reasonableness. As a result of these
changes, contractors have developed catalog prices and then have refused to provide
additional cost or pricing information. Contractors refused to provide additional
information to contracting officials in at least 18 contract actions, of which 8
contract actions were for items classified as commercial, involving 17 different
contractors. See Appendix E for a list of these 18 contract actions.

The Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics has promoted acquisition reform initiatives that emphasize tools and
techniques rather than obtaining cost or pricing data and has made the obtaining of
such data a last resort. We believe that emphasis should be provided for obtaining
cost data in sole-source situations. The TINA was enacted to put the Government
on equal footing with the contractor during contract negotiations. Acquisition
reform procedures work well when there is competition, but obtaining cost data is
often key in sole-source situations.

Contractors used their sole-source market position and the revised definition of
commercial items as the basis for proposing unjustified high prices. In contract
N00383-98-C-019F, with SMR Technologies, Inc., contracting officials paid
significantly higher prices than before for drop cloth used for the repair of F-14
Tomcat wing fuselages. Table 5 shows the purchasing history for this item.




                                      16
                  Table 5. Price History For Drop Cloth Thread

                      Quantity   Unit          Contract           Price Reasonableness
Contract Number       (Yards)    Price          Date                  Determination
                                                          Certified cost or pricing data.
N00383-91-D-7012       1,000     $55.36         5/92      Urgency

                                                          Cost or pricing data not requested
N00383-96-M-041F         75      95.00          2/96      because of small dollar amount.
                                                          Urgency

                                                          Item now considered commercial.
N00383-96-C-015F        600      800.00         5/96      Price reasonableness based on
                                                          catalog price. Urgency

                                                          Contractor refused to provide
N00383-98-C-001F        756      800.00         10/97     certified cost or pricing data because
                                                          material was commercial. Urgency

                                                          Price reasonableness based on
N00383-98-C-019F       2,565     650.00         6/98      previous contract price of $800 that
                                                          was not justified as reasonable.



In 5 years, the unit price for the drop cloth substantially increased from $55 to
$800, an increase of 1,454 percent. The contracting officer questioned the huge
increase in price and requested a cost breakdown. The contractor refused but
instead provided a catalog price list showing a price of $950 per yard. The
contractor also stated that the item was now being “classified as a [commercial
item] in accordance with the new expanded FAR definition of a commercial item.”
The contractor also stated that the item was commercial because it was in its catalog
and offered for sale to the general public. However, there was no evidence that the
drop cloth thread that is used to repair the wing fuselage seals of the F-14 Tomcat
had any other application. The most current contract, N00383-98-C-019F, based
price reasonableness on the fact that the unit price was 18.75 percent lower ($650
versus $800) than the price paid under the previous contract, N00383-98-C-001F.
We calculated overpricing of $1.5 million based on prior history.

The senior acquisition personnel need to develop an integrated strategy to deal with
contractors who refuse to provide data for determining the reasonableness of prices.
This strategy should include the involvement of the head of contracting activity, as
appropriate, with the contractor. Senior leadership did not have procedures to
facilitate its involvement when contracting officials were at impasses with
contractors. FAR 15.403(a)(4) states that if a contractor refuses to submit
information, it is ineligible for award unless the head of the contracting activity
determines the award is in the Government’s best interest based upon the specified


                                          17
criteria. However, there was no evidence that the senior leadership was ever aware
of the significant number of instances of contractors refusing to provide information
needed by acquisition personnel to determine fair and reasonable prices, or whether
contracting officials were obtaining certified cost or pricing data from contractors
when required.

DCAA Assistance. DCAA has the resources and expertise to lend invaluable
assistance to contracting officials in their efforts to determine price reasonableness,
particularly when cost data have been obtained. However, contracting officials
have not always taken advantage of these valuable DCAA services. Fourteen of the
18 sites visited had a DCAA presence on site, while the remaining 4 sites had a
local DCAA presence that could have provided help. Of the 124 actions in which
the contracting officer did not adequately determine price reasonableness, 25
actions had limited DCAA audit support, and 99 actions had no DCAA
involvement.

Senior Leadership Involvement. Senior leadership in the contracting chain of
command, from the head of the contracting activity through the major commands to
the senior acquisition executives were generally not aware of the poor
documentation supporting price reasonableness decisions and that pricing problems
were occurring. The senior leadership did not adequately monitor the impact of
acquisition personnel reductions, did not determine the effect of acquisition reform
initiatives on price trends, and did not establish a system of quality control over
contracting official’s price reasonableness determinations.

        Acquisition Personnel Reductions. The senior leadership in the
contracting chain of command did not adequately monitor the impact that personnel
reductions have had on the acquisition workforce and did not initiate action to
respond to contracting deficiencies that have resulted from the reductions.

In Inspector General, DoD, Report No. D-2000-088, “DoD Acquisition Workforce
Reduction Trends and Impacts,” February 29, 2000, we identified adverse effects
on performance resulting from acquisition workforce reductions and additional
adverse effects if further downsizing occurred. The report states that DoD reduced
its acquisition workforce from 460,516 to 230,556 personnel, about 50 percent,
from the end of FY 1990 to the end of FY 1999. Staffing reductions have clearly
outpaced productivity increases and the capacity of the acquisition workforce to
handle its still formidable workload.

In Inspector General, DoD, Report No. D-2000-100, “Contracts for Professional,
Administrative, and Management Support Services,” March 10, 2000, we identified
problems related to the award and administration of contracts for services. The
problems resulted from acquisition personnel lacking training, familiarity, and time
to fulfill their duties. Workforce reductions have resulted in more work and higher
demands on time. As a result, cost-type contracts that placed a higher risk on the
Government continued for the same services for inordinate timespans.
Furthermore, performance measures needed to judge efficiency and effectiveness of
the services rendered did not exist.




                                      18
In Inspector General Report No. D-2001-076, “Acquisition of General and
Industrial Items”, March 13, 2001, we identified problems resulting from a
27 percent (518 to 378) reduction in acquisition personnel at the Defense Supply
Center Philadelphia. Over a 2 year period, inadequate acquisition support resulted
in an increase in administrative lead time of 26 percent (85 days to 107 days), a 48
percent increase in backorders (137,929 to 203,663), and a 46 percent increase in
the backlog of purchase requests (27,666 to 40,433). The increase in backorders
adversely effected depot-level repair and overhaul work on a wide range of aircraft
and components at the Oklahoma Air Logistics Center.

An August 31, 2000, memorandum from the Under Secretary of Defense for
Acquisition, Technology, and Logistics to the Under Secretary of Defense
(Comptroller) discussed the impacts of acquisition workforce reductions. The
memorandum referred to the Inspector General, DoD, Report No. D-2000-088 and
expressed concern that acquisition workforce reductions may have been too drastic
and are having an adverse impact. The memorandum states:

       I recommend that DoD not have any further mandated acquisition workforce
       reductions as a goal after FY 2001. By any terms, the DoD acquisition workforce
       has been drastically reduced while, at the same time the number of DoD
       procurement and contracting actions has increased. The DoD Inspector General
       (IG) report on DoD Acquisition Workforce Reduction Trends and Impacts, No.
       D-2000-088, dated February 29, 2000, provides data that indicate significant
       adverse impacts from acquisition workforce reductions already taken. In addition,
       the DoD acquisition organizations, in the IG report, identified adverse impacts
       that may occur from further downsizing of the acquisition workforce.
       We have gone as far as we can in mandating acquisition workforce reductions
       without causing significant adverse impacts on the DoD acquisition system.

The effect of the memorandum would be to remove the goal of further reductions in
the acquisition workforce after FY 2001 from the reports for the National
Partnership for Reinventing Government and the Government Performance and
Results Act. The August 31 memorandum stopped reporting of the goal but did not
stop further reductions of acquisition personnel.

On October 11, 2000, the Under Secretaries of Defense (Acquisition, Technology,
and Logistics) and (Personnel and Readiness) jointly issued a report, “Shaping the
Civilian Acquisition Workforce of the Future.” The report is a roadmap for
dealing with the human resource challenges of recruiting, retaining, and training the
acquisition workforce of the future. The report does not discuss the number of
acquisition personnel required at contracting activities to deal with the contracting
workload and challenges.

In our prior reports, we made no recommendations about the acquisition workforce.
However, numerous urgent procurements, poor documentation of price
reasonableness, and the overpricing identified in our sample, and the belief that
overpricing will continue unless there are adequate numbers of acquisition
personnel at the contracting organizations, leads us to believe that DoD needs to
initiate corrective action. The Under Secretary for Acquisition, Technology, and
Logistics should require the Senior Acquisition Executives of the Defense


                                         19
Components to annually identify the number of acquisition personnel needed at each
contracting activity to adequately perform the contracting workload so that all the
required functions of awarding a contract are accomplished, to include obtaining
and analyzing the data needed for determining fair and reasonable prices.
Identifying the number of acquisition personnel needed at the contracting activities
should result from a bottom-up review and not from a top-down budget allocation
to the contracting activity.

Price Trends. The DoD, report, “Price Trend Analysis of Exempt Commercial
Items,” April 1, 2000, addressed efforts to comply with subsection 803(c) of the
Strom Thurmond National Defense Authorization Act for FY 1999, which requires
DoD to conduct a commercial price trend analysis.

DLA did the best job of trend analysis and was able to identify aggregated cost
growth over the most recent 5 years ending September 30, 1999, of 23 percent for
commercial items bought through exempt contracts from sole sources of supply.
This compared to an overall aggregate material cost growth of 12.3 percent.

The Army, Navy, and Air Force results for the FY 1999 price trend analysis report
lacked the quantitative depth and analysis of the DLA effort. The Army and Navy
did not identify any problems or trends from their analysis. The Air Force did not
complete its trend analysis and is continuing to perform followup analysis with field
organizations as necessary to ensure that the largest price changes
(increases/decreases of more than 25 percent) are valid and to look for problem
areas and successes associated with commercial price trends.

Analysis and Reports Identifying Unreasonable Prices. The Defense Supply
Center Richmond was the only office that performed any type of trend analysis and
quality control. Contracting officials provided a list for the period from
October 1999 through May 2000 of all contract actions in which price was
determined to be unreasonable or in which reasonableness could not be determined.
The list included 682 actions, totaling $15 million, where reasonableness could not
be determined, and 3,707 actions, totaling $72 million, in which the price was
determined to be unreasonable.

The Defense Supply Center Richmond was unique among the offices visited during
our audit because items were coded as bought at unreasonable prices or at prices
that could not be determined to be reasonable or unreasonable. The Defense Supply
Center Richmond made such purchases because the items were needed and delays in
obtaining the items would have affected readiness. In any event, the office was
reviewing the data for trends involving contractors and buyers. Additional reviews
were planned for items changed to catalog priced actions from other types of
previous codes. The information from the reviews as well as the knowledge of
contractors who refuse to provide information would greatly assist management in
developing strategies to solve these problems. In addition to commercial price
trends, we believe all major buying activities should perform such analysis for
noncommercial items purchased sole-source and when only one offer is received for
commercial items. This information should assist in identifying and preventing
future problems.



                                     20
Fair and Reasonable Prices

     Fifty-two contract actions that lacked documentation to adequately support price
     reasonableness were overpriced. The 52 actions, encompassing 56 national stock
     numbers, resulted in estimated overpricing of $23.1 million. Overall, we
     calculated that DoD paid 22.7 percent more than if a fair and reasonable price had
     been negotiated. However, on an item by item basis, some of the pricing problems
     were significant. On 20 of the 56 items, we calculated that prices were over
     50 percent greater than a reasonable price.

     A range of anticipated prices can be established prior to negotiating contracts.
     However, we found that contracting officials were not using historical prices,
     DCAA reviews, government cost estimates, and other data available through basic
     market research to establish such ranges. Accordingly, we believe the prices we
     calculated have validity. The amount of overpricing for 48 of the 52 actions was
     calculated through use of prior history. We took prior contract prices for the same
     items and adjusted those prices for inflation, quantity discounts, and a learning
     curve to come up with a fair and reasonable price. We used DoD deflators from
     the “National Defense Budget Estimates for FY 2001,” to compute the amount of
     inflation to be added to the base price. In addition, we used a 95 percent learning
     curve to further adjust the price for differences in quantities procured. The
     resulting prices were then compared to the contract prices to determine the amount
     of overpricing. One of the overpriced actions was computed using prior history,
     but quantity was not a factor. Of the remaining three overpriced contract actions,
     one was determined using the price/technical estimates prepared by the Government
     and comparing those to the contract price, another was computed by eliminating
     unallowable costs that were included in the contract price, and one was computed
     using the DLA pricing objective. Table 6 depicts 10 actions having the most
     dramatic price increases for parts related to actions reviewed. See Appendix D for
     a complete listing of the 52 actions encompassing 56 overpriced items.




                                         21
                         Table 6. Dramatic Price Increases of Selected Parts

      Item Description           Awarded Unit Price   Adjusted Prior Unit Price   Percent Increase

      Dewar cooler assembly         $46,947                   $13,058                   259.5

      Manifold assembly               7,790                     3,159                  146.6

      Aircraft window panel           4,711                     2,378                    98.1

      Primary piston rod              3,860                     1,755                   119.9

      Battery Box                     1,606                       360                  346.6

      Drop thread style 106             650                        61                   959.5

      Curl ring diffusers               615                       312                    99.5

      Carriage bleeds                   553                       274                  101.6

      Gate valve parts kit              350                       167                  110.1

      Electrical solenoid               222                        87                  155.4




Management Comments on the Finding and Audit Response

Comments from the Office of the Under Secretary of Defense for
  Acquisition, Technology, and Logistics
     The Director, Defense Procurement responded for the OUSD(AT&L). The
     Director stated the comments were based on input received from the Military
     Departments and Defense agencies which were included as part of its response
     to the draft report. The Director stated that the Military Departments and DLA
     do not agree with assertions that price reasonableness determinations were
     deficient, nor do they believe that overpricing occurred for many of the actions
     cited in the draft report. The Military Departments also indicated that they have
     experienced no pervasive problems with obtaining information requested from
     contractors. The Military Departments and Defense agencies believe such
     actions do not indicate systemic problems. The Director further stated that
     Appendix A acknowledges that the pricing actions reviewed by this report were
     judgmentally selected, statistical sampling techniques were not employed, and


                                               22
therefore, these results cannot be extrapolated to the universe of contracting
actions. The Director went on to state that this supports their conclusion that,
even though the Military Departments and Defense agencies agree that some
actions have been overpriced or inadequately documented, the findings do not
establish that there is a systemic management problem arising from a lack of
management controls. In a meeting after receipt of the comments, the Office of
the Director, Defense Procurement, Military Departments, and DLA stated they
agree that documentation of price reasonableness was often inadequate and
needed improvement.

The Acting Deputy Under Secretary of Defense (Acquisition Reform)
commented that the report does not recognize the extensive efforts made to
safeguard DoD interests and the gains made by acquisition reform. The Acting
Deputy Under Secretary of Defense (Acquisition Reform) listed the new
guidance policy and training initiated to improve pricing in the acquisition
reform environment. The Acting Deputy Under Secretary of Defense
(Acquisition Reform) stated that acquisition reform objectives include ensuring
that contracting officers have more choices and discretion. It is important to
note that contracting officers remain vanguards of the public trust and are
charged with taking the actions necessary to ensure the public interests are
preserved, to include obtaining cost or pricing data whenever the contracting
officer believes it to be necessary. Acquisition reform has not taken this away
and in fact has provided additional tools to ensure the contracting officer obtains
the best pricing. The details of her comments are shown in the Management
Comments Section of this report.

Audit Response. The Director’s comments were based on feedback from the
Military Departments and DLA, which reported exceptions to our findings of
problems pertaining to many of the contracts reviewed. Although the Military
Departments have provided information asserting that they completed price
analyses that conform to the requirements of the FAR for most of the contracts
cited by the audit, the contract file documentation does not support their
assertions.

The Military Departments and DLA originally provided comments that
disagreed with 65 of the 145 contract actions. In subsequent meetings and
discussions, disagreements were reduced to 42 of the 145 actions. We continue
to believe that our audit results are correct. Appendix F provides a summary of
the Military Departments and DLA comments pertaining to their contract
actions, and our audit response.

The extent of our audit coverage represented a substantial portion of the contract
universe. The universe of sole-source and one-bid actions where cost and
pricing data was not obtained, as reported in the DD-350 contract database was
$8.5 and $9.6 billion for FYs 1998 and 1999, respectively. For the 18 locations
that we included in our review, the contract dollars for the same criteria were
$7.0 billion and $7.1 billion, respectively. Therefore, the locations that we
visited accounted for about 78 percent of the dollar value of the universe. The
DD-350 contract database contained numerous errors that precluded use of
statistical sampling procedures.


                                    23
Recommendations, Management Comments, Audit Response,
  and Required Actions

    Revised Recommendations. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics did not agree with our characterization of previous
    efforts by the Military Departments to identify commercial items at risk for
    unusual price escalation as inaction. We agree with the Under Secretary and
    accordingly, revised the report and draft Recommendation 1.b. We also revised
    Recommendations 1.c., 1.d., and 2.f.

    Regarding Recommendation 1, the Military Departments and DLA provided
    unsolicited comments. These comments were generally summarized in the
    Under Secretary’s response to the recommendations. Accordingly, we did not
    address the Military Departments and DLA comments. The details of their
    comments are shown in the Management Comments Section of this report.

    1. We recommend that the Under Secretary of Defense, Acquisition,
    Technology and Logistics:

                   a. Initiate a process to require that the Senior Acquisition
    Executives in the Defense components identify the number of acquisition
    personnel at contracting organizations required to realistically perform
    contracting workload so that the required functions of awarding a contract,
    to include obtaining the data needed for determining fair and reasonable
    prices, are accomplished. The workforce requirement estimate should
    result from a bottom-up review of workload and personnel and not from the
    top down budget allocation for the contracting organization.

    Under Secretary of Defense for Acquisition, Technology, and Logistics and
    Army Comments. The Director, Defense Procurement partially concurred
    with the recommendation and agreed that future staffing requirements at
    contracting organizations need review, in light of future workload. However,
    the USD(AT&L) and the Under Secretary of Defense (Personnel and Readiness)
    have already initiated a major acquisition “bottom-up” workforce review.
    Components will develop and implement comprehensive, needs-based human
    resource performance plans for the acquisition workforce by July 1, 2001. The
    Army stated that, when 12 of 18 contracting organizations are concerned about
    the contracting officers’ workloads being too heavy because of staffing
    shortages, there appears to be a problem. The shortcomings are the result of
    reducing the contracting workforce by more than 50 percent over the past 10
    years. According to the Army, significant additional reductions are projected.
    The remaining workforce is now faced with a more increasingly complex
    workload. The senior Army leadership was being briefed on what Army
    acquisition officials believed is a contracting manpower crisis.

    Audit Response. The Director, Defense Procurement comments were
    responsive.




                                      24
              b. Ensure that the Army and Navy improve compliance with
subsection 803(c) of the Strom Thurmond National Defense Authorization
Act for FY 1999 by conducting price trend analyses of commercial items
that are supported by documentation.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Defense Procurement concurred, stating that the
Army, Navy, and Air Force are continuing to review price histories of sole-
source commercial items, as called for by the Fiscal Year 1999 Defense
Authorization Act. A report of their efforts will be included in the report on
Price Trend Analysis expected to be submitted to Congress in April 2001. The
Director stated that as with the April 2000 report, the 2001 report will consist,
for the most part, of an update of DLA’s ongoing Price Trend analysis effort.
The Director did not agree with our initial characterization of previous efforts of
the Military Departments to identify commercial items at risk for unusual price
escalation as “inaction.”

Audit Response. The Director, Defense Procurement comments were
responsive. As of the time of our final report, the Office of the Secretary of
Defense 2001 report to Congress has not been issued.

               c. Initiate price trend analyses at all major contracting
organizations for sole-source and competitive one-bid contract actions where
certified cost or pricing data was not obtained.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Defense Procurement nonconcurred, stating the
contracting officer should determine what form a price analysis should take,
using available information to complete an analysis that supports the price
reasonableness determination. The Military Departments have provided
information that they have completed price analyses for the preponderance of
contracts cited by the audit that conform to the requirements of the FAR.
Audit Response. The Director, Defense Procurement comments were not fully
responsive. As detailed in Appendix F, we disagree that the Military Departments
had completed price analyses that conform to the requirements of the FAR. We
agree that the contracting officer should determine what form a price analysis
should take, but feel additional effort is needed in view of the audit findings.
Our recommendation is targeted at very specific types of contracts (sole-source,
one-bid and no certified cost or pricing data obtained). These are usually more
challenging and high-risk types of contracts to price, and as such, strategic
analyses of pricing of these contracts can provide benefit to the Department.
We revised the recommendation in this final report to make it more specific.
We request the USD(AT&L) reconsider its comments and provide additional
comments in response to the final report.




                                    25
               d. Emphasize to contracting officers the responsibility to
identify contractors that refuse to provide data requested by contracting
officials and institute corrective measures to include the involvement of the
head of the contracting activity.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Defense Procurement partially concurred agreeing
that circumstances that led to customer dissatisfaction, like the denial of data
requested by contracting officials, should be made a part of the overall past
performance evaluation of a contractor. However, the Director stated that this
requirement is already included in the FAR; therefore, there is no need for
additional policy guidance. The Director further stated that although it is
sometimes appropriate to involve higher levels of management in actions taken
in response to contractor refusals to provide data requested by contracting
officials, this decision should be left to the discretion of the respective levels of
management at contracting activities.

Audit Response. The Director’s comments were partially responsive. We
agree that it should be left to the discretion of the respective levels of
management at contracting organizations to determine when it is appropriate to
bring contractor behavior to the attention of higher management. The audit
revealed instances where contractors refused to provide contracting officials
with additional pricing or cost information when requested, especially in cases
where they were the sole source for items needed by DoD. We still believe
awareness of the contracting officials’ duties in these situations needs to be
emphasized. Contracting officials we discussed the issue with felt helpless in
dealing with the contractors because of the noncompetitive nature of the
procurements and the time constraints. The contracting officials did not pursue
the issue any further by either pressuring the contractor to provide the requested
information or by raising the problem to higher level management.
Accordingly, we have revised draft Recommendation 1.d. We request that the
USD(AT&L) reconsider its comments considering the revisions to draft
Recommendation 1.d., and provide additional comments in response to the final
report.

2. We recommend that the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology; Assistant Secretary of the Navy for Research,
Development, and Acquisition; Assistant Secretary of the Air Force
(Acquisition); the Director, Defense Information Systems Agency; and the
Director, Defense Logistics Agency:

              a. Establish procedures that identify situations in the past
leading to urgent procurements and initiate action to alleviate these
conditions from future procurements.

Army Comments. The Army concurred stating that urgent requirements
should be avoided to the maximum extent possible. The Army Materiel
Command has recognized the need to improve requirements forecasting to
reduce spare parts shortages that can result in urgent procurement actions. A
Spare Parts Shortage Integrated Product Team has been established to identify


                                      26
root causes and recommend corrective actions. In addition, the Army has
contracted to replace its legacy inventory management system with state-of-the-
art technology that should dramatically improve forecasting accuracy.

Navy Comments. The Navy concurred in principle and stated that urgent
procurements should be avoided to the maximum extent practicable; however,
they usually arise from the occurrence of unplanned and unpredictable events,
and that cannot be eliminated.

Air Force Comments. The Air Force partially concurred stating that the
findings in the audit report do not provide sufficient evidence to indicate a
systemic problem throughout the Air Force. The Air Force noted that it has no
major problems in this area, because of the fact that processes and procedures
are already in place early in the acquisition planning process to alleviate such
problems.

Defense Information Systems Agency. The DISA concurred stating that it has
implemented a spend plan process in which the details of every procurement
action (such as award date, contractor, amount, etc.) are presented to the Chief
of Staff and the Vice Director before the start of each fiscal year. Once
approved by the Vice Director, the spend plan becomes the baseline for the
year. Through this process, the contracting officers know when to expect
procurement packages, and the program managers can be tracked on their
performance.

Defense Logistics Agency Comments. The DLA partially concurred stating
that it will issue a memorandum to the centers addressing the audit results and
initiating local reviews to identify causes and potential actions for alleviating
urgencies and achieving continued improvements in logistics response time
frames.
Audit Response. The Army, DISA, and DLA comments were responsive. The
Navy comments were not responsive, even though they concurred in principle.
Although the urgent nature of some requirements is justified and cannot be
eliminated, there are many instances of urgency resulting from poor acquisition
planning that can be eliminated with potential cost avoidance to the department.
The Air Force comments did not address the issues. Further, although the Air
Force felt that no systemic problem existed with urgent requirements, we
identified 12 out of 44 Air Force actions that involved urgent requirements.
Although the Air Force may already have processes and procedures in place early
in the acquisition planning process to alleviate the need for urgent requirements, it
appears the procedures may not be working adequately. As an example, in contract
F41608-98-D-0338, the contracting officer prepared an undated determination and
finding for accelerated delivery because of the extremely critical nature and
timeliness of delivery is absolutely essential. The successful contractor submitted
pricing for the “emergency solicitation” in October 1996. Yet, the contractor
proposals expired and additional proposals were reissued throughout 1997.




                                     27
The contract was not awarded until June 1998. We request that the Navy, and Air
Force reconsider their comments and provide additional comments in response to
the final report.

               b. Obtain cost or pricing data when other data are
insufficient to determine reasonableness and use Defense Contract Audit
Agency assistance.

Army Comments. The Army concurred, stating that Army contracting officers
routinely obtain cost or pricing data when required and use DCAA assistance when
appropriate.

Navy Comments. The Navy concurred with respect to other than commercial
items. For commercial items, information other than cost and pricing data may be
obtained and reviewed by DCAA.

Air Force Comments. The Air Force partially concurred but stated that there are
no indications of a systemic problem within the Air Force. The field understands
and appropriately uses correct procedures in applying the exceptions to the
requirement for obtaining certified cost or pricing data. The Air Force stated that
the field recognizes and uses the support of the DCAA, when necessary.

Defense Information Systems Agency. DISA concurred, stating that DISA will
ensure compliance with FAR 15.403 and that a reminder will be issued via the
bulletin board system.

Defense Logistics Agency Comments. DLA partially concurred and stated that
when required, DLA contracting personnel do request cost or pricing data.
Conformance is scrutinized through a normal prenegotiation review process, as well
as through a post-award sampling, both locally and at headquarters. DLA will,
nevertheless, address this recommendation and existing guidance in a memorandum
to its centers.

Audit Response. DISA and DLA comments were responsive, while the Army,
Navy, and Air Force comments were partially responsive. The Army, Navy, and
Air Force assertion that their contracting officers routinely and appropriately obtain
cost or pricing data when it is required, and use DCAA assistance when
appropriate, was not evident for the contracts reviewed. For each contract action
that the Services and DLA disagreed with the audit conclusions, Appendix F,
provides a detailed analysis of the issues and problems of each pricing action. We
request that the Army, Navy, and Air Force reconsider their comments and provide
additional comments in response to the final report

c. Provide necessary tools for contracting officers to determine price
reasonableness including complete price history databases.

Army Comments. The Army concurred, stating that adequate tools are available
to perform price reasonableness determinations including price history. The Army




                                      28
stated that senior management will be reminded of the tools at quarterly
procurement conferences. Senior management should then remind their workforces
to use the tools as well.

Navy Comments. The Navy concurred.

Air Force Comments. The Air Force concurred with the recommendation, stating
that it already has an extensive array of tools in place to adequately support the
field. The Air Force believes it only needs to ensure that its workforce is properly
trained and aware of the available support tools.

Defense Information Systems Agency Comments. DISA concurred stating that a
price history database is maintained in its Pricing Division and that a reminder will
be issued via the bulletin board system.

Defense Logistics Agency Comments. DLA concurred and stated that their
Standard Automated Material Management System used by their contracting
personnel includes a “pricing assistant” that enables a regression analysis of the
substantial price history, plus supplemental procurement history of military buying
offices available in commercial logistics data products used by their centers. DLA
is also developing new and enhanced tools to further assist contracting, and will
issue a field memorandum addressing this audit recommendation, existing policies,
and the new tools that will support the procurement function.

Audit Response. The Army, Air Force, DISA, and DLA comments were
responsive. Although the Navy concurred with the recommendation, it did not
provide any plan of action for compliance. We request that the Navy provide
additional comments in response to the final report.

              d. Consider in the performance appraisal process of
contracting officers, whether cost or pricing data were obtained when
needed and whether price analysis was properly performed.

Army Comments. The Army nonconcurred stating that securing cost or pricing
data and performance of a proper price analysis is already part of its evaluation
criteria for contracting officers.

Navy Comments. The Navy nonconcurred stating that securing cost or pricing
data and performance of a proper price analysis is already a part of the evaluation
criteria for contracting officers. The Navy believes that it would be inappropriate
to explicitly specify this as an evaluation factor.

Air Force Comments. The Air Force partially concurred with the recommendation
and stated that the aspect of securing cost or pricing data and the performance of a
proper price analysis is already well prescribed in the current performance appraisal
process. The Air Force, as a standard practice, regularly reviews job performance
and responsibilities of contracting officers against professional standards. This
review includes an assessment on a case by case basis on whether the contracting
officer took the most appropriate level of diligence with respect to pricing
information and cost data in a given procurement.


                                     29
__________________________________________________________________________


      Defense Information Systems Agency Comments. DISA concurred and stated
      that it uses a pass/fail civilian appraisal system, and that this level of detail cannot
      be put into performance plans. However, all supervisors of contracting officers
      will be briefed on key rating evaluation criteria to include proper price analysis.
      Additionally, supervisors will be briefed to include proper price analysis criteria
      when recommending contracting officers for cash awards for outstanding
      performance.

      Defense Logistics Agency Comments. DLA partially concurred and stated that
      these factors are implicitly considered in its contracting officer performance
      appraisals. Nonetheless, DLA will include a discussion of this matter in its field
      memorandum addressing the audit results and recommendations.

      Audit Response. The Army, Navy, Air Force, DISA, and DLA comments address
      the intent of the recommendation.

                     e. Quantitatively identify use of claimed exceptions to the
      Truth in Negotiations Act at all major contracting offices and require the
      Head of the Contracting Activity to establish management controls that will
      qualitatively address use of the exceptions.

      Army Comments. The Army nonconcurred stating that this requirement would
      create additional workload and little benefit at a time when it is facing a contracting
      manpower crisis.

      Navy Comments. The Navy nonconcurred but stated that it agrees that the Head
      of Contracting Activity needs management controls that will qualitatively address
      use of the exceptions. However, in the Navy, this is already being done during the
      review of the business clearance and systemically during the Procurement
      Performance Measurement and Assessment process.

      Air Force Comments. The Air Force partially concurred with the recommendation
      and stated that the findings of the report do not indicate a systemic problem within
      the Air Force. The Air Force already has procedures in place to address this issue.
      In addition, Inspector General, DoD, Report No. D-2001-061, “Waivers of
      Requirement for Contractors to Provide Cost or Pricing Data,” February 28, 2001,
      contradicts the findings of this report and indicates that the DoD has excellent
      processes and procedures to adequately manage its waivers, when required.

      Defense Information Systems Agency Comments. DISA concurred and stated
      that there currently is no activity level quantitative process in place to track
      exceptions to TINA, other than through Departmental level, DD-Form 350
      reporting. However, pre- and post-negotiation business clearance
      memorandums contain information regarding cost and pricing data and the
      applicability of exceptions. The Defense Information Technology Contracting
      Office will use these memorandums to collect the data and determine
      appropriate use of TINA exceptions. In addition, compliance reviews will start
      monitoring all actions listing an exception to TINA in the pricing memorandums
      and maintain this data for trend analysis.



                                             30
Defense Logistics Agency Comments. DLA partially concurred and stated that
reviews of procurement actions involving all types of TINA exceptions are
accomplished through its normal preaward clearance reviews, and various local and
headquarters DLA reviews of the procurement function, which should substantially
meet the objectives of this recommendation. DLA will also send a memorandum to
the field to underscore the importance of continuing to adequately document and
monitor this matter, to continue to assure the validity of all TINA exceptions.

Audit Response. The DISA and DLA comments were responsive. The Army,
Navy, and Air Force comments did not address the intent of the
recommendation. We disagree with the Army that this requirement would have
little benefit. We also disagree with the Navy because the results of our audit
indicate that whatever effort is being expended by Navy in this regard is not
adequately working. Although the Air Force does not feel there is a systemic
problem within the Air Force, our audit indicates otherwise. The Finding and
Appendix F details the problems with inappropriate use of exceptions.
Although Inspector General, DoD, Report No. D-2001-061, “Waivers of
Requirement for Contractors to Provide Cost or Pricing Data,” February 28,
2001, did not find any problems with the use of waivers to TINA, the universe
used to select contract actions for that review was entirely different from the
universe used in our audit. Report D-2001-061, clearly explains that
contracting officials took the time to document and prepare a waiver for the
Head of the Contracting Activity to sign, and did it well. However, this audit
shows that contracting officials who chose to use an exception to TINA had no
paperwork to submit and did not have to get Head of Contracting Activity
approval. Use of an exception to TINA is much easier for contracting officials
to do than prepare a waiver. Of the 145 contract actions reviewed, 47 had
invalid exceptions. We request that the Army, Navy, and Air Force reconsider
their comments and provide additional comments in response to the final report.

               f. Establish a system similar to that at the Defense Supply
Center Richmond that will identify sole-source and competitive one-bid
commercial and noncommercial procurements at all major buying
organizations and list contracts issued with unreasonably priced items.
Institute a process for corrective actions for future contracts with the same
vendor.

Army Comments. The Army partially concurred stating that future Procurement
Management Reviews will include a review of contract pricing. If an unreasonably
priced contract is found, they will take the appropriate action to ensure that future
contracts for the items are awarded at a reasonable price.

Navy Comments. The Navy concurred.

Air Force Comments. The Air Force partially concurred with the recommendation
and stated that contracting officers must consider the last price paid in their fair and
reasonableness price determination. If the current price variance exceeds the prior
index adjusted price by more than 25 percent, Defense Federal Acquisition
Regulation 215.404-1(a) requires that further analysis must be accomplished and


                                      31
__________________________________________________________________________


      documented. The Air Force is in the process of developing a program that will
      alert the contracting officer of any action that fits this situation.

      Defense Information Systems Agency Comments. DISA concurred and stated
      that although none of the Defense Information Technology Contracting Office
      contracts were cited in the report as containing unreasonably priced items, it
      recognizes the potential for such a problem. Therefore, the Head of the
      Contracting Activity is implementing preventive action whereby the price analysts
      will review any pricing solicitations that receive only one response.

      Defense Logistics Agency Comments. DLA partially concurred and stated that
      both DoD and DLA have longstanding programs for seeking to secure competition
      and improved prices on noncompetitive items. DLA will send a memorandum to its
      field offices which addresses the audit results, and require feedback on local actions
      and results achieved.

      Audit Response. The DISA comments were responsive. The Army, Navy, Air
      Force, and DLA comments were partially responsive. Although the Army review
      of contract pricing in future Procurement Management Reviews is a positive step
      we believe more needs to be done. Although the Navy concurred with the
      recommendation, it did not provide any input as to planned actions. The Air Force
      is in the process of developing a program that will alert the contracting officer of
      any action that fits the 25 percent variance in price; however, more action is
      needed. The Defense Federal Acquisition Regulation guidance that addresses
      proposal analysis for spare parts or support equipment also states that proposal
      analysis should be conducted on all significantly high-dollar value line items, and a
      random sample done on the remaining low dollar items. In addition, the Defense
      Federal Acquisition Regulation guidance is limited to spare parts or support
      equipment and does not include service type contracts such as professional
      administrative and support. Although DLA plans to send a memorandum to its
      field offices which addresses the audit results, and require feedback on local actions
      and results achieved, more aggressive action needs to be taken. We believe the
      actions that are being initiated at the supply center in Richmond are a good step.
      However, these actions need to be extended to other DLA centers. The Army,
      Navy, and Air Force should take action to establish a system similar to the Defense
      Supply Center Richmond, which identifies overpriced contracts and targets actions
      on future contracts to deal with the excessive prices. We revised the
      recommendation to clarify the intent of the recommendation. We request the
      Army, Navy, Air Force, and DLA provide comments on the revised
      recommendation.

                    g. Include in Procurement Management Reviews whether cost
      or price data was obtained as needed, price analysis was properly
      performed, price reasonableness was adequately established, and urgent
      awards were necessary.

      Army Comments. The Army concurred stating these procedures will be covered
      in all future Program Management Reviews.

      Navy Comments. The Navy concurred.


                                            32
Air Force Comments. The Air Force concurred with the recommendation and
stated that this is already a key aspect of the Air Force Procurement Management
Review Guide.

Defense Information Systems Agency Comments. DISA stated that the scope of
Procurement Management Reviews is not under the purview of the Director, DISA,
but rather the Director, Defense Procurement. However, internal compliance
reviews will be conducted to ensure this occurs.

Defense Logistics Agency Comments. DLA concurred and stated that these
elements are examined during Procurement Management Reviews. Nonetheless, a
discussion of this matter will be included in memorandums to the field.

Audit Response. Management comments from the Army, Air Force, DISA,
and DLA were responsive. We request that the Navy provide additional
comments in response to the final report stating their plan of action.

Management Comments Requested. Management is requested to comment on
the items indicated with an X in the following table.




          Table 7. Management Comments Requested on the
                        Recommendations

      Recommendation         Organization      Additional Comments
          Number                                    Requested

             1c                  OSD                     X
             1d                  OSD                     X
             2a                  Navy                    X
                               Air Force                 X
             2b                 Army                     X
                                 Navy                    X
                               Air Force                 X
             2c                  Navy                    X
             2e                 Army                     X
                                 Navy                    X
                               Air Force                 X
             2f                 Army                     X
                                 Navy                    X
                               Air Force                 X
                                 DLA                     X
             2g                  Navy                    X


                                    33
Appendix A. Audit Process

Scope

    Work Performed. We reviewed the methodology DoD used to establish price
    reasonableness for contract actions awarded from FY 1998 through FY 1999 in
    which certified cost or pricing data was not required. The review included analyses
    of DoD and contractor generated documentation developed to support price
    reasonableness determinations along with interviews of contracting officials.

    Our universe consisted of contract actions listed in the DD-350 database that were
    sole source and competitive with one-bid actions of more than $100,000 without
    certified cost or pricing data that were awarded at contracting sites with at least $25
    million in activity. The table below identifies the sites visited along with the
    actions reviewed.



                                   Organizations Visited

                                 Number of Sites
                                 Visited Within         Actions        Dollar Value
         Organizations Visited    Organization         Reviewed         Reviewed

         Army                        5 Sites           47 actions      $289,760,098

         Navy                        5 Sites           27 actions      $102,100,591

         Air Force                   5 Sites           44 actions      $217,770,657

         Defense Commissary
         Agency                      1 Site             1 action         $9,912,328

         DISA                        1 Site            7 actions        $18,946,637

         DLA                         1 Site           19 actions        $13,302,736
                                 _____________      _____________     _____________
         Totals                     18 Sites          145 actions      $651,793,047



    We reviewed 145 contract actions, 103 sole-source and 42 competitive one-bid
    actions, valued at $652 million, on contracts with values of $3.1 billion. On the
    145 contract actions, 121 contractors were awarded these actions. These actions
    included 52 commercial and 93 noncommercial items. The contract actions



                                              34
    reviewed dated from FYs 1998 through 1999. We examined basic contracts,
    delivery and task orders, negotiation memorandums, acquisition plans, source
    selection decisions, price analyses, justification and approvals, and miscellaneous
    correspondence. We interviewed contract and program personnel at 18 audit sites.

    Related Inspector General, DoD, Report No. D-2001-061, “Waivers of
    Requirement for Contractors to Provide Certified Cost or Pricing Data,”
    February 28, 2001, used a sample of contracts coded in the automated contract
    database as having a waiver. This audit included items that were not coded as
    having a waiver; thus the eight contracts included in our review with waivers were
    not subject to review in that audit.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains to
    achievement of the following goal and subordinate performance goal:

             •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
                 future by pursuing a focused modernization effort that maintains U.S.
                 qualitative superiority in key warfighting capabilities. Transform the
                 force by exploiting the Revolution in Military Affairs, and reengineer
                 the Department to achieve a 21st century infrastructure. (00-DoD-
                 2.1)

             •   FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
                 infrastructure by redesigning the Department’s support structure and
                 pursuing business practice reforms. (00-DoD-2.3)

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in the DoD. This report provides coverage of the
    Defense Contract Management high-risk area.


Methodology

    Use of Computer-Processed Data. To achieve the audit objectives, we relied on
    computer-processed data from the DoD DD-350 database for contract actions of
    more than $100,000. Although we did not perform a formal reliability assessment
    of the computer-processed data, we determined that the contract delivery order
    numbers, award dates, and amounts generally agreed with the information in the
    computer-processed data. We did find errors but not of the magnitude that would
    preclude use of the computer-processed data to meet the audit objectives or that
    would change the conclusions in the report.

    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from November 1999 through April 2001in accordance with auditing



                                         35
    standards issued by the Comptroller General of the United States, as implemented
    by the Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contracted individuals and
    organizations within DoD. Further details are available upon request.


Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system
    of management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed
    management control procedures related to procurement of goods and services when
    certified cost or pricing data was not required. Specifically, we reviewed
    management controls over acquisition, procurement, contract administration, and
    contract management.

    Adequacy of Management Controls. We identified material management control
    weaknesses as defined by DoD Instruction 5010.40. At the Army, Navy, Air
    Force, DISA, and DLA organizations visited, controls did not ensure that tasks
    were properly planned to allow for obtaining relevant documentation supporting
    price reasonableness determinations. In addition, controls were not adequate for
    higher level contracting officials’ involvement in contract awards that were
    significantly higher than previously paid and in situations when contractors refused
    to provide cost information. The Army, Navy, Air Force, and DLA contracting
    organizations’ management controls for acquisition, procurement, contract
    administration, and contract management were not adequate to ensure that
    contracts were reasonably priced and that certified cost or pricing data were
    obtained in compliance with the TINA. All the recommendations, if
    implemented, will improve the adequacy of price reasonableness determinations
    and compliance with the TINA. A copy of the report will be provided to senior
    officials responsible for management control within the Office of the Under
    Secretary of Defense for Acquisition, Technology, and Logistics and the Military
    Departments.

    Adequacy of Management’s Self-Evaluation. DoD contracting organizations did
    not perform reviews of areas related to the issues we identified by the audit.




                                         36
Appendix B. Prior Coverage

Inspector General

        Inspector General, DoD, Report No. D-2001-077, “Buying Program of the
        Standard Automated Materiel Management System Automated Small Purchase
        System: Defense Supply Center Philadelphia,” March 13, 2001.

        Inspector General, DoD, Report No. D-2001-061, “Waivers of Requirement for
        Contractors to Provide Certified Cost or Pricing Data,” February 28, 2001.

        Inspector General, DoD, Report No. D-2001-001, “Contract Award for the Fluid
        Flow Restrictor Spare Part,” October 3, 2000.

        Inspector General, DoD, Report No. D-2000-192, “Results of the Defense
        Logistics Agency Strategic Supplier Alliance for Catalog Items,”
        September 26, 2000.*

        Inspector General, DoD, Report No. D-2000-098, “Spare Parts and Logistics
        Support Procured On A Virtual Prime Vendor Contract,” June 14, 2000.

        Inspector General, DoD, Report No. D-2000-099, “Procurement of the Propeller
        Blade Heaters for the C-130 and P-3 Aircraft,” March 8, 2000.

        Inspector General, DoD, Report No. 99-218, “Sole-Source Noncommercial Spare
        Parts Orders On A Basic Ordering Agreement,” October 12, 1999.

        Inspector General, DoD, Report No. 99-217, “Sole-Source Commercial Spare Parts
        Procured On A Requirements Type Contract,” August 16, 1999.*

        Inspector General, DoD, Report No. 99-026, “Commercial Spare Parts Purchased
        On A Corporate Contract,” January 13, 1999.

        Inspector General, DoD, Report No. 98-088, “Sole-Source Prices for Commercial
        Catalog and Noncommercial Spare Parts,” October 13, 1998.

        Inspector General, DoD, Report No. 98-064, “Commercial and Noncommercial
        Sole-Source Items Procured On Contract N000383-93-G-M111,” June 24, 1998.

*These reports identified where fair prices were received because of the way the contract was structured
 and cost data was received from the contractor.




                                                   37
                                          Accepted Catalog Prior Prices Used Were Used Competitive         Accepted Costs
           Locations/                      Pricing Without       Not Justified     Pricing When No         That Were Not
         Contract Number                  Additional Review     as Reasonable     Competition Existed   Supported or Warranted




                                                                                                                                 Reasonableness Determination Problems
                                                                                                                                                                         Appendix C. Summary of Price
         ARMY

     IOC1, Rock Island, IL
     DAAA09-98-C-0070                              -                 X                     -                      -


     CECOM2, Fort Monmouth, NJ
     DAAB07-97-C-J230                              -                 X                     -                      -
     DAAB07-97-C-J541                              -                  -                    X                      -
     DAAB07-97-C-J542                              -                  -                    X                      -
     DAAB07-98-C-6004                              X                  -                    -                      -
     DAAB07-98-C-B263                              -                 X                     -                      -
     DAAB07-98-C-D510                              -                 X                     -                      -
38




     TACOM3, Warren, MI
     DAAE07-00-P-S009                              -                  -                    -                     X
     DAAE07-94-D-A013                              X                  -                    -                      -
     DAAE07-96-C-X124                              X                  -                    -                      -
     DAAE07-96-D-T024                              X                  -                    -                      -
     DAAE07-96-D-T024                              X                  -                    -                      -
     DAAE07-97-G-T003                              -                  -                    -                     X
     DAAE07-98-D-T041                              -                  -                    -                     X
     DAAE07-99-C-L038                              X                  -                    -                      -
     DAAE07-99-C-N017                              -                 X                     -                      -
     DAAE07-99-C-N029                              -                 X                     -                      -

     Note: See the footnotes at the end of the appendix.
                                          Accepted Catalog Prior Prices Used Were Used Competitive         Accepted Costs
           Locations/                      Pricing Without       Not Justified     Pricing When No         That Were Not
         Contract Number                  Additional Review     as Reasonable     Competition Existed   Supported or Warranted


     DAAE07-99-C-N045                              -                 X                     -                      -
     DAAE07-99-C-N049                              -                 X                     -                      -
     DAAE07-99-C-Q008                              -                  -                    -                     X
     DAAE07-99-C-Q011                              X                  -                    -                      -
     DAAE07-99-C-T023                              -                  -                    -                     X
     DAAE07-99-C-T067                              -                  -                    X                      -
     DAAE07-99-D-N021                              -                  -                    X                      -


     TACOM3, Rock Island, IL
     DAAE20-97-C-0242                              -                 X                     -                      -
     DAAE20-98-C-0017                              -                  -                    X                      -
39




     DAAE20-99-C-0022                              -                 X                     -                      -
     DAAE20-99-C-0016                              -                  -                    -                     X
42




     DAAE20-99-C-0028                              -                 X                     -                      -
     DAAE20-99-C-0072                              -                  -                    -                     X
     DAAE20-99-C-0073                              X                  -                    -                      -
     DAAE20-99-C-0074                              -                  -                    X                      -
     DAAE20-99-C-0082                              -                  -                    -                     X
     DAAE20-99-C-0110                              -                 X                                            -
     DAAE20-99-C-0113                              -                  -                    -                     X
     DAAE20-99-C-0123                              -                 X                     -                      -
     DAAE20-99-D-0026                              -                  -                    X                      -
     DAAE20-99-D-0099                              -                  -                    X                      -


     Note: See the footnotes at the end of the appendix.
                                          Accepted Catalog Prior Prices Used Were Used Competitive         Accepted Costs
           Locations/                      Pricing Without       Not Justified     Pricing When No         That Were Not
         Contract Number                  Additional Review     as Reasonable     Competition Existed   Supported or Warranted




     MICOM4, Huntsville, AL
     DAAH01-98-C-0155                              -                 X                     -                      -
     DAAH01-99-D-0076                              -                 X                     -                      -
     DAAH23-98-C-0133                              X                  -                    -                      -
     DAAH23-98-D-0014                              -                 X                     -                      -
     DAAH23-98-D-0117                              -                 X                     -                      -
     DAAJ09-96-C-0116                              -                  -                    -                     X
     DAAJ09-97-D-0196                              -                 X                     -                      -
     DAAJ09-97-D-0202                              X                  -                    -                      -


      Army Subtotal:                              10                 18                    8                     10
40




         NAVY


     NAVAIR5, Pax River, MD
     N00019-96-C-0220                              X                  -                    -                      -
     N00019-97-D-2008                              -                  -                    -                     X
     N00019-98-C-0092                              -                  -                    -                     X
     N00019-99-C-1059                              -                  -                    -                     X
     N00019-99-C-1252                              X                  -                    -                      -
     N00019-99-C-1330                              -                 X                     -
     N00019-99-C-1598                              X                  -                    -                      -


     Note: See the footnotes at the end of the appendix.
                                          Accepted Catalog Prior Prices Used Were Used Competitive         Accepted Costs
           Locations/                      Pricing Without       Not Justified     Pricing When No         That Were Not
         Contract Number                  Additional Review     as Reasonable     Competition Existed   Supported or Warranted


     N00019-99-C-1648                              -                                       X                      -
     N00019-99-C-1681                              -                  -                    -                     X



     FISC6, Philadelphia, PA
     N00140-97-D-1756                              X                  -                    -                      -
     N00140-98-A-D310                              X                  -                    -                      -
     N00140-98-C-1071                              X                  -                    -                      -
     N00140-98-D-0341                              X                  -                    -                      -
     N00140-98-D-4551                              X                  -                    -                      -
     N00140-99-D-E220                              X                  -                    -                      -
41




     NAVICP7, Philadelphia, PA
     N00383-97-G-005B                              -                  -                    -                     X
     N00383-98-C-019F                              -                 X                     -                      -
     N00383-98-D-003G                              -                 X                     -                      -
     N00383-99-C-D010                              -                 X                     -                      -
     N00383-99-C-P014                              -                 X                     -                      -


      Navy Subtotal:                               9                  5                    1                      5




     Note: See the footnotes at the end of the appendix.
                                          Accepted Catalog Prior Prices Used Were Used Competitive         Accepted Costs
           Locations/                      Pricing Without       Not Justified     Pricing When No         That Were Not
         Contract Number                  Additional Review     as Reasonable     Competition Existed   Supported or Warranted


        AIR FORCE


     Warner Robbins ALC8, GA
     F09603-98-C-0296                              -                 X                     -                      -
     F09603-98-C-0303                              -                  -                    X                      -
     F09603-99-D-0250                              X                  -                    -                      -


     ASC9, Wright-Patterson AFB, OK
     F33657-96-D-0021                              -                  -                    -                     X
     F33657-98-C-0014                              X                  -                    -                      -


     Oklahoma City ALC8, OK
     F34601-96-C-0326                              -                  -                    X                      -
42




     F34601-97-C-0244                              X                  -                    -                      -
     F34601-97-G-0002                              -                  -                    -                     X
     F34601-98-G-0004                              X                  -                    -                      -


     San Antonio ALC8, TX
     F41608-97-A-0001                              X                  -                    -                      -
     F41608-97-A-0001                              X                  -                    -                      -
     F41608-98-C-0698                              -                 X                     -                      -
     F41608-98-D-0338                              -                  -                    X                      -
     F41608-98-D-0531                              -                 X                     -                      -
     F41608-98-F-0144                              X                  -                    -                      -

     Note: See the footnotes at the end of the appendix.
                                          Accepted Catalog Prior Prices Used Were Used Competitive         Accepted Costs
           Locations/                      Pricing Without       Not Justified     Pricing When No         That Were Not
         Contract Number                  Additional Review     as Reasonable     Competition Existed   Supported or Warranted


     F41608-99-C-0237                              -                  -                    X                      -
     F41608-99-C-0530                              -                 X                     -                      -
     F41608-99-C-0574                              -                  -                    -                     X
     F41608-99-D-0079                              -                  -                    -                     X
     F41608-99-D-0185                              X                  -                    -                      -
     F41608-99-D-0341                              -                  -                    X                      -

     Ogden ALC8, UT
     F42630-98-C-0331                              -                 -                     -                     X
     F42630-98-C-0341                              -                 X                     -                     -
     F42630-98-D-0163                              X                  -                    -                      -
43




     F42630-99-C-0022                              -                 X                     -                      -
     F42630-99-C-0039                              -                 X                     -                      -
     F42630-99-C-0074                              -                 X                     -                      -
     F42630-99-C-0084                              -                  -                    X                      -
     F42630-99-C-0139                              -                  -                    -                     X
     F42630-99-C-0143                              -                 X                     -                      -
     F42630-99-C-0161                              -                 X                     -                      -
     F42630-99-C-0178                              X                  -                    -                      -
     F42630-99-C-0200                              -                 X                     -                      -
     F42630-99-C-0247                              -                 X                     -                      -
     F42630-99-C-0268                              -                 X                     -                      -


      Air Force Subtotal:                         10                 13                    6                      6


     Note: See the footnotes at the end of the appendix.
                                          Accepted Catalog Prior Prices Used Were Used Competitive         Accepted Costs
           Locations/                      Pricing Without       Not Justified     Pricing When No         That Were Not
         Contract Number                  Additional Review     as Reasonable     Competition Existed   Supported or Warranted


      DEFENSE AGENCIES


     DISA10, Scott Air Force Base, IL
     DCA200-97-C-0039                             X                   -                    -                      -
     DCA200-97-D-0074                             X                   -                    -                      -
     DCA200-98-C-0004                              -                 X                     -                      -
     DCA200-98-D-0012                              -                  -                    -                     X
     DCA200-98-D-0019                             X                   -                    -                      -
     DCA200-99-C-0020                             X                   -                    -                      -


     DSC11, Richmond, VA
     N00383-95-G-054M                              -                  -                    -                     X
     N00383-96-G-005D                              -                  -                    -                     X
44




     N00383-99-G-012N                              -                  -                    -                     X
     SPO441-99-C-5666                              -                  -                    -                     X
     SPO441-99-C-5736                              -                  -                    -                     X
     SPO451-99-C-5526                              -                  -                    -                     X
     SPO451-99-C-5827                              -                 X                     -                      -
     SPO475-99-C-5561                              -                 X                     -                      -
     SPO480-98-G-0011                              -                 X                     -                      -
     SPO480-99-C-5204                              -                  -                    -                     X
     SPO480-99-C-5450                              -                 X                     -                      -
     SPO430-99-C-5495                              -                  -                    -                     X
     SPO430-99-C-5323                              -                  -                    -                     X

     Note: See the footnotes at the end of the appendix
                                        Accepted Catalog Prior Prices Used Were Used Competitive         Accepted Costs
            Locations/                   Pricing Without       Not Justified     Pricing When No         That Were Not
          Contract Number               Additional Review     as Reasonable     Competition Existed   Supported or Warranted


     SPO430-99-C-5371                           -                  X                      -                      -
     SPO440-99-D-0547                           X                   -                     -                      -
     SPO441-99-C-5324                                                                                            X
     SPO441-99-C-5360                           -                   -                     -                      X


      Defense Agencies
        Subtotal:                                5                  6                     0                      12
                                              ______             ______                ______                  ______

     Totals:                                    34                 42                     15                    33


     Total by Defense Components
45




               Army                                         46
               Navy                                         20
               Air Force                                    35
               Defense Supply Center Richmond               17
               Defense Information Systems Agency           6
                                                         _____
                                     Total:               124

     1.   U.S. Army Industrial Operations Command                    7.   Naval Inventory Control Point
     2.   U.S. Army Communications and Electronics Command           8.   Air Logistics Center
     3.   U.S. Army Tank Automotive Command                          9.   Aeronautical Systems Center
     4.   U.S. Army Missile Command                                 10.   Defense Information Systems Agency
     5.   Naval Air Systems Command                                 11.   Defense Supply Center
     6.   Naval Fleet Industrial Supply Center
      Contracting Office/                                                                         Adjusted     Awarded      Contract                Percent
       Contract Number                 Contractor                  Weapon System (Item)           Unit Price   Unit Price   Amount      Overpricing Increase
            Army




                                                                                                                                                               Appendix D. Overpricing
     TACOM/Rock Island
     DAAE20-99-C-0110  Beretta USA Corp                     N/A (M9 9MM Pistol)                       429.00      462.00     $846,846      $60,4891      7.7
     DAAE20-99-C-0072         Seiler Instrument and Mfg.    M-198 Howitzer (Aiming Post Light)         34.33      130.00      260,000      191,343     278.7
                              Co. Inc.
     DAAE20-99-C-0082         B.F. Systems Inc.             M-1 Abrams Tank (Electrical-            1,751.17    3,187.00      318,700      143,583      82.0
                                                            Mechanical Actuator)
     DAAE20-99-C-0016         Stanley Machining and Tool    M1-A1 Abrams Tank (King Nut             2,203.24    3,100.00      148,800       43,045      40.7
                              Corp.                         Bearing)
     DAAE20-99-C-0123         Kemp Industries Inc.          M-60 Tank (Elev. Valve Assembly)        6,739.88 10,634.00        297,752      109,035      57.8
     DAAE20-99-C-0074         General Reliance Corp.        N/A (Electrical Solenoid)                  86.93      222.00      175,380      106,704     155.4
     DAAE20-99-D-0099         Island Components Group       N/A (Alternating Current Motor)           188.44      277.00      858,700      274,531      47.0
                              Inc.
     DAAE20-99-D-0026         Truetech, Inc.                N/A (Decontaminating Resin)                66.14        78.21   1,120,152      964,2122     18.3


     TACOM/Warren
     DAAE07-99-C-N029         NA Molded Products            Combat Recovery Vehicle (Solid            182.80      235.00      985,355      218,887      28.6
                                                            Rubber Wheel)
46




     DAAE07-99-C-T067         Minowitz Mfg. Co.             Combat Recovery Vehicle (Parts Kit)     2,848.22    6,987.00      174,675      103,470     145.3
     DAAE07-96-D-T024         Cummins Engine Co.            N/A (NTC 400 Diesel Engine)            15,637.00 18,183.00        818,235      114,5703     16.3
     DAAE07-99-D-N021         General Dynamics LS           Combat Recovery Vehicle                10,243.80 11,136.75      2,171,666      174,126       8.7
                                                            (Crankshaft Engine)
     DAAE07-00-P-S009         AM General Corp.              HMMWV Up Armored/ECV (6.5               8,016.81    9,628.61    2,888,583      483,540      20.1
                                                            Liter Turbo Engine)
     DAAE07-99-C-N017         Electro-Methods Inc.          M1-A1 Abrams Tank (Curl Ring              311.55      615.22      261,469      129,061      99.5
                                                            Diffusers)
     DAAE07-99-C-N045         General Thermodynamics        Bradley Fighting Vehicle (Engine        2,221.51    2,493.00      498,600       54,298      12.2
                              Inc.                          Radiator Coolant)
     DAAE07-99-C-N049         Highland Engineering          M1-A1 Abrams Tank (Ground Hop          36,094.55 41,636.00        499,632       63,033      15.4
                                                            Support Set)
     DAAE07-99-C-T023         Borisch Mfg. Corp             M1-A1 Abrams Tank (Circuit Card           199.45      293.26      121,703       38,930      47.0
                                                            Assembly)

          1-2-3
                  Footnotes explained at end of appendix.
         Contracting Office/                                                                    Adjusted     Awarded      Contract                Percent
          Contract Number               Contractor               Weapon System (Item)           Unit Price   Unit Price   Amount      Overpricing Increase
     CECOM/Fort
     Monmouth
     DAAB07-98-C-B263          Rockwell Collins, Inc.      C-130, AH-64, and UH-60 Aircraft       8,263.21    9,097.00    2,001,340      183,433      10.1
                                                           (Radio Receiver/ARN-149 System)
     Same as above             Rockwell Collins, Inc.      C-130, AH-64, and UH-60 Aircraft       2,132.43    2,413.00      786,638        91,466     13.2
                                                           (Radio Set Control ARN-149
                                                           System)
     Same as above             Rockwell Collins, Inc.      C-130, AH-64, and UH-60 Aircraft       2,353.42    2,413.00      207,518         5,124      2.5
                                                           (Direction Control ARN-149 System)
     Same as above             Rockwell Collins, Inc.      C-130, AH-64, and UH-60 Aircraft       1,378.13    1,741.00      553,638      115,394      26.3
                                                           (Antenna ARN-149 System)

     IOC/Rock Island
     DAAA09-98-C-0070          DSE, Inc.                   MK-19 Grenade Machine Gun                  5.49         8.14   5,918,716     1,928,083     48.3
                                                           (Project Assembly M918)
47




     AAMCOM
     DAAJ09-97-D-0202          Allison Engine Co.          Kiowa Helicopter (250-C30R/3         261,782.65 289,616.84 73,852,294       7,097,7174     11.0
                                                           Engine)
     DAAH01-99-D-0076          Raytheon Co.                Avenger Weapon System (Dewar          13,057.92 46,947.00        845,046      610,003     259.5
                                                           Cooler Assembly)

               Navy
     NICP/Philadelphia
     N00383-99-C-D010          Allied Signal              FA-18 Aircraft (Heat Exchanger)         6,018.43    6,425.00      237,725        15,043      6.8
                               Aerospace/Grimes Aerospace
                               Co.
     N00383-98-D-003G          Dunlop Aircraft Tyres      AV8B Aircraft (Tires)                     534.10      630.00    1,256,220      191,227      18.0
                               Limited
     N00383-98-C-019F          SMR Technologies, Inc.     F-14 Aircraft (Drop Thread Style           61.35      650.00    1,072,500      971,276     959.5
                                                          106)
     Same as above             SMR Technologies, Inc.     F-14 Aircraft (Drop Thread Style           63.38      650.00      594,750      536,761     925.6
                                                          107)


     4
         Footnote explained at end of appendix
       Contracting Office/                                                                       Adjusted      Awarded      Contract                Percent
        Contract Number                Contractor                Weapon System (Item)            Unit Price    Unit Price   Amount      Overpricing Increase
          Air Force
     ASC/Wright-Patterson
     AFB
     F33657-98-C-0014     Innovative Solutions and        KC-135 Aircraft (Altitude Alerters)      1,636.76      2,070.00     349,830       73,218      26.5
                          Support Inc.

     OO-ALC/Hill AFB
     F42630-99-C-0161        Hydro-Mill Co.               C-5 Aircraft (Yoke Assembly)                 2,883     3,744.00     217,152       49,938      29.9
     F42630-99-C-0074        Coltec Industries, Inc.      C-5 Aircraft (Manifold Assembly)          3,159.33     7,790.00     311,600      185,227     146.6
     F42630-99-C-0178        Aircraft Braking Systems     B-1B Aircraft (Torque Tube              10,717.67     13,200.00   2,191,200      412,067      23.2
                             Corp.                        Assembly)
     F42630-99-C-0022        Allied Signal                F-15 Aircraft (Heat Stacks)              8,172.28     11,445.00   4,200,315    1,201,089      40.0
     F42630-99-C-0084        All Tool Inc.                C-5 Aircraft (Cylinder Assembly)        24,721.51     36,342.00     472,446      151,066      47.0
     F42630-99-C-0139        Michelin Aircraft Tire       F-15 Aircraft (Aircraft Tires)              358.63       405.00   2,673,000      306,042      12.9


     OC-ALC/Kelly AFB
     F41608-97-A-0001        Allison Engine Co.           T-56 Aircraft (Turbine Inlet Case)       8,095.73     17,206.57   2,615,399    1,384,848     112.5
48




     F41608-99-C-0237        Empire Mfg. Corp.            N/A (Carriage Bleeds)                       274.30       553.00     188,020       94,758     101.6
     F41608-99-D-0185        Ferrotherm Co.               C-5 Aircraft (Shroud)                       287.88       565.00   1,220,965      598,856      96.3
     F41608-97-A-0001        Allison Engine Co.            T-56 Aircraft (Rear Turbine Bearing    11,466.97     15,994.94   4,254,654     1,204,441     39.5
                                                           Support)
     F41608-98-D-0338        Precision Metal Products Inc. C-5 Aircraft (Outer Vane, Fan              548.65     1,418.00     470,776      288,624     158.5
                                                           Stator)
     F41608-99-C-0530        Purdy Corp.                   F-15/16 Aircraft (Synchronizing          4,935.08     5,839.13     391,222       60,571      18.3
                                                           Rings)
     F41608-98-C-0698        Networks Electronics Inc      F-15 and F-16 Aircraft (Connecting          60.68        87.50     437,500      134,089      44.2
                                                           Links)

     WR-ALC/ Warner
     Robins AFB
     F09603-98-C-0303        Marvin Engineering Co.       AV-8/F15/F16 Aircraft (Guided               757.78     1,045.00     243,485       66,922      37.9
                                                          Missile Fin)
           Contracting Office/                                                                   Adjusted   Awarded        Contract                Percent
           Contract Number                Contractor              Weapon System (Item)           Unit Price Unit Price     Amount      Overpricing Increase
           Defense Agency
         DSC-Richmond
         SP0475-99-C-5561        LLAMAS Plastics Inc.      F-4 Aircraft (Aircraft Window           2,378.46   4,711.00       358,074      177,273      98.1
                                                           Panel)
         N00383-96-G-005D        Parker-Hannifin Corp.     F-16 Aircraft (Primary Piston Rod)      1755.00    3,860.00       447,760      244,1805    119.9
         SP0480-99-C-5450        Johnson Technology Inc.   A-10 Aircraft (Aircraft Case,             198.38     316.00       474,000      176,425      59.3
                                                           Turbine)
         SP0480-99-C-5204        ITT Corp.                 C-130/141 Aircraft (Gate Valve            166.57     350.00       246,750      129,319     110.1
                                                           Parts Kit)
         SP0480-99-C-5371        Arkwin Industries Inc.    F-5 Aircraft (Actuator Parts               99.50     199.00       208,950      104,471     100.0
                                                           Kit/J85-5 Engine)
         SP0441-99-C-5526        Roller Bearing Co. of     CH-46 Helicopter (Bearing, Roller,        853.32   1,124.86       462,317      111,602      31.8
                                 America                   Needle)
         SP0441-99-C-5360        MRC Bearings              B-1B Aircraft (Ball Thrust Bearing)     1,738.75   2,685.00       496,725      175,057      54.4
49




         SP0441-99-C-5736        Kaydon Corporation        Apache AH-64 Helicopter (Bearing,       1,188.16   1,558.00       623,200      147,934      31.1
                                                           Ball, Annular)
         SP0441-99-C-5666        Specline Inc.             Hercules C-130 Aircraft (Bearing,         208.31     318.33       477,495      165,030      52.8
                                                           Sleeve)
         SP0441-99-C-5324        Kamactics Corp            F-15 and F-16 Aircraft (Bearing,           27.18      30.85       462,750       55,100      13.5
                                                           Sleeve, Self-Aligning)
         SP0451-99-C-5827        Techniservices Inc.       Whidbey Island Class LSD Ship             232.20     327.20       165,890       48,164      40.9
                                                           (Cable Assembly)
         SP0430-99-C-5323        OECO Corporation          S3-A Surveillance Aircraft (Power       5,493.39   7,572.00       378,600      103,931      37.8
                                                           Supply)
         SP0430-99-C-5495        B & B Devices Inc.        LHD/LSD Class Ships (Battery Box)        359.61    1,606.00       311,564      241,799     346.6


         Total                                                                                                           $125,124,277 $23,110,425
 1



     1
         Overpricing was computed using prior history. Quantity was not a factor.
     2
         Overpricing was computed using the maximum contract quantity (200,000) and the cumulative quantity purchased (79,885 pounds).
     3
         Overpricing was computed by eliminating marketing costs and taxes that we determined were unallowable.
     4
         Overpricing was computed using price and technical estimate prepared by the Government.
     5
         Overpricing was computed using the DLA objective.
               Location/                                                                                       History With    Commercial
            Contract Number               Contractor                   Item               Weapon System         Contractor        Item




                                                                                                                                            to Provide Additional Information
                                                                                                                                            Appendix E. Contractors That Refused
                  Army

          DAAH23-98-D-0117        Kaiser Aerospace and       Buddy Start Assembly      UH-60 Helicopter          2 Years1          Yes
                                  Electronics

          DAAJ09-97-D-0202        Allison Engine Company     250-C30R/3 Engine         Kiowa Helicopter          31 Years          Yes

          DAAE07-96-C-X124        KVH Industries Inc.        TAC/NAV Compass           Bradley Fighting            N/A             Yes
                                                             Kits                      Vehicle

          DAAE07-96-D-T024        Cummins Engine Co. 2       VTA903 Series D           Bradley Fighting          7 Years           Yes
                                                             Engine                    Vehicle

          DAAE20-97-C-0242        Remington Arms Co.         Repair Services           M24 Sniper System         10 Years          Yes

          DAAE07-99-C-T067        Minowitz Mfg. Co.          Vehicular Compartment     N/A                      First Time         No
                                                                                                                   Buy1
50




                                                             Parts Kit

          DAAH01-99-D-0076        Raytheon Co.               Dewar Cooler Assembly     Avenger Weapon            3 Years           No
                                                                                       System

                  Navy

          N00383-98-C-019F        SMR Technologies, Inc.     Drop Thread Style 106     F-14 Tomcat               3 Years           No
                                                             and 107                   Aircraft


     1
         First time item purchased from this contractor.
     2
         Two commercial actions were awarded to Cummins Engine Co. therefore the 18 actions were related to 17 different contractors.
                Location/                                                                                           History With        Commercial
             Contract Number               Contractor                      Item               Weapon System          Contractor            Item

                Air Force

          F41608-98-D-0531         Unison Industries         Cable Assembly                F100 Engine            First Time Buy1          No

          F42630-99-C-0022         Allied Signal Inc.        Heat Stacks                   F-15 Aircraft          11 Years                 Yes

            Defense Agencies

          SP0480-99-C-5450         Johnson Technology Inc.   Case, Turbine, Aircraft       A-10 Aircraft          7.5 Years                No

          SP0441-99-C-5526         Roller Bearing Co. of     Bearing, Roller, Needle       N/A                    20 Years                 No
                                   America

          SP0430-99-C-5495         B and B Devices Inc       Battery Box                   N/A                    First Time Buy1          No
51




          SP0441-99-C-5736         Kaydon Corp.              Bearing, Ball, Annular        Apache AH-64           15 Years                 No
                                                                                           Helicopter

          SP0440-99-D-0547         Vaisalia Inc.             Radiosonde Meterological      None                   2.5 Years                Yes
                                                             Measuring Set

          SP0441-99-C-5324         Kamatics Corp.            Bearing, Plain, Self-         N/A                    11 Years                 No
                                                             Aligning

          SP0441-99-C-5360         MRC Bearings              Ball Thrust Bearing           B1B Bomber             5.5 Years                No




     1
         First time item purchased from this contractor.
     2
         Two commercial actions were awarded to Cummins Engine Co. therefore the 18 actions were related to 17 different contractors.
Appendix F. Management Comments on
            Individual Contract Actions and
            Audit Response
      This appendix lists contract actions that the Services and Defense Logistics
      Agency either fully or partially disagreed with the audit conclusions. They
      disagreed that either or both price reasonableness was not adequately established
      or our calculation of the amount of overpricing.


Comments From the Army

      Contracting Organization – U.S. Army Industrial Operations Command,
       Rock Island, Illinois


      1. Contract: DAAA09-98-D-0070

      Unit Price: $8.14                   Contract Action Amount: $5,918,716.10

      Contractor: DSE, Inc.

      Price Reasonableness Basis: Prior history

      Overpricing Amount: $1,928,083.05

      Army Comments: The Army partially concurred with the audit conclusion.
      The Army agreed that prior prices used were not justified. The Army disagreed
      on the amount of overpricing stating that the price analysis showed a reduced
      overpricing amount of $483,531.

      Audit Response: Our primary intent was to determine whether contracting
      officers were adequately determining price reasonableness. Based on the Army
      response, it is evident that they agree that price reasonableness was not
      adequately determined for this contract. While the overpricing just established
      an impact for that decision, we believe the overpricing should be $1.9 million.
      The overpricing calculation was determined based on the previous unit price of
      $5.26 in 1996 escalated for inflation, similar quantities, and learning curve.
      The Army response indicated an overpricing amount of $483,531, but did not
      provide any detail.




Note: See the list of acronyms at the end of the appendix.


                                         52
       Contracting Organization – U.S. Army Communications and Electronics
        Command, Fort Monmouth, New Jersey


       2. Contract: DAAB07-97-C-J230

       Unit Price: $4,153 (Maximum)        Contract Action Amount: $1,905,000

       Contractor: Litton Systems Inc.

       Price Reasonableness Basis: Prior History

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusion, stating that
       price analysis supports the award price. In addition, the Army stated the
       contractor claimed an exemption from certified cost or pricing data and the
       contracting officer accepted that the night viewer met the definition of
       commercial item. The Army also believed the audit overlooked the point that
       the procurement was for the repair of the viewers.

       Audit Response: The unit price was derived from the unit price on the
       preceding contract, J255 and the Army’s response tends to support our
       conclusion. The contracting officer accepted the contractor’s contention that the
       item was commercial, however there was no detail to explain how the military
       night viewer in the Bradley fighting vehicle would be similar to a commercial
       night viewer. There was also no detail to explain any differences. The Federal
       Acquisition Regulation (FAR) requires firm fixed price contracts for commercial
       items. We disagree with the Army classification of this contract as firm fixed
       price, as the pricing was a not to exceed amount with the actual contract amount
       unknown. The Army also incorrectly believed that we did not understand that
       the procurement was for repair of the night viewer. However, the report clearly
       states on page 6 that the work is repair/conversion. The FAR Part 2 includes
       additional requirements for commercial services. It states in part that
       commercial services must be services of a type offered and sold competitively in
       substantial quantities in the commercial marketplace based on established catalog
       or market prices for specific tasks performed under standard commercial terms
       and conditions. This does not include services that are sold based on hourly
       rates without an established catalog or market price for a specific service
       performed. There was no evidence that the contracting officer evaluated these
       services against the FAR requirements. Beyond that point, the file provided no
       basis for the reasonableness of actual repairs and maintenance, but merely
       established maximum amounts that they could not exceed. In essence, what
       costs the contractor spent were likely to be considered reasonable as long as
       they were below the maximum. It is possible a repair that would, in actuality,
       be reasonable at one amount, might be accepted as reasonable at a higher
       amount merely because it falls below the maximum price. Since the price for

Note: See the list of acronyms at the end of the appendix.



                                          53
       this contract was a maximum price, we needed support for the reasonableness of
       the actual cost items comprising the repairs/conversions. It does not appear that
       pre-award reviews of repairs and maintenance were even made on a case by case
       basis. The prior contract had no documentation supporting price
       reasonableness. It appears that this type of work would have been better suited
       to task order type contracting so that as a requirement is known, a specific task
       could be established to define the requirements and establish price.


       3. Contract: DAAB07-97-C-J541

       Unit Price: None                    Contract Action Amount: $2,318,500

       Contractor: Hughes Aircraft Company
       Price Reasonableness Basis: Competition

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusion and stated
       that cost analysis supports the award price.

       Audit Response: The Army based award on full and open competition. As a
       result it did not require certified cost or pricing data. The two known offerors
       collaborated to submit only one proposal. There was no evidence of additional
       market research to determine that other contractors were likely and capable of
       submitting a meaningful proposal. Mere expressions of intent for a highly
       complex effort such as this are insufficient to justify likelihood of other bids.
       The lack of competition from the two sources was known before negotiations
       and certified cost or pricing data should have been required. Contracting
       officials stated that some preaward documentation was missing and as a result,
       they could not provide support for information used to determine
       reasonableness. Personnel at the Army Communications and Electronics
       Command (CECOM) acquisition center advised against two separate awards
       under this scenario because of problems with administration, technical
       evaluation, coordination of changes, equipment transfers, and possible
       adversarial relationships between the two contractors. Essentially, we received
       all of the disadvantages of having two contractors instead of the normal
       prime/sub without any of the protections afforded by the Truth in Negotiations
       Act (TINA). The Government had to deal with two independent contractors and
       lost the prime accountability for its subcontractor and we were paying for two
       prime management teams. The CECOM Legal office also advised that “it does
       not make good business sense," but added that "there is nothing illegal about
       it.” The Army stated a review of indirect rates was initiated within the Defense
       Contract Audit Agency (DCAA), however the Army waived a formal audit by
       DCAA even though estimated costs were $30 million. As for the Army cost
       analysis, the cost analysis did not provide any detail as to what position was
       being taken or what was derived from the analysis. There was no breakdown of

Note: See the list of acronyms at the end of the appendix.


                                          54
       cost elements to determine the composition. It was also not possible to
       reconcile the cost analysis to the negotiation objective. A technical evaluation
       also provided very limited information that did not establish reasonableness for
       labor hours and material costs. Price was agreed on at $13.7 million based on
       series of counter offers. Price reasonableness was not established and a number
       of important protections were lost. With the dollar magnitude, management
       issues, and complexity of the contract, we believe that much more was required.


       4. Contract: DAAB07-97-C-J542

       Unit Price: None                     Contract Action Amount: $2,318,500

       Contractor: Texas Instruments Inc.
       Price Reasonableness Basis: Competition

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusion and stated
       that cost analysis supports award price.

       Audit Response: This contract is similar to Army item number 3 above, and in
       our opinion, essentially two noncompetitive prime contracts were awarded under
       “adequate price competition.” The contracting officer did not show detailed
       market research that supported the likelihood that contractors other than Hughes
       and Texas Instruments were capable and likely to submit meaningful bids. Files
       and documentation were missing. Also as discussed for Army item number 3,
       we received all the disadvantages of dealing with two prime contractors without
       associated protection of the TINA. An audit was also waived on this
       procurement eliminating DCAA input and assistance. The technical evaluation
       lacked detail on labor hours and material costs and the technical evaluation did
       not reconcile to the negotiation objectives. The TINA also would have assisted
       the Government especially when one note in the file stated that “Texas
       Instruments has now come in and added hours in just about every discipline
       imaginable," stating that they forgot to add these hours. Price was established
       through several counter offers at $13.6 million. Price included a $400,000
       reserve to be released at the sole discretion of the contract officer to the
       contractor.


       5. Contract: DAAB07-98-C-6004

       Unit Price: $126                     Contract Action Amount: $3,150,000

       Contractor: Draeger Safety, Inc.



Note: See the list of acronyms at the end of the appendix.


                                          55
       Price Reasonableness Basis: Catalog prices (Primary) and market survey

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed and stated that other sources were
       checked and that a discount was negotiated.

       Audit Response: The Army relied on the Contractor’s internal price list to
       compare prices offered to the general public to the contractor’s proposed prices.
       Although the proposed prices were lower than those quoted in the internal price
       list, there was no supporting documentation that any customers paid these
       prices. This could have been accomplished by obtaining sales invoices or
       contacting companies that have made purchases from the contractor. The Army
       could have made additional inquiries and comparisons to prior or existing buys
       to further substantiate the reasonableness of the proposed price. A discount
       offered off catalog prices does not establish a reasonable price unless the
       reasonableness of the catalog prices were known.


       6. Contract: DAAB07-98-C-B263

       Unit Price: Part 1   $9,097          Contract Action Amount: $1,774,567
                   Part 2   $2,413
                   Part 3   $2,413
                   Part 4   $1,741

       Contractor: Rockwell Collins, Inc.

       Price Reasonableness Basis: Prior history (Primary)

       Overpricing Amount: Part 1    $183,433.20
                           Part 2    $91,465.67
                           Part 3    $5,123.58
                           Part 4    $115,394.05

       Army Comments: The Army partially concurred with the audit conclusion and
       stated that it calculated a reduced overpricing amount of $23,532 based on a
       price analysis.

       Audit Response: Based on the Army response it is evident that they agree that
       price reasonableness was not adequately determined for this contract. Based on
       our calculations we determined overpricing of over $395,417. We determined
       overpricing on the four parts comprising this procurement, based on the prior
       prices and quantities contained in the independent government cost estimate.
       We then adjusted those 1995 prices for inflation and a learning curve to come up
       with a fair and reasonable price. The difference between the current price paid

Note: See the list of acronyms at the end of the appendix.




                                          56
       and the adjusted price was our overpricing amount. The Army in its response
       has a reduced overpricing amount to $23,532; however, the Army did not
       provide any detail. The primary focus of our review was the adequacy of the
       price reasonableness determinations, and the overpricing provides an effect. We
       stand by our computed amount of overpricing.


       Contracting Organization – U.S. Army Tank-Automotive
        Command (TACOM), Warren, MI


       7. Contract: DAAE07-00-P-S009

       Unit Price: Part 2. $9,628.61        Contract Action Amount: $4,908,345
                   Part 1. $6,732.54

       Contractor: AM General Corporation

       Price Reasonableness Basis: Cost analysis

       Overpricing Amount: $483,540 (Part 2)

       Army Comments: The Army disagreed with the audit conclusion and stated
       that cost and pricing information was obtained and analyzed.

       Audit Response: The price was higher than the price paid on the previous
       contract less than 1 year ago, when if anything, we would have expected a lower
       rate because of the increase in quantity from 120 engines to 300 engines on this
       order. The magnitude of the price change, an increase of 16 percent from the
       Government’s own estimate and from the prior price, would have required more
       extensive analysis of factors and costs. TACOM prepared a limited award
       summary and recommendation even though the price was 16 percent higher.
       This acquisition also appears to have been made under a false sense of urgency.
       General Motors Corporation informed TACOM on August 11, 1999, that the
       production line would be closing in December 2000. Instead of acting in
       August 1999, TACOM waited until October 6, 1999 before issuing the
       solicitation. In fact, justifications for non-synopsis and justification for other
       than full and open competition were not prepared until after the order was
       awarded. Clearly, there was no intent to compete, but justifications were not
       even prepared to properly show this decision. There was also no evidence of
       market research performed for this acquisition. The cost and pricing data
       contained in the files were insufficient to support the price reasonableness. The
       contractor provided cost breakdowns, but there was no analysis documented
       showing why the prices were considered reasonable. There was also no
       evidence in the file that rates were verified against a Forward Pricing Rate
       Agreement.



Note: See the list of acronyms at the end of the appendix.


                                           57
       8. Contract: DAAE07-94-D-A013

       Unit Price: $16,714                  Contract Action Amount: $2,690,954

       Contractor: Detroit Diesel Corporation

       Price Reasonableness Basis: Catalog price (Primary) and pricing report

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusion and stated
       that a 34.4 percent discount was negotiated from the catalog price.

       Audit Response: The Army relied on information from the contractor without
       independent review. The Army did not perform an independent verification of
       commercial sales to other customers or a review of price history. Acceptance of
       a discount off the contractor’s catalog price even a 34.4 percent discount does
       not make the price reasonable. Verification that the catalog price is valid and
       represents a reasonable price paid by other customers is necessary to determine
       the price as fair and reasonable.


       9. Contract: DAAE07-96-C-X124

       Unit Price: Part 1. $1,254           Contract Action Amount: $4,501,138
                   Part 2. $8,816

       Contractor: KVH Industries

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusion and stated
       that a reduced price was negotiated and that sales information was provided.

       Audit Response: The basis for reasonableness states that kits were proposed
       with a copy of a catalog page showing published prices. The contractor’s
       proposal is priced at 2 percent below his catalog published price. No additional
       data was obtained to show the reasonableness of the proposed price. The
       pricing report stated that the items are represented as being commercially
       available and as a result incorrectly assumes that requesting further pricing data
       is not an option. The items being procured are tactical navigation compass kits
       and driver’s display assemblies for the Bradley fighting vehicle systems. There
       was no evidence of this item being sold commercially. Several purported
       foreign government sales were no more than typed numbers provided by the
       contractor without any supporting documentation. Even the Army appears to

Note: See the list of acronyms at the end of the appendix.



                                           58
      have realized that more information was needed to support price reasonableness,
      since it requested to look at the contractor’s books to determine “whether the
      commercial/catalog pricing is fair and reasonable.” The contractor stated that
      he “emphatically, categorically and unquestionably objected to TACOM
      reviewing KVH’s books when he felt he had complied with the regulations and
      the Government commercial pricing data.” This is a case of the contractor
      claiming items are commercial to assert control over pricing and deny the Army
      the needed data for determining price reasonableness.


      10. Contract: DAAE07-96-D-T024 (Order 0012)

      Unit Price: $18,183                  Contract Action Amount: $843,235
      Contractor: Cummins Engine Company

      Price Reasonableness Basis: Catalog price

      Overpricing Amount: $114,570

      Army Comments: The Army disagreed with the audit conclusion and stated
      that cost information was obtained and analyzed.

      Audit Response: Delivery order No. 0012 for NTC 400 Reman/Upgrade
      Diesel Engines was not included in the basic contract, so the price
      reasonableness for the basic contract did not apply to this order. TACOM
      determined the price to be fair and reasonable because it was based on standard
      commercial catalog pricing. As with other situations, the Army use of a catalog
      without showing that prices are paid by others or are otherwise reasonable is
      meaningless. This was not sufficient to determine the reasonableness of the
      price. There was no further support of analysis done by TACOM on this order.
      We believe our calculation of overpricing was correct.


      11. Contract: DAAE07-97-G-T003

      Unit Price: $520                     Contract Action Amount: $3,678,480

      Contractor: Lau Technologies, Inc.

      Price Reasonableness Basis: Cost Analysis (Primary), DCAA audit, and
      negotiations

      Overpricing Amount: Unknown




Note: See the list of acronyms at the end of the appendix.



                                         59
       Army Comments: The Army disagreed with the audit conclusion and stated
       that cost analysis supports award price. The Army stated that DCAA was part
       of the team that reviewed the cost.

       Audit Response: Delivery Order No. 2 was awarded for under $5 million to
       avoid small business competition requirements. This basic ordering agreement
       had an expected value of $20 to $25 million for a period of 3 years. Instead of
       ordering the full amount of 14,000 units required on one solicitation, the Army
       issued a reduced order for only 7,074 units to stay under the $5 million
       threshold, requiring competition on small business awards. In fact, two months
       after the award of this order three other orders were placed for an additional
       7,400 units. By combining these orders, the Army would have surpassed the
       threshold thereby requiring competition. In total, TACOM bought over 50,000
       units, avoided competition, and did not obtain pricing data for such a large
       quantity. Although DCAA provided adequate support, it was not aware of the
       full amounts of potential business. DCAA also found that the cost or pricing
       data submitted by the offeror was inadequate in some respects. In addition, the
       amounts calculated using DCAA’s results did not support the $520 unit price
       negotiated, but, in fact, a lower amount. While the DCAA audit results
       supported a price similar to the proposal price for the first 8,000 units, the
       DCAA audit results only supported a price of $448 for units thereafter.


       12. Contract: DAAE07-98-D-T041

       Unit Price: 11 parts purchased      Contract Action Amount: $6,987,832

       Contractor: Goodyear Tire & Rubber Company

       Price Reasonableness Basis: Cost Analysis

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusions and stated
       that cost analysis supports award price.

       Audit Response: This situation is very similar to contract item 11. The
       contractor was justified as a sole source and no other contractor was capable.
       The contractor did not have a system capable of providing certified cost or
       pricing data even though the contractor was a long time Government contractor.
       An initial preaward survey should have been done prior to award of contracts to
       ensure that the contractor could comply with Army requirements. The Army
       granted a waiver on this action because the contractor did not meet any
       exception for not providing certified cost or pricing data. The waiver was
       inappropriate. The contractor refused to provide any data on selling and
       administrative costs of the company and the contracting officer had to make
       adjustments in an attempt to compensate for this denial. The contracting officer
       was unable to break out the elements of cost for each type of part produced.

Note: See the list of acronyms at the end of the appendix.


                                          60
      Instead, costs were shown as a bottom line basis for cost with a separate profit
      line. The contract file was also lacking in what details were tested for
      reasonableness and how those tests related to each part.


      13. Contract: DAAE07-99-C-L038

      Unit Price: $164,870                 Contract Action Amount: $164,870

      Contractor: O'Gara-Hess & Eisenhardt Armoring Company

      Price Reasonableness Basis: Catalog price

      Overpricing Amount: Unknown
      Army Comments: The Army disagreed with the audit conclusion and stated
      that a 7.7 percent discount was negotiated off of the catalog price.

      Audit Response: In our opinion, this was an abuse of the exception to
      competition “unusual and compelling urgency” in order to avoid the use of
      competition to award a contract. The justification of unusual and compelling
      urgency was to replace the Chairman of the Joint Chiefs of Staff vehicle that
      was over age. Any acquisition planning at all would have allowed for a fair and
      open competition that likely would have resulted in better pricing. The contract
      was awarded on a sole source basis with the rationalization that only one
      contractor could provide the requirement in a “timely manner.” Contracting
      officials were unable to produce any negotiation documents to explain how price
      reasonableness was established. Neither the file nor the contracting official in
      charge of the file could show where a reduction was negotiated. The contractor
      proposed a price that represented a reduction off retail, but there was no
      evidence that other customers paid the retail price. The contractor’s price list
      also showed a number of vehicles that were less expensive including Lincoln
      Town Cars and Roll Royces.


      14. Contract: DAAE07-99-C-N029

      Unit Price: $235                     Contract Action Amount: $985,355

      Contractor: North American Molded Products Corp

      Price Reasonableness Basis: Prior history (Primary) and cost analysis

      Overpricing Amount: $218,887

      Army Comments: The Army disagreed with the audit conclusion and stated
      that a cost analysis supported the award price.


Note: See the list of acronyms at the end of the appendix.


                                          61
       Audit Response: This June 4, 1999 procurement was for a quantity of 4,193
       with a unit price of $235.00 for solid rubber wheels. According to
       documentation in the file, a purchase was made 6 months before at a unit price
       of $174 for a quantity of 5,238. The current price was an increase of 30 percent
       from the $174 unit price; this increase in price was due to an urgent situation
       and the Army accepted the price. Cost and pricing data was submitted
       supporting the proposed price of $235.00. Price reasonableness was determined
       to be fair and reasonable based on a previous buy in 1996 with the current
       contractor with a unit price of $225. Instead of using the most recent price the
       Army compared the current price with the price paid 3 years ago with the same
       contractor without justifying how that price was determined to be fair and
       reasonable. There was no documentation in the file to state why the most recent
       contract was not used to establish price reasonableness or to show that the Army
       knew the basis of reasonableness of the prior procurement used. The Army
       response attempts to use hindsight to explain why the more current price history
       was not used. The Army stated that it did not believe the previous price
       provided a good basis for comparison because it was from an Israeli company,
       however the Army’s contract files did not provide any support for this
       argument.


       15. Contract: DAAE07-99-C-N045

       Unit Price: $2,493                   Contract Action Amount: $498,600

       Contractor: General Thermodynamics, Inc.

       Price Reasonableness Basis: Prior history price analysis

       Overpricing Amount: $54,298

       Army Comments: The Army partially agreed with the audit results. The
       Army stated that the initial quantity was reduced to expedite award, but
       additional quantities were not anticipated. The Army stated that price analysis
       supports award.

       Audit Response: This was the third of three procurements for the same items
       within a 5-month period. Besides the issue of urgency which resulted in the sole
       source award and avoided competition, sufficient acquisition planning would
       have disclosed the actual requirement needs before the first of the three awards.
       There was no evidence of detailed economic order quantity planning. Instead,
       this appears to be a deliberate attempt to avoid the requirement for certified cost
       or pricing data since all three awards were less than one unit under the amount
       that would have triggered the requirement for certified cost or pricing data. If
       one more item had been bought on any of these three procurements, the
       threshold for cost or pricing data would have been exceeded. The Army price
       reasonableness determination for this buy was based on comparison to the price

Note: See the list of acronyms at the end of the appendix.



                                           62
       from the buy 2 months earlier which was supposedly based on a cost/price
       report from 1996. The contracting official could not provide the cost/price
       report or show that the prior price was otherwise reasonable.


       16. Contract: DAAE07-99-C-Q008

       Unit Price: Part 1   $80,202        Contract Action Amount: $2,585,611
                   Part 2   $69,975.83
                   Part 3   $27,606.97
                   Part 4   $21,762.99
                   Part 5   $15,919.01

       Contractor: Technology Ventures, Inc.
       Price Reasonableness Basis: Cost analysis

       Overpricing Amount: Unknown

       Army Comments: The Army did not agree with the audit conclusions and
       stated that cost and price analysis support the award price.

       Audit Response: A preaward survey report performed on the contractor
       indicated that the company was unsatisfactory in technical capabilities and
       quality assurance. The report recommended no award and stated that the
       contractor provided insufficient evidence to demonstrate its ability to obtain
       resources and perform as required for the pending procurement. The company
       consisted of one employee, the owner. The report further stated that the owner
       had limited marketing and management experience as a consultant and had
       worked for the Government as a traffic management specialist. We do not
       understand why any contracting officer would want to continue to pursue award
       of an equipment support and preventive maintenance contract to this company
       with the information presented by the preaward survey report. This contract
       was eventually terminated. The contract file contained no evidence to explain
       why certified cost or pricing data was not obtained especially in light of the
       technical recommendation to not award a contract. During interviews, a
       contracting official claimed that certified cost or pricing data was not obtained
       because these services were commercial. We found no evidence in the file
       where this claim for commerciality was made or accepted. It is also
       questionable that no other companies would be interested in obtaining a $2.5
       million contract that with options will exceed $13 million to perform ordinary
       equipment support and preventive maintenance services. The award also
       appears to have been necessitated by a lack of planning. The contracting official
       interviewed indicated that she did not want to award the contract to this
       company because of excessive burden costs but the current contract was getting
       close to completion and the command had to have a contract in place. This
       contracting official also did not believe the Army received a fair price. Several
       proposals were received and reviewed by the contracting official.

Note: See the list of acronyms at the end of the appendix.


                                          63
       The contracting official noted a number of errors in the proposal because it
       included questionable costs, unsupported costs and excessive costs. We believe
       that this procurement was not in the best interest of the Army.


       17. Contract: DAAE07-99-C-T023

       Unit Price: $293.26                  Contract Action Amount: $121,703

       Contractor: Borisch Manufacturing Corp

       Price Reasonableness Basis: Cost analysis

       Overpricing Amount: $38,930
       Army Comments: The Army disagreed with the audit conclusion and stated
       that cost analysis supports award price.

       Audit Response: The cost analysis did not adequately support price
       reasonableness. The analyst compared direct material proposed prices to a
       procurement history database and based on the comparison stated the material
       costs were reasonable. However, the use of prior prices without establishing
       reasonableness is insufficient. The analyst also stated that the proposed labor
       rates appeared to be reasonable for the types of skills proposed. There was no
       documentation in the files to support this statement. According to the files there
       was no objection to the proposed indirect rates because historically, Borisch’s
       rates have been acceptable. This also is insufficient justification for accepting
       the rates as fair and reasonable. The analyst needed to present evidence that the
       material costs and labor rates were reasonable based on verifiable data. In
       addition, it was stated that the annualized price increase from the previous
       contract was 1 percent. This is incorrect since the unit price on the contract was
       $293.26 while the unit price on the prior contract in 1991 was $155.58, an
       increase of over 88 percent. Adjusting the prior price for inflation and quantity,
       we determined this acquisition was overpriced by $38,931.


       18. Contract: DAAE07-99-C-T067

       Unit Price: $6,987                   Contract Action Amount: $174,675

       Contractor: Minowitz Manufacturing Company

       Price Reasonableness Basis: Competition

       Overpricing Amount: $103,470



Note: See the list of acronyms at the end of the appendix.



                                           64
       Army Comments: The Army disagreed with the audit conclusion and stated
       that competitive pricing was not used and that two price analyses were used to
       support the award price.

       Audit Response: There was no evidence in the contract files that the price
       reasonableness was supported by any price analysis. The procurement history
       for the items noted in the award summary showed contract DAAE07-85-C-1844
       with L&S Industries for 272 units at a price of $1,638. The proposed unit price
       of $6,987 submitted by Minowitz Manufacturing represents an annualized price
       increase of 22.97 percent since the last buy. The award summary stated that
       “Price is determined fair and reasonable based on competitive quotations
       received, pursuant to FAR 15.402(a).” We do not believe that there was a
       reasonable expectation of competition. The contract was solicited three times
       without successfully generating other bidders. Even a contracting official had
       stated, “We are unable to locate or obtain competition.” The contracting
       official stated that: “… their price is so OUTRAGEOUS I possibly cannot find
       any justification for their offer unless you will support the blank check.” The
       Army stated that an independent government cost estimate and an item
       manager’s pricing of components supported the price. However, it appears that
       the Army is attempting to reconstruct events that weren’t apparent to the
       contracting officer. The contract award summary and the file show no other
       analyses. Price reasonableness was not supported and based on historical data,
       the Government overpaid by $103,470. This is an example of the contracting
       officer claiming nonexistent competition as a basis for establishing price
       reasonableness, when price reasonableness was not evident. While this action
       was below the threshold for certified cost or pricing data, the contracting officer
       has the prerogative to request such data. In this case it would have been prudent
       for the contracting officer to request certified data given the concerns about the
       price increase and the lack of competition.


       19. Contract: DAAE07-99-D-N021

       Unit Price: $11,136.75               Contract Action Amount: $2,171,666

       Contractor: General Dynamics Land Systems Inc

       Price Reasonableness Basis: Competition (Primary) and price analysis

       Overpricing Amount: $174,126

       Army Comments: The Army disagreed with the audit conclusion. The Army
       stated that the award was made with the expectation of competition and that
       price analysis supports price.

       Audit Response: There was inadequate market research and no evidence that
       other qualified contractors were likely to bid. Even the Army legal office
       nonconcurred with the decision that adequate price competition existed.

Note: See the list of acronyms at the end of the appendix.


                                           65
       The attorneys believed the Army had not sufficiently established that General
       Dynamics believed that at least one other offeror was capable of submitting a
       meaningful offer. General Dynamics proposed a unit cost of $11,136.75 and
       the Army’s own price analysis reflected an adjusted unit price of $9,930 (based
       on the minimum guarantee of 51 units). Therefore, the proposed unit price was
       12 percent higher than the price analysis. The Army accepted General
       Dynamics’ increase from this adjusted price by claiming it was only a 3.2
       percent increase per year from the last procurement. However, within 3 months
       of the contract award, the Army had already ordered 311 units. Just relying on
       simplistic judgements such as stating the price is only 3.2 percent higher per
       year does not do an adequate job to establish that a price is reasonable. The
       Army should not have negotiated this contract on the minimum amount of 51.
       In fact, the award abstract even stated that the item manager had an initial
       requirement of 259 units. Because the Army knew that more than 51 units
       would be ordered, it should have negotiated this contract based on a higher unit
       quantity in order to obtain a lower unit price. In addition, the difference
       between the Army’s price analysis and the proposed price does not support its
       assertion that the contractor believed others were likely to bid. General
       Dynamics had received all prior awards on a sole source basis. The contracting
       officer did not show evidence of adequate market research, but instead relied on
       the expression of interest from one contractor. In our opinion, the contract was
       overpriced by $174,126 and was considered by the Army to be competitive in
       order to avoid the requirements for obtaining certified cost or pricing data.


       Contracting Organization – U.S. Army Tank Command, Rock Island, IL


       20. Contract: DAAE20-97-C-0242

       Unit Price: $140,000                 Contract Action Amount: $140,000

       Contractor: Remington Arms Company Inc.

       Price Reasonableness Basis: Prior history

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusion and stated
       that cost analysis supports award price.

       Audit Response: Remington Arms was awarded this sole-source contract since
       it was the only source that can provide the required repair parts, and prior
       history indicates that it has been the contractor for at least 10 years. There was
       also a memorandum in the file that stated that the contractor refused to discuss
       or provide any detailed cost data. This memorandum also stated that even
       though the contractor was unwilling to provide the data, contracting personnel
       recommended accepting the costs. There was also no support for the proposed

Note: See the list of acronyms at the end of the appendix.


                                           66
       fully loaded labor hour rate. A certification of cost and pricing data was
       obtained for this contract, but since no cost or pricing data was provided with it,
       it is meaningless. The contracting office attempted to reconstruct the price by
       backing out inflation; however, no data in the file determined the reasonableness
       of the proposed rate for the components or the prior proposed rates used for
       comparison.


       21. Contract: DAAE20-98-C-0017

       Unit Price: $2,137.50                Contract Action Amount: $1,282,500

       Contractor: Graflex Inc.
       Price Reasonableness Basis: Competition (Primary) and other than cost and
       pricing data

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusion and stated
       that a competitive environment did exist and that cost data was obtained and
       analyzed.

       Audit Response: Graflex Inc was the incumbent contractor and appears to have
       been the only producer of this item in the past. The contracting officers appear
       to substitute expression of interest from contractors for adequate market
       research. Although four contractors were solicited, there was no documentation
       showing that there was a reasonable expectation of receiving other offers in
       addition to Graflex. There was also no market research to show any other
       contractor was capable. The price negotiation memorandum (PNM) stated that
       prices were determined fair and reasonable based on the use of information
       other than cost and pricing data. There was no documentation noting any
       analysis of cost data, or even any evidence that cost data had been obtained.
       This is a contract where the Army should have requested certified cost or
       pricing data.


       22. Contract: DAAE20-99-C-0022

       Unit Price: $965.20                  Contract Action Amount: $673,710

       Contractor: Rocker Industries

       Price Reasonableness Basis: Prior history

       Overpricing Amount: Unknown



Note: See the list of acronyms at the end of the appendix.


                                           67
       Army Comments: The Army disagreed with the audit conclusion and stated
       that the prior price used for comparison was competitive.

       Audit Response: According to the PNM, the proposed price was accepted and
       deemed fair and reasonable based on the price history and the fact that the items
       were urgently required. There was no documentation in the file to show
       whether the prior contract had a fair and reasonable price or that the contracting
       officer even reviewed that contract to determine if and how price reasonableness
       was determined. We believe that since that price was the basis for determining
       price reasonableness on this contract, the contracting officer needed to ascertain
       the reasonableness of the prior price and document the findings. The
       contracting officer had also stated that she had a problem with the price. The
       prior price per unit was $929 in February 1998 and less than a year later the
       price had increased to $965 for this contract even though the quantity was now
       greater than the prior contract. The current contract was awarded to Rocker
       Industries on a sole-source basis and the previous contract was also awarded to
       them. In addition, the PNM stated that all cost and pricing data provided by the
       contractor was fully relied upon and used in negotiating the price. The contract
       specialist stated; however, that cost or pricing data was not in the file, and was
       never obtained from the contractor. The procurement also met requirements for
       certified cost or pricing data. However, there was no waiver and no certified
       cost or pricing data. There was no evidence of any cost or pricing data in the
       file.


       23. Contract: DAAE20-99-C-0028

       Unit Price: $30.78                   Contract Action Amount: $101,574

       Contractor: Connectec Inc

       Price Reasonableness Basis: Prior history (Primary) and cost analysis

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusion and stated
       that cost analysis supports award price.

       Audit Response: The contractor submitted an initial proposal with a unit price
       of $28.83. While the unit price included an element by element breakdown, the
       Army did not perform any detailed analysis of the price. The contractor’s unit
       price was ultimately raised to $30.78 per unit. This contract was justified as
       sole source due to urgency. This was an important issue because it eliminated
       the requirement to compete the award and this contractor had won a prior
       competitive award at a unit price of only $15.72 per unit when other contractors
       submitted bids. The unit price on the prior contract increased to $28.10 through
       a series of problems and disputes. At one point, the Army intended to terminate
       the contract. There was no audit trail to adequately support the price increase

Note: See the list of acronyms at the end of the appendix.


                                           68
       from the awarded unit price to $28.10. Therefore, the $28.10 was not a valid
       basis for measuring the reasonableness of the new contract unit price. The
       contract file lacked specific detail for the cause of the urgency, which was
       particularly important, because it allowed the continued use of a problem
       contractor while excluding other bidders that may have offered a better price
       and better performance.


       24. Contract: DAAE20-99-C-0072

       Unit Price: $130                     Contract Action Amount: $260,000

       Contractor: Seiler Instrument and Manufacturing Company Inc.
       Price Reasonableness Basis: Cost Analysis

       Overpricing Amount: $191,343

       Army Comments: The Army disagreed with the audit conclusion and stated
       that cost and price analysis supports the award price.

       Audit Response: We disagree that cost and price analysis supported the award.
       The huge increase in price from $34.80 to $130 per unit resulted from poor
       acquisition planning. A synopsis and publication in the Commerce Business
       Daily was waived, market research was not performed and a performance
       specification that had not been totally approved was used to make the award.
       Contracting officials were aware that the contractor's price was too high before
       awarding the contract and stated that some justification existed for the high price
       since it was an emergency situation. They were also aware that costs were not
       reasonable after engineering officials determined that the unit price was too high
       and even the contractor stated that some costs were excessive.


       25. Contract: DAAE20-99-C-0073

       Unit Price: Part 1   $20,736.20              Contract Action Amount: $329,922
                   Part 2   $9,560
                   Part 3   $4,605
                   Part 4   $145.80
                   Part 5   $3,205.20

       Contractor: Bofors Weapon System AB

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: Unknown



Note: See the list of acronyms at the end of the appendix.


                                           69
       Army Comments: The Army disagreed with the audit conclusion and stated
       that it verified other sales at the same price.

       Audit Response: There was no evidence in the file to indicate that the same
       price was paid for similar quantities. There was only a one-page document in
       the file that stated, “this is to confirm that the Government of USA is not paying
       anymore than the private industry for items purchased under the above
       contract.” There was no evidence in the file to indicate the items were sold to
       the public at similar prices. In an interview with the contracting official in
       charge of the file, she stated they took the word of the contractor without
       receiving verification that others purchased the items at the same price. This
       certainly supports our finding that commercial prices were accepted without
       question or research.

       26. Contract: DAAE20-99-C-0074

       Unit Price: $222                     Contract Action Amount: $175,380

       Contractor: General Reliance Corporation

       Price Reasonableness Basis: Competition

       Overpricing Amount: $106,704

       Army Comments: The Army disagreed with the audit conclusion and stated
       that a competitive environment existed and price analysis supports the award
       price.

       Audit Response: General Reliance has been the contractor for electrical
       solenoids for the past 25 years and, documentation in the file did not support an
       expectation for competition. There was no evidence in the file to state that
       anyone other than General Reliance inquired or planned to submit a proposal.
       An award document in the file states, “based on past history, General Reliance
       is the only one that has made this item and successfully,” indicating that the
       contract would have only one bidder. There was also no evidence that a price
       analysis was conducted, only the use of prior history was used to determine
       price reasonableness.


       27. Contract: DAAE20-99-C-0082

       Unit Price: $3,187                   Contract Action Amount: $318,700

       Contractor: B.F. Systems Inc.



Note: See the list of acronyms at the end of the appendix.



                                           70
       Price Reasonableness Basis: Cost Analysis

       Overpricing Amount: $143,583

       Army Comments: The Army partially concurred with the audit conclusions.
       The Army agreed that cost analysis should have been better, but disagreed that it
       accepted unsupported costs by stating that the price was compared to a
       competitive follow-on contract.

       Audit Response: We accept the Army’s response that the cost analysis could
       have been better. The price paid was $3,187 per unit for 100 units. The last
       price paid was $1,598 per unit for 121 units. The price was almost double in
       less than 4 years. This is a good example of a contracting officer not having all
       information available. The contracting officer and specialist stated that they
       could not identify any prior history. They were surprised that the Office of the
       Inspector General (OIG) had this information and asked for the source. While a
       cost breakdown was provided, all costs were accepted as proposed with very
       cursory evaluation stated in the business clearance memorandum. The
       procurement was justified as urgent on May 26, 1999 and the contractor’s
       proposal was received the same day. There was no evidence of detailed market
       research. The contractor selected was justified as the only known source, but
       procurement history showed four other potential sources. The Army
       acknowledged that the procurement history file was fragmentary and other
       sources were subsequently identified. Also while the procurement was justified
       as urgent on May 26, 1999, it was not negotiated and awarded until August 9,
       1999. During that time the contractor did not update or change its price.


       28. Contract: DAAE20-99-C-0110

       Unit Price: $462                     Contract Action Amount: $846,846

       Contractor: Beretta USA Corporation

       Price Reasonableness Basis: Prior history (Primary) and competition

       Overpricing Amount: $60,489

       Army Comments: The Army partially concurred with the audit conclusion.
       The Army concurred that the prior price was used improperly. The Army
       nonconcurred with overpricing based on the audit price analysis.

       Audit Response: According to procurement history found in the contract file,
       the latest procurement was in April 1999 with a unit price of $429. This
       procurement was in September 1999 with a unit price of $462. The
       procurement of 9mm pistols does not appear to be quantity sensitive therefore,
       with a simple mathematical computation we computed overpricing of $60,489
       with a quantity of 1,833 on this procurement. In a footnote to the report, we

Note: See the list of acronyms at the end of the appendix.


                                          71
       explained that quantity was not a factor when computing overpricing and that a
       prior price was used. In the file, there was a price analysis done on the
       previous contract that was awarded in 1995; however, that price analysis was
       not applicable to the current contract. There was no evidence in the file that a
       price analysis was done for this current contract.


       29. Contract: DAAE20-99-C-0113

       Unit Price: None                     Contract Action Amount: $461,982

       Contractor: FN Manufacturing Inc.

       Price Reasonableness Basis: Cost analysis
       Overpricing Amount: Unknown

       Army Comments: The Army nonconcurred with the audit conclusion and
       stated that cost analysis supports award price.

       Audit Response: FN Manufacturing Inc. proposed a price of $461,981.79 that
       was considered fair and reasonable based on an engineering review. Overall,
       the statements made in the engineering review were not specific and did not
       provide the adequate documentation as to why the price was reasonable. In
       addition, the engineering review only discussed evaluation of the labor rate and
       number of hours, which comprised $82,397.23. These costs only total 17.84
       percent of the total proposed cost and by evaluating less than 20 percent of the
       total cost, the Army was in no position to determine price reasonableness for the
       total amount of the contract.


       30. Contract: DAAE20-99-D-0026

       Unit Price: $77.81                   Contract Action Amount: $1,120,153

       Contractor: Truetech, Inc.

       Price Reasonableness Basis: Competition (Primary) and price analysis

       Overpricing Amount: $964,212

       Army Comments: The Army disagreed with the audit conclusion. The Army
       stated that a competitive environment existed and that the price analysis supports
       the award price

       Audit Response: Procurement history shows that Truetech Inc, has been the
       sole producer of the decontaminating resin since 1997; the first year the resin
       was procured. Contracting officials did not do market research to show other

Note: See the list of acronyms at the end of the appendix.


                                           72
       contractors were capable of producing the resin to fulfill the requirements of this
       contract. Only one bid from Truetech Inc. was received for this contract
       according to the abstract of offers. The Army appears to rely on expressions of
       interest as a substitute for market research. Many contractors routinely request
       solicitations, but that does not mean they are capable or qualified. Although
       two contractors merely expressed interest, that in itself is not evidence that
       shows that these contractors were capable of producing resin or that there was
       the threat of competition. In the price analysis a comparison of the previous
       price paid and the current price was made; however, there was no
       documentation stating how the previous price was determined to be fair and
       reasonable. There was no competition and the Army should have requested
       certified cost or pricing data.

       31. Contract: DAAE20-99-D-0099

       Unit Price: $277                      Contract Action Amount: $858,700

       Contractor: Island Components Group Inc

       Price Reasonableness Basis: Competition (Primary) and price analysis

       Overpricing Amount: $274,531

       Army Comments: The Army agreed that cost or pricing data should have been
       requested, but also stated that a competitive environment existed. The Army
       disagreed with the amount of overpricing and stated the price analysis supports
       the award price.

       Audit Response: We disagree that the price analysis supports the award price.
       The Army contends that its procurement history is incorrect and should have
       reflected a higher value that supported the price shown in the price analysis of
       $265.67. We discussed this issue with the contracting officer during our visit
       and she stated that an engineering change accounted for the difference, however,
       she could provide no information to support the basis of the change or the
       reasonableness for the cost of such change. All prior history supported amounts
       consistent with a price of $184 rather than $265 so it would be incumbent upon
       the contracting officer to support the basis of price reasonableness for the higher
       amount. We also disagree with the Army on the issue of competition. In an
       email in the file, contracting officials indicated that this “would be a sole source
       acquisition to Island…” in the same email there was evidence that the “current
       technical data package was insufficient for competition,” and FAR 6.302-1 –
       "Only One Responsible Source" was cited and it further stated the acquisition
       should proceed. Therefore, we conclude the threat of competition was
       insufficient. This was another example of an Army award that was made based
       on competition when the likelihood of more than one bidder did not exist. This
       award inappropriately avoided obtaining certified cost or pricing data.


Note: See the list of acronyms at the end of the appendix.


                                           73
       Contracting Organization – U.S. Army Missile Command, Huntsville, AL


       32. Contract: DAAH01-99-D-0076

       Unit Price: $46,947                  Contract Action Amount: $845,046

       Contractor: Raytheon Corporation

       Price Reasonableness Basis: Prior History

       Overpricing Amount: $610,003

       Army Comments: The Army disagreed with the audit conclusion. The Army
       stated that cost information supports the award price and a waiver to cost or
       pricing data was properly executed.

       Audit Response: We had extensive discussions with the contracting staff when
       we were at the installation about the invalid waiver. While the waiver was
       properly executed under the circumstances that existed when it was executed, it
       quickly became apparent that those circumstances supporting the waiver were no
       longer valid and the waiver was null and void. The waiver was granted based
       on the fact that prior pricing was sufficient to support award at an anticipated
       price of between $12,575 and $13,017 per unit. When the contractor’s first
       proposal was received at a price of over $29,000 per unit, price history was no
       longer available that supported this price and the support for the waiver did not
       exist. This became more apparent when the contractor increased his proposed
       cost to $66,158 per unit and then to $68,140 per unit. Even the Executive
       Director of Contracting recognized that the waiver was no longer valid and that
       the submission of certified cost or pricing data was required. The contracting
       officer did not document in the file why certified cost or pricing data was not
       obtained. As a result, the Army lost the protection of TINA. Even though the
       contracting officer did obtain some cost or pricing data, several factors indicated
       a need for certified cost or pricing data. First, there was tremendous variability
       in the contractor’s proposed costs. Three proposals were received plus mistakes
       and updates culminating in the contractor providing what he considered his
       bottom line price. The price went from $29,167 to $66,158 to $68,140 to
       $46,947. Second, DCAA was unable to assess the impact that corporate
       acquisitions and mergers had on pricing. Third, the technical evaluator
       expressed concern in his report about escalating material costs, unjustified costs
       and increases that could not be tolerated. He stated that “it would appear that
       the command is being subject to economic blackmail.” Fourth, the program
       office admitted the contractor was “sticking it to us.” With all these factors
       present, the only prudent course of action should have been to obtain and
       negotiate based on certified cost or pricing data.




Note: See the list of acronyms at the end of the appendix.


                                           74
      33. Contract: DAAH23-98-C-0133

      Unit Price: 11 Line Items             Contract Action Amount: $15,968,686

      Contractor: Robertson Aviation LLC

      Price Reasonableness Basis: Catalog Price

      Overpricing Amount: Unknown

      Army Comments: The Army disagreed with the audit conclusion and stated
      that price analysis and DCAA audit support the award amount.

      Audit Response: The contractor has been the provider of this part since at least
      1988. There are a number of procurement problems associated with this award.
      This contractor has been allowed to sell this product to the DoD for many years
      without requiring the contractor to have an accounting system capable of
      providing meaningful cost data. Normally, it is a prerequisite for doing
      business with the DoD that a contractor have an acceptable accounting system
      and this is normally documented during the initial contract with the contractor.
      However, this contractor was allowed to sell to the DoD using a catalog price
      without any verification of the reasonableness of the price for many years. The
      basis for the waiver granted on this contract was that the contractor’s accounting
      system is not acceptable for submission of certified cost or pricing data. In
      addition, the first award was made on the basis of adequate price competition
      even though in the waiver for this contract it states that the contractor is the only
      qualified and capable source of this product. The contracting office had no
      evidence to show the extent of market research to indicate whether, in fact,
      there was a threat of competition on the initial award. The extent of DCAA’s
      involvement was simply to verify that this item has always been sold to the DoD
      at the catalog price. DCAA offered no comments on the reasonableness of the
      price. Contracting officials attempted to justify this buy as a commercial item
      until they determined that there were only government customers. The Army
      had ultimately ended up using hypothetical and theoretical tools to attempt to
      justify price reasonableness, because the contractor was never required to
      develop a system to support pricing.


      34. Contract: DAAH23-98-D-0014

      Unit Price: Part 1 $4,001.17                  Contract Action Amount: $596,174
                  Part 2 $513.00
                  Part 3 $189.83

      Contractor: Allied Signal Inc




Note: See the list of acronyms at the end of the appendix.


                                           75
       Price Reasonableness Basis: Prior history (Primary) and cost data

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusions and stated
       that cost history includes certified cost or pricing data and cost analysis supports
       award price.

       Audit Response: There were several items included in the contract action.
       There were the costs to overhaul anti-icing valves, scrap, shipping container
       costs and also an upgrade portion. While we agree the pricing data supporting
       the basic overhaul portion of the price was fair and reasonable, costs were
       accepted at face value based on contractor statements of what his estimated
       amounts were for the shipping containers and for the increase in overhaul costs
       from the prior buy. In addition, there was no independent review or explanation
       of the determination of price reasonableness for the upgrade portion of the price.
       Also, while we did not find fault with the price reasonableness of the
       unescalated overhaul costs, we believe several factors may have indicated that it
       would be prudent to have revisited these costs. First, this was only a second
       time buy and the contracting officer of the prior buy had indicated that because
       indirect rates were new at that time, they simply split their differences
       (contractor versus the Government) and several overhead rates were high in
       relationship to labor costs including one overhead rate of over 700 percent.

       35. Contract: DAAH23-98-D-0117

       Unit Price: $5,862                    Contract Action Amount: $574,476

       Contractor: Kaiser Aerospace and Electronics Corp.

       Price Reasonableness Basis: Prior history

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusion and stated
       that previous prices were compared to prices paid by other customers.

       Audit Response: We believe that this contract is a good example of contracting
       staff justifying an item as commercial to save time, failing to extensively review
       or research the commercial nature of the item, and avoiding the requirement to
       obtain cost or pricing data. The contractor admitted that the helicopter in
       question has not been sold commercially. The contracting staff appear to have
       already made the decision to buy as a commercial item even before they
       evaluated the item. In a July 21, 1998 memorandum, a contracting official
       wrote that, “because of the dollar value and because it is IDIQ [indefinite
       delivery, indefinite quantity], it would be best to do as commercial to keep the

Note: See the list of acronyms at the end of the appendix.




                                            76
       contractor from having to submit cost or pricing data, it will also save time." It
       further stated that on July 20 the contracting official had talked to another Army
       official and quoted that individual as stating that, “he could not understand why
       it was commercial.” The item was not determined to be commercial until 9
       days later even though the contracting officer stated that there were two major
       differences between this item and the contractor’s commercial item. There was
       no detailed analysis of these differences in the file to show that the part would
       qualify as commercial. There was also no evidence to show that the contracting
       officer determined that the prior prices were fair and reasonable before using
       those prices to establish price reasonableness for this contract action.


       36. Contract: DAAJ09-96-C-0116
       Unit Price: None                     Contract Action Amount: $887,503

       Contractor: Bell Helicopter Textron, Inc.

       Price Reasonableness Basis: Cost analysis

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusions. The Army
       stated that a DCAA audit was done and that cost analysis and negotiation
       supported award price.

       Audit Response: We agree with the Army statements except on the portion of
       costs included in the contract for unanticipated maintenance and repair. The
       contract included a lump sum figure of $6 million that was supposed to
       represent initial funding of unanticipated maintenance and repair costs. The
       contractor stated that these costs were based on prior lots actual costs. This
       statement alone was not sufficient to support price reasonableness. Further, the
       proposal was significantly lacking in detail for the unanticipated maintenance
       portion. The contractor even stated at the time of their proposal that he did not
       have the time and material rates for FY 1998 that would be necessary to
       evaluate pricing. The contract action that we reviewed was a contract
       modification of $887,503. This action was a modification to increase the lump
       sum unanticipated maintenance from $6,000,000 to $6,887,503. This action by
       itself exceeded the threshold of $500,000 for obtaining certified cost or pricing
       data. However, there was no evidence to support this amount and no evidence
       that certified cost or pricing data was obtained. The contractor appeared to have
       a free hand in determining the need and cost of unanticipated maintenance and
       repair and the costs that were spent were considered the basis for determining
       reasonableness. In our opinion, the Army may have been better served to
       include these costs in a separate contract in which specific task orders could be
       priced and awarded as unanticipated needs developed or at the very least provide
       specific details when actions changing this cost result in the need to obtain
       certified cost or pricing data.

Note: See the list of acronyms at the end of the appendix.


                                           77
       37. Contract: DAAJ09-97-D-0196

       Unit Price: $585,243                Contract Action Amount: $1,170,486

       Contractor: General Electric Company

       Price Reasonableness Basis: Prior history (Primary) and cost analysis

       Overpricing Amount: Unknown

       Army Comments: The Army disagreed with the audit conclusions and stated
       that the price analysis supports the award price.

       Audit Response: We agree with the Army that the prior price was reasonable
       and represented a good starting position for negotiation of the new contract.
       However, the new proposed and negotiation prices for FY 1998 were 14.9 and
       9.1 percent higher than the FY 1997 price. The Army accepted the contractor’s
       proposed material escalation without aggressively pursuing reductions even
       though standard escalation forecasts indicated lower escalation factors. In
       addition, the Army original negotiation position was $558,033. This was over 5
       percent lower than the revised negotiation position and would have been
       compounded for each out year. Documentation in the file did not fully explain
       why the Army did not continue to use the original negotiation position. We
       understand the need for give and take in negotiations. Certainly, the contractor
       factors contingencies into his price for negotiation purposes and the Army would
       have been in a better position to negotiate a lower price had it maintained its
       original strategy or at the very least, explained why it needed to deviate from
       that position.


       38. Contract: DAAJ09-97-D-0202

       Unit Price: $314,868                Contract Action Amount: $188,920,755

       Contractor: Allison Engine Company

       Price Reasonableness Basis: Catalog price (Primary) and cost analysis

       Overpricing Amount: $7,097,717

       Army Comments: The Army disagreed with the estimated overpricing on this
       contract based on several points. The Army stated that the OIG suggested a unit
       price discount based on a quantity of 600 when only 239 were bought. The
       Army stated that overpricing was calculated based on the full 5-year quantity of
       600. The Army further believed that based on price analysis a well-documented
       fair and reasonable price was obtained.



Note: See the list of acronyms at the end of the appendix.


                                          78
       Audit Response: We do acknowledge that overpricing was initially computed
       on a quantity of 600 because the contract continues through FY 2002 and there
       has been nothing to suggest that the full quantity will not be bought. The
       contract period can be extended and quantities can be modified for out years.
       We agree with the Army that the overpricing amount should be based on the
       number of engines actually bought to date, which according to the Army, has
       increased to 255 engines. We recalculated the overpricing based on 255
       engines, resulting in a reduced overpricing amount of $7.1 million. However,
       the Army did not address the main issues of allowing consideration as a
       commercial item and not using their own detailed cost analysis which supported
       a much lower price and escalation. In addition, the Army did not address major
       concerns from DCAA about obtaining data to support pricing. The
       prenegotiation objective and the price used for negotiations was based on the
       prior buy from a different contracting organization. There was no evidence in
       the file that showed that the Army knew if or how price reasonableness was
       established for that smaller quantity. The Army had a detailed price and
       technical analysis that supported a price of $252,362 which was $26,113 lower
       than the negotiated amount for the first year of the contract. There was no
       explanation for ignoring the results of this analysis. We also believe that
       because of the problems that DCAA encountered in trying to obtain and review
       information, and since purported unaudited commercial sales were made to
       other long time Government contractors, it was incumbent upon the contracting
       officer to eliminate any concerns about giving up the rights available with the
       TINA and accepting prior prices before awarding this contract. Further, at a
       quantity of 120 each year, it would certainly be a reasonable position to assume
       the price would be lower than for a quantity of 78 from a prior purchase. It
       appears that the Army accepted the contractor’s assertion that the item was
       similar to a commercial item. This resulted in a prior price being accepted as
       equivalent to a commercial price even though the Army had done extensive
       price and technical analysis that supported a substantially lower amount.




Note: See the list of acronyms at the end of the appendix.


                                          79
Comments From the Navy

       Contracting Organization – Naval Air Systems Command, Pax River, MD


       39. Contract: N00019-96-C-0220

       Unit Price: $28,483                  Contract Action Amount: $1,053,871

       Contractor: Allied Signal Inc.

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed with the audit conclusion. The Navy stated
       the Business Clearance Memorandum (BCM) supported price analysis by
       commercial sales history, vendor quotes for subcomponents and comparison to
       General Services Administration (GSA) prices.

       Audit Response: The item is a militarized version of a ground proximity
       warning system. The BCM did not adequately support price analysis by
       commercial sales history. The commercial prices reflected ranged from
       $21,000 to $37,977. The contract unit price per mod P00002 was $28,483.
       There were numerous sales depicted in the sales history attached to the BCM
       that were below the purchase price of $28,483. Also, the purchase history
       showed sales of much lower quantities than what was acquired in this contract.
       The Naval Air Systems Command contracting officer agreed that the catalog and
       GSA price does not ensure that the price is fair and reasonable. He stated that
       the price was greater than the price history because of added costs. However,
       the contract files did not state anything about additional costs and did not
       address any add ons to the commercial items. The contracting officer agreed
       that the BCM should have addressed the additional costs and changes to the
       commercial item. Based on the available information and the meeting with the
       contracting officer, the documentation was not adequate to determine price
       reasonableness. The contracting officer also stated that he could not answer
       questions about specific details of the procurement because he had "inherited" it.


       40. Contract: N00019-99-C-1252

       Unit Price: 5 Line Items                    Contract Action Amount: $857,287

       Contractor: Rockwell Collins Inc.

Note: See the list of acronyms at the end of the appendix.



                                           80
       Price Reasonableness Basis: Catalog price (Primary) and price analysis

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed with the audit conclusions. The Navy stated
       that the field pricing report was received from Defense Contract Management
       Agency and DCAA and was used in price analysis. Price analysis included
       historical price comparisons, commercial sales history, and parametric price
       analysis run by the cost/price group.

       Audit Response: We acknowledge that there is a large amount of information
       associated with the negotiation of this procurement and the Navy did perform a
       number of procedures related to the review including learning curves.
       However, the basic premise still remains that the majority of cost for this action
       revolved around the transmitter/receiver portion of this contract and the price
       reasonableness procedures performed involved evaluations and manipulations
       against the contractor's Government price list. This proposed price was reduced
       by a percentage to give the Navy a preferred price off of the catalog price.
       However to be reasonable, the Navy needed to show that other customers paid
       the same or similar prices. The sales history summary appears to be nothing
       more than a typed list prepared by the contractor that shows part number,
       quantity, unit price and extended price. There were no dates of sales,
       customers, invoice numbers, contract numbers or any actual supporting
       documentation that would allow us to independently and assuredly know that
       sales were actually made at these prices to other customers.


       41. Contract: N00019-99-C-1598

       Unit Price: 7 Line Items                    Contract Action Amount: $317,221

       Contractor: Fatigue Technology Inc.

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed with the audit conclusions. The Navy stated
       that although pressed by shortage of time and people, the PCO relied on
       contractor published commercial price and price analysis of proposal to justify
       price as reasonable.

       Audit Response: The price negotiation memorandum stated that materials are
       based on the established price list and are considered fair and reasonable.
       However, the Navy did not do any independent evaluation to determine whether
       any customers paid the prices on the price list. Instead, it relied on the
       statements of the vice president of the company that said these prices were
       available to the general public. Furthermore, the contracting officer expressed

Note: See the list of acronyms at the end of the appendix.


                                           81
       concern in an e-mail in the file stating that even though the contractor had
       provided relevant pages from his catalog, he still has to demonstrate that the
       components for this contract were available to the general public at
       commercially available prices. Price reasonableness was not established.


       42. Contract: N00019-98-C-0092

       Unit Price: None                     Contract Action Amount: $700,000

       Contractor: Sikorsky Aircraft Corporation

       Price Reasonableness Basis: Cost analysis
       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed with the audit conclusion and stated that the
       labor rates were based upon a forward pricing rate agreement.

       Audit Response: This contract action had a number of procurement problems.
       The contract action should have required certified cost or pricing data, but none
       was obtained and no waiver was prepared. The contract specialist stated that no
       waiver was obtained because no proposal was submitted since the purpose of the
       contract was just to establish a pool of money to be used when needed.
       Therefore, it does not appear there was a valid purpose for issuing this contract
       action at that time. The contract action was also justified as sole-source because
       of the contractor's unique qualifications, thereby, not allowing competition.
       The contracting file did not have a cost estimate or price analysis and did not
       explain how price reasonableness was established. The contract specialist was
       not even sure if a request for proposal had been prepared. The procurement
       contracting officer job for this contract action had been vacant for a month. The
       contract specialist stated that he was the acting contracting officer, but in a
       subsequent meeting, the division chief stated the specialist was not acting, that
       the position was vacant and that he (the division chief) was responsible until a
       contracting officer was assigned.


       43. Contract: N00019-99-C-1059

       Unit Price: Part 1 $28,993           Contract Action Amount: $4,652,388
                   Part 2 $3,320

       Contractor: Avionics Display Corporation




Note: See the list of acronyms at the end of the appendix.




                                           82
       Price Reasonableness Basis: Cost Analysis, market research

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed with the audit conclusion. The Navy stated
       that the procurement contracting officer (PCO) had three price quotes and past
       history to support reasonable price.

       Audit Response: According to the BCM, price reasonableness was based on
       requests for quotes received from three contractors and cost support on similar
       units produced for private industry. The quotes received from the three
       contractors were however, not detailed or formal and did not support price
       reasonableness. According to contract officials, the contractors verbally gave
       the requests for quotes over the phone and cursory hand written notes on the
       sheets by the Naval Air Systems Command included no details or terms. There
       were no official responses to the request for quotations and notes were not
       specific enough to know what the contractors were actually quoting on. The
       quotes lacked detail and credibility. Even though, the value of this procurement
       was almost $5 million, pricing information was cursory. A price was
       handwritten on two of the quotes and the other stated a rough order of
       magnitude for approximately half the quantity of what was being ordered under
       this contract. There was no support documentation in the contract files for any
       cost support and past history to support prices. Based on this, the price
       reasonableness determination for this contract was inadequate. A procurement
       of this magnitude would certainly warrant much more evaluation. Also, the
       original contracting officer was no longer employed by the Navy and the new
       PCO was not involved in the contract award.


       44. Contract: N00019-99-C-1648

       Unit Price: Part 1 $2,250           Contract Action Amount: $21,998,250
                   Part 2 $4,914

       Contractor: Lockheed Martin Tactical Defense Systems

       Price Reasonableness Basis: Competition

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed with the audit conclusion that no competition
       existed. The Navy stated that the PCO believed adequate competition existed,
       and that price comparison to previous buys supported the price.

       Audit Response: The contractor was the only provider of this work since 1989.
       Since 1989, a series of sole-source contracts were issued to the same contractor.
       This contractor was responsible for development of the laser guided training
       round and because of the contractor's background and knowledge of the

Note: See the list of acronyms at the end of the appendix.


                                          83
       program, the contracting officer has not demonstrated that with this contractor's
       competitive advantages there was an expectation or threat of competition. There
       was insufficient evidence of adequate market research to show that other sources
       were capable of providing meaningful bids. The contracting officer relied on
       other companies' expression of interest to support the decision that competition
       existed. Prudence especially with a long-standing incumbent would require a
       serious likelihood of competition instead of a veil of competition. This is an
       example of the inappropriate claim that competition existed with only one source
       and thus certified cost or pricing data were not requested.


       45. Contract: N00019-99-C-1681

       Unit Price: $490,359                        Contract Action Amount: $490,359
       Contractor: Raytheon Systems Company

       Price Reasonableness Basis: DCAA audit and prior costs, no support (Primary)

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed with the audit conclusion that costs were
       accepted that were not supported or warranted. The Navy stated that price
       reasonableness was supported based upon element by element examination of
       contractor's cost.

       Audit Response: This contract was an example of inadequate planning. The
       contract was a sole-source award to Raytheon using a fixed price contract with
       all costs incurred before the contract was negotiated and awarded. The contract
       period was January 1999 through October 1999. The negotiation memorandum
       was prepared September 29, 1999, and the award date was September 30, 1999.
       The price was based on actual costs. There was no decision regarding price
       reasonableness before work began.


       Contracting Organization – Naval Inventory Control Point,
        Philadelphia, PA


       46. Contract: N00383-97-G-005B

       Unit Price: $40,600                 Contract Action Amount: $203,000

       Contractor: Northrop Grumman Corporation

       Price Reasonableness Basis: Cost Analysis

       Overpricing Amount: Unknown

Note: See the list of acronyms at the end of the appendix.


                                          84
       Navy Comments: Navy disagreed with the audit conclusion that costs were
       accepted without being supported or warranted. The Navy stated that cost
       analysis was used to establish the price based on DCMC cost element
       recommendations.

       Audit Response: The contract file supporting documentation was not sufficient
       to determine price reasonableness. Section IV of the PNM provided the
       breakdown for the cost analysis, however, the supporting notes lacked detail as
       to how the numbers were derived for establishing price reasonableness. The
       biggest part of the cost of this contract action, an interdivisional transfer, was
       only discussed in very limited and cursory terms. As a result, and as an
       independent reviewer, we could not adequately determine price reasonableness.

       47. Contract: N00383-98-D-003G

       Unit Price: $630                     Contract Action Amount: $1,256,220

       Contractor: Dunlop Aircraft Tires Limited

       Price Reasonableness Basis: Prior history (Primary) and competition

       Overpricing Amount: $191,227

       Navy Comments: Navy disagreed with the audit conclusion and stated that
       prices were based on competition.

       Audit Response: The order was awarded to Dunlop, the incumbent, who has
       been awarded 5 contracts since 1990. Dunlop has been the sole provider of this
       tire during the past 10 years. The files did not document that there was a
       reasonable expectation of receiving other bids in addition to Dunlop. Further,
       based on the past 10 years of sole-source awards for the item, the likelihood of
       competition would appear to be remote. Therefore competition did not exist,
       and the contracting officer did not adequately determine price reasonableness.


       48. Contract: N00383-99-C-D010

       Unit Price: $6,425                   Contract Action Amount: $237,725

       Contractor: Allied Signal/Grimes Aerospace Co

       Price Reasonableness Basis: Prior History

       Overpricing Amount: $15,043

       Navy Comments: Navy disagreed with the audit conclusion and stated that the
       price was established through use of cost analysis.

Note: See the list of acronyms at the end of the appendix.


                                           85
       Audit Response: There was no evidence in the contract file that cost analysis
       was performed and used in determining price reasonableness. According to the
       contract files, the price was deemed fair and reasonable as it compared
       favorably with the previous price awarded in July 1998. Contracting officials
       were unable to provide us with documentation showing that the prior price was
       reasonable and could be used to support price reasonableness for this award.


       49. Contract: N00383-99-C-P014

       Unit Price: $6,454.29                       Contract Action Amount: $109,723

       Contractor: Lockheed Martin Corporation
       Price Reasonableness Basis: Prior history (Primary) and cost analysis

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed with the audit conclusion. The Navy stated
       that price was established through cost analysis and DCMC revised interim
       indirect forward pricing rate recommendations.

       Audit Response: The contract file contained no information to indicate a price
       objective based on cost analysis. In fact, the amount that is stated as the
       negotiated reduction off the contractor's proposal is actually the contractor's
       updated proposal as of January 7, 1999. The pre/post negotiation clearance also
       states that negotiated price compares favorably to history. However, the
       historical quantity was less than half of the quantity for this procurement and
       there was no supporting detail to show the price reasonableness of the previous
       price used in the comparison. This contract was awarded on January 21, 1999
       and was terminated for the convenience of the Government, less than 4 months
       later on May 10, 1999.


       Contracting Organization – Fleet Industrial Supply Center,
        Philadelphia, PA


       50. Contract: N00140-98-F-D310

       Unit Price: 25 Line Items           Contract Action Amount: $6,750,000

       Contractor: Lockheed Martin Technology Services Group

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: Unknown

Note: See the list of acronyms at the end of the appendix.



                                          86
       Navy Comments: Navy disagreed with the audit conclusions. The Navy stated
       that pricing was not based on a "catalog." The prices were in a competitively
       established blanket purchase agreement (BPA) under Lockheed Martin
       Corporation GSA schedule contract.

       Audit Response: The proposed services under the original BPA consisted of a
       series of proposed labor categories and rates and did not establish that the
       services were commercial. The contract file documentation also showed the
       Navy may have inappropriately avoided competition. The file noted that a
       justification and approval for a sole-source award might be needed if the
       contractor did not improve its discount. This appears to be an obvious
       misunderstanding of the need for preparing a justification and approval for not
       having competition. The amount of discounts offered by a contractor would not
       dictate the need for a justification and approval for a sole-source award. A
       justification and approval for a sole-source award would be needed if there were
       not full and open competition. The Navy did not establish the commercial
       nature of the work or price reasonableness. Further, if competition occurred it is
       likely that prices would decrease.


       51. Contract: N00140-98-D-0341

       Unit Price: Part 1.   $369            Contract Action Amount: $2,816,782
                   Part 2.   $ 99
                   Part 3.   $ 7
                   Part 4.   $ 2

       Contractor: Template Software, Inc.

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed that catalog prices were accepted without
       additional review. The Navy stated that price analysis was performed. The
       negotiator confirmed that prices paid by commercial customers were consistent
       with the price list, and that the negotiated discount from the price list of up to 23
       percent was consistent with equivalent volume discounts.

       Audit Response: While the contracting officer stated that certain things were
       done to support price reasonableness, the contract file was seriously lacking
       documentation to support the statements of the contracting officers purported
       actions. The contracting officer was unable to provide any further support to
       allow us to independently determine if data supported the conclusions. In
       addition, the justification and approval for a sole source award to develop a
       prototype system for the Navy Standard Integrated Personnel System for
       $5 million was questionable. Developing a prototype software system is not a
       normal catalog line item.

Note: See the list of acronyms at the end of the appendix.


                                            87
       52. Contract: N00140-99-D-E220

       Unit Price: Part 1 $27,155            Contract Action Amount: $453,215
                   Part 2 $47,195

       Contractor: Ciprico, Inc

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed that catalog prices were accepted without
       additional review. The Navy stated that “substantial review was performed.
       Pricing at greatest available qty [quantity] discount plus non-commercial pricing
       for ruggedization.”

       Audit Response: The contract file was lacking in documentation that would
       support the pricing decisions. The contracting officer stated that he probably
       got verbal feedback from the contractor to support statements that price was as
       good or better than offered other Government or commercial customers. This
       certainly supports our conclusion that catalog prices were accepted without
       additional review. For the non-commercial ruggedization, statements were
       made in the PNM that analysis was conducted, however, costs were accepted as
       reasonable without support for the costs elements. Comparison to previous
       prices paid also did not show that the contracting officer understood the basis of
       prior price reasonableness.


       53. Contract: N00140-9997-D-1756

       Unit Price: $156.45                   Contract Action Amount: $8,999,121

       Contractor: Cyber Source Corporation

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: Unknown

       Navy Comments: Navy disagreed that catalog prices were accepted without
       additional review. The Navy stated that “no ‘catalog’ price specific to
       combination of licenses and license maintenance acquired. ‘Per seat’ price
       significantly less than aggregate individual ‘catalog’ prices for items. Per seat
       price also compares favorably to corporate and GSA schedule pricing for
       comparable items as well as Gartner Group benchmark.”

       Audit Response: The subject procurement for an estimated value of
       approximately $49 million was justified as other than full and open competition


Note: See the list of acronyms at the end of the appendix.


                                           88
       to acquire software products of Microsoft, Cybermedia and Intessera. The
       Navy limited the procurement to one contractor, which the Navy stated was the
       only approved source of Microsoft products delivered via electronic
       distribution. The contractor's proposal offered two alternatives. The first was a
       bundled option that offered a full range of products and services at a bottom line
       price with no detail. Alternative 2 offered individual prices for the products and
       services. Under the individual pricing, most of the money was proposed for 3
       items. These were: line item 3-Office Professional at $122.22 per unit; line
       item 7 BackOffice client access license at $112.19 each; and line item 4-Project
       at $67.52 each. Prices were proposed per computer. However, the Navy
       wanted to use a per user (seat) approach and it appears that even though there
       was wide variability in the number of quantities proposed for the different items
       (i.e. base year- 37,000 units of office professional, 23,000 units of Windows 95)
       the Navy wanted to use one overall unit price. The contractor had major
       concerns about this pricing methodology as it limited accountability and control
       relative to quantities in use and as compared to the synopsis. The negotiation
       memorandum stated that a price of $156.45 per user was negotiated. The price
       analysis to support price reasonableness consisted of 5 unit prices with no
       supporting detail. The unit prices were negotiated $156.45, proposed $300,00,
       Best Corporate $311.00, GSA $450.00 and Gartner Group $510.00. The price
       negotiation goes on to note that price analysis on this acquisition is a difficult
       task, since this is such a non-traditional approach to pricing software licenses.
       The negotiator utilized pricing for similar acquisitions to determine the
       negotiated "price per user" to be fair and reasonable. The similar acquisition's
       pricing is per computer. This method is the more traditional way of doing
       business in the information technology industry. It is difficult to understand
       how the Navy could use other similar acquisitions for comparison when it stated
       that this contractor was the only one capable of providing these products in the
       manner required. Besides being very difficult to determine even what the
       negotiator was actually doing since pricing detail is lacking, the actual support
       for price reasonableness is seriously lacking and cursory. For a $49 million,
       procurement, it would certainly be prudent to expect much more documentation
       supporting the price. We expected a lot of documentation to support the price
       because the Navy limited the award to one contractor in an industry that would
       normally be extremely competitive.


       54. Contract: N00140-98-D-4551

       Unit Price: 159 Line Items           Contract Action Amount: $4,070,477

       Contractor: United Computer Products Co.

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: Unknown



Note: See the list of acronyms at the end of the appendix.


                                           89
       Navy Comments: Navy disagreed that catalog prices were accepted without
       additional review. The Navy stated that this was a small and disadvantaged
       business Section 8(a) contract with contractor providing Optia hardware. The
       Navy also stated that price analysis was conducted, and that contract prices were
       discounted 20 percent from Optia GSA schedule and 28.8 percent from Optia
       published price list.

       Audit Response: This contract was a set aside for small business award for an
       estimated value of $4,999,924 to provide standard off the shelf computer
       hardware. There was no acquisition plan because the award was $76 under the
       threshold that requires competition for Section 8(a) contracts. The procurement
       also appeared to be rushed so it could be awarded prior to the end of the fiscal
       year. Request for quotes was issued on September 15, 1998 and closed on
       September 25, 1998. The contract was issued on September 30, 1998. The
       selected contractor was considered the only capable source. This decision was
       questionable in light of the type of product provided. The Navy seems to justify
       commercial item on one hand, but unique requirement of the Government
       agency allowing only one contractor on the other hand. This clearly seems like
       an attempt to circumvent competition that almost certainly would have resulted
       in a better price. Price was supposedly established as fair and reasonable based
       on comparison to the contractor's price list and the contractors' published GSA
       schedule. According to the price negotiation, prices were 10 to 20 percent
       below the GSA pricing and 28.8 percent below the list price. All of the
       comparative data was from the contractor's proposal. The contracting officer
       did not determine if any sales were made at the listed price nor did he show any
       independent review of the contractor's statements on GSA prices. Reliance on
       information furnished by contractor without independent verification is
       considered insufficient market research. As such, price reasonableness was not
       adequately established.




Note: See the list of acronyms at the end of the appendix.


                                          90
Comments From the Air Force

       Contracting Organization – Aeronautical Systems Center,
        Wright-Patterson Air Force Base, OH


       55. Contract: F33657-98-C-0014

       Unit Price: Part A. $4,900
                   Part B. $2,070           Contract Action Amount: $1,447,430

       Contractor: Innovative Solutions and Support Inc.

       Price Reasonableness Basis: Catalog prices (Primary) and prior pricing

       Overpricing Amount: $73,218 (Part B)

       Air Force Comments: The Air Force nonconcurred with the audit results. The
       Air Force stated that the alerter kit is a commercial item that is purchased as a
       total package that consists of Group A (the alerter) and Group B (installation).
       The Air Force also stated, it is not prudent to focus specifically on the purchase
       of one Group A without consideration of Group B. It appears that the auditor
       only considered an adjusted price for Group B (installation).

       The Group B (installation) had been purchased previously at a price of $1,800,
       and Group A at a price of $7,500. The proposed price was $2,150 per unit for
       installation, and $7,275 per unit for the alerter kit. The Air Force secured
       additional information from the contractor and negotiated a unit price of $2,070
       for the installation, and $4,900 for the alerter kit. The Air Force concluded that
       there was no overpricing on this action.

       Audit Response: We did not focus on the installation (Group B) portion of the
       altitude alerter kit only. We also reviewed pricing for the altitude alerter
       (Group A). However, we only had sufficient information to compute
       overpricing on the Group B portion. We do believe that insufficient review was
       done on both parts to support price reasonableness. The Air Force failed to
       address the significant quantity variance between the purported prior buys for
       the alerter kit and the current requirement. The purported price history in the
       price negotiation memorandum shows support for a $7,500 unit price for the
       alerter and is based on quantities ranging from 3 to 36. The quantity for this
       procurement is 400 with an option for 224 more. There is absolutely no
       relationship between the prior procurement and this contract. In addition the
       catalog unit price only included quantities up to 250 and there was no
       explanation of what would be an appropriate catalog price above this level.


Note: See the list of acronyms at the end of the appendix.


                                           91
       Beyond that, there was no market research or documentation for the sales to
       others. There were no invoice numbers or other verifiable basis to determine
       that sales were actually made. Further, since the purported sales were all to one
       contractor that is a long time Federal Government contractor, it would also have
       been appropriate to determine whether these sales were part of a Government
       prime contract. There was also no explanation of the rationale for the $4,900
       price other than the fact that this was the price offered by the contractor because
       of the “rough order of magnitude.” In regard to the alerter kit, the purchase
       was made at a price 15 percent above the price on the previous year’s buy which
       was for only 30 units. This price negotiation memorandum for this procurement
       was for a quantity of 326 kits with an option for 224 more kits. The contracting
       officer did not adequately establish price reasonableness because he did not do
       any independent review of statements made by the prime contractor. The
       contracting officer’s original objective did not include the contractor’s estimate
       for research and development contracts. This was consistent with the price paid
       for the smaller quantity of kits previously procured. However, the contracting
       officer accepted the contractor’s statement that research and development was
       applied across all efforts and products without verifying the statement. The
       prior procurement clearly excluded research and development costs. The
       contracting officer stated that he accepted the research and development costs
       even though the kits were fully designed by Boeing. There was also no
       verifiable support for the statement in the contract file that Boeing’s cost for the
       kit would remain flat with the significant increase in quantity. This was
       especially important since Boeing selected Innovative Solutions and Support as
       the contractor for the alerters and then Innovative Solutions and Support selected
       Boeing to provide the kits. We believe that the objective and price should have
       been at least as low as the price for the smaller quantity previously procured and
       stand by our estimate of overpricing.


       Contracting Organization – San Antonio Air Logistics Center, TX


       56. Contract: F41608-97-A-0001 (Order 152)

       Unit Price: $17,206.57                Contract Action Amount: $2,615,399

       Contractor: Allison Engine Company

       Price Reasonableness Basis: Catalog price

       Overpricing Amount: $1,384,848

       Air Force Comments: The Air Force nonconcurred with the audit conclusions.
       The Air Force stated that the order was placed against a negotiated Blanket
       Purchase Agreement (BPA) established for the sole source procurement of T-56
       engine replacement parts. The key information on this contract action was
       located in the price negotiation memorandum of the BPA file. The auditors

Note: See the list of acronyms at the end of the appendix.


                                           92
      relied only on the order file. The contract file provides the order schedule
      submitted by the contractor showing the catalog price and the discounted unit
      price offered to the contractor’s other favored customers. Both of these prices
      are significantly higher than the Government’s discounted unit price as
      calculated in accordance with the negotiated agreement.

      Audit Response: We did have the price negotiation memorandum for the BPA.
      We reviewed all necessary files to reach our conclusions including the BPA file.
      The Air Force believes that because it received a discount off of a catalog price
      that the price is good. The Air Force negotiated a unit price of $17,296.57 for
      order 152 which would equate to a discount of about 58 percent off the catalog
      price of $40,611.77. This discounted price greatly exceeds the price of
      previous buys at unit prices of less than $11,000. These prior buys would
      equate to discounts of approximately 75 percent off the catalog price. A
      discount off a catalog price no matter how large does not establish price
      reasonableness. In addition, the contracting officer stated that the 119 units
      used for the analysis of pricing for this order were the universe of sole-source
      parts that the Air Force expected to buy. Since these parts were not part of the
      universe and were added later, they had no chance to be part of the BPA price
      analysis and results from other part reviews would not be projectable to these
      parts. The contracting officer was also unable to explain why parts histories
      could not be matched with price analyses in a number of cases. The contracting
      officer was also unable to explain and the contracting file did not provide
      evidence of the priced proposals for the military that were purportedly used to
      support price reasonableness. In addition, the statement that prices were also
      reasonable because of the existence of DCAA rates also has little meaning since
      the parts were not broken down by cost element it is not possible to determine
      what rates were used or applied. While documentation was available to support
      discounts off the contractor’s catalog prices, the purchase history for the two
      parts reviewed showed even larger discounts than the discounts negotiated in the
      order. At a minimum, the contracting officer should have explained why
      discounts were less for this contract than in prior purchases. The contracting
      officer did not adequately support price reasonableness and we computed
      overpricing based on actual price history for these two parts.


      57. Contract: F41608-97-A-0001 (Order 159)

      Unit Price: $15,994.94               Contract Action Amount: $4,254,655

      Contractor: Allison Engine Company

      Price Reasonableness Basis: Catalog price

      Overpricing Amount: $1,204,441




Note: See the list of acronyms at the end of the appendix.


                                         93
       Air Force Comments: Air Force disagreed with the audit conclusions for the
       same reasons as cited for order 152 above.

       Audit Response: Comments are the same as comments for order 152 above.


       58. Contract: F41608-99-C-0237

       Unit Price: $553                     Contract Action Amount: $188,020

       Contractor: Empire Manufacturing Corp.

       Price Reasonableness Basis: Competition
       Overpricing Amount: $94,758

       Air Force Comments: The Air Force partially concurred with the audit
       conclusions. A review of the contract file indicates that four contractors were
       solicited and only one submitted a proposal. Historical prices and the use of 88-
       92 percent learning curve were used to develop a price range of $459-$500 per
       unit. The use of such a steep learning curve is questionable and may have
       resulted in an unreasonably low estimate. However, an Air Force objective of
       $475 per unit was established. The Air Force agreed that additional market
       research may have provided further insight on potential sources and better
       prices. While this will not necessarily result in overpricing, the extra step of
       performing market research or price analysis is needed. The Air Force
       estimated that a 95 percent slope is more appropriate to ascertain an
       approximated price for this contract. This equates to $500 per unit. Therefore,
       overpricing on this effort is estimated at $18,020.

       Audit Response: We agree that price reasonableness was not adequately
       established and that overpricing occurred. Our overpricing calculation of
       $94,758 was based on certain learning curve and inflation index assumptions
       which represent what we believe is the best estimate of the overpriced amount.
       However, we acknowledge the Air Force might make different assumptions and
       compute an amount that could be equally defensible. We did, in this case, use a
       95 percent learning curve just as the Air Force stated it used so we are not sure
       what accounts for the difference. Our calculations were provided to the Air
       Force.


       59. Contract: F41608-99-D-0185

       Unit Price: $565                     Contract Action Amount: $1,220,965

       Contractor: Ferrotherm Company



Note: See the list of acronyms at the end of the appendix.


                                          94
      Price Reasonableness Basis: Catalog price

      Overpricing Amount: $598,856

      Air Force Comments: Air Force partially concurred with the audit
      conclusions. The Air Force stated that the price was not based upon the
      acceptance of the proposed catalog price. The Air Force review of the contract
      concluded that the documentation was inadequate and does not support the
      determination of a fair and reasonable price. The Air Force agreed that there is
      overpricing on this contract. To ascertain an estimated amount, the Air Force
      considered the historical price of $345, escalated 3 percent for 5 years to equate
      an approximate adjusted unit price of $396.75. This amounts to $146,677 in
      overpricing.
      Audit Response: We agree that price reasonableness was not adequately
      established and the overpricing did occurred. However, we disagree with the
      amount of overpricing estimated by the Air Force. The Air Force computed an
      adjusted price of $396.75, based on the prior contract unit price of $345.
      However, the Air Force did not account for the large quantity difference for this
      contract. The prior contract was for only 39 units whereas this contract was for
      2,161 units. The Air Force apparently adjusted the price for inflation without
      regard to quantity differences. Our overpricing was based on the same unit
      price from the prior contract, but took into consideration inflation as well as
      quantity differences. We believe our estimate of the amount of overpricing was
      valid.


      60. Contract: F41608-99-C-0530

      Unit Price: $5,839.13                        Contract Action Amount: $391,222

      Contractor: Purdy Corp.

      Price Reasonableness Basis: Prior history

      Overpricing Amount: $60,571

      Air Force Comments: The Air Force nonconcurred with the audit results. The
      Air Force stated that the PNM shows that the current requirement is for the
      same item and there was reasonable expectation based on market research or
      other assessment that two or more responsible offers competing independently
      would submit priced offers. Furthermore, the buyer conducted a price analysis
      using the previous price, adjusted to current month values using the Bureau of
      Labor Statistics commodity index, and using 88 percent and 92 percent
      logarithmic curves to obtain a range of acceptable prices of $6,658.28 to
      $6,752.72. The Air Force concluded that the price of 67 each at a unit price of
      $5,839.13 was acceptable and reasonable.


Note: See the list of acronyms at the end of the appendix.


                                          95
       Audit Response: The only source for the part was the prime contractor. In this
       case, the competition could only consist of nothing more than the prime
       contractor passing through the actual vendor’s part with additional overheads
       and profit. This would also account for the significant difference between the
       past two prices from the actual vendor and the prime contractor. Purdy Corp.,
       as the actual vendor, provided this part at prices ranging from $3,908 to $3,994
       on prior procurements. The prime contractor on the most recent buy provided
       the part at a price of $6,169. This price was 55 percent higher than the last
       price from Purdy. We don’t know why the contracting officer decided to use
       the prime contractor instead of the actual vendor and thereby paid a higher
       price. However, we do know that the contracting officer did not fulfill the FAR
       requirements to determine the reasonableness of a prior price before using it as
       the basis for reasonableness. The contracting officer could provide no evidence
       that price reasonableness of the prior price was known. The price on this part
       has continued to increase over time.


       61. Contract: F41608-98-C-0698

       Unit Price: $87.50                  Contract Action Amount: $437,500

       Contractor: Networks Electronics Inc

       Price Reasonableness Basis: Prior History

       Overpricing Amount: $134,089

       Air Force Comments: The Air Force nonconcurred with the audit conclusions.
       The Air Force said that the OIG contended that this contract was priced based
       upon the fact the "prior prices used were not justified as reasonable." Air Force
       review of this contract action demonstrates that the DCAA audit support was
       used to establish the price reasonableness of the prior price. The buyer for this
       action used price history to establish a price range of $101 to $96.34 per unit.
       Based upon this analysis, the $87.50 unit price was accepted as fair and
       reasonable.

       Audit Response: The FAR requires that the reasonableness of prior prices
       should be known before using those prices to establish price reasonableness.
       The contracting officer did not have the prior price negotiation memorandum to
       know how the price was derived and as such did not have complete information
       to establish price reasonableness. The contracting officer did have a DCAA
       audit report which would have provided information on rates and some elements
       of cost, but the DCAA audit report stated that it did not have the technical
       evaluation of labor hours and material quantities. This information would have
       been crucial to establish price reasonableness.




Note: See the list of acronyms at the end of the appendix.


                                          96
       Contracting Organization – Ogden Air Logistics Center, UT


       62. Contract: F42630-99-C-0022

       Unit Price: $11,445                  Contract Action Amount: $4,200,315

       Contractor: Allied Signal Inc.

       Price Reasonableness Basis: Prior history (Primary) and uncertified cost data

       Overpricing Amount: $1,201,089

       Air Force Comments: The Air Force nonconcurred with the audit conclusions.
       The Air Force stated that initially, the engineer noted that the item was not
       commercial and the justification and approval document stated the item was not
       commercial, however, the PCO did a further review of the analysis of
       contractor submittals and documented the conclusion that the item was
       commercial. The contractor also submitted a cost breakdown to support its
       proposed price. The PCO used this information, along with recommended rates
       and factors from DCMC South Bend to help determine price reasonableness.
       The PCO also performed a learning curve analysis, using a 90 percent curve and
       the previous price of $11,267 from the May 29, 1998 buy to help determine
       price reasonableness. Based upon the above information, price analysis clearly
       establishes a range of price effectiveness appropriate to make an adequate price
       reasonableness determination. The Air Force concluded that the procurement is
       not overpriced.

       Audit Response: Market research documented that the item was not
       commercial. The Air Force stated that the PCO further reviewed the contractor
       submittals and documented the conclusion that the item was commercial.
       However, the commerciality claim was initiated by the contractor and the
       contracting officer questioned the characterization of the item as commercial.
       The contracting officer stated to us that she had raised her concern about
       whether this item was commercial. She also acknowledged that prior buys were
       not considered commercial under the “old FAR regulations.” The Air Force
       also agreed that its engineer noted the item was not commercial. We believe an
       engineer’s position should carry more weight in a commercial item
       determination especially since this was the first time the Air Force was
       relinquishing the rights provided by the TINA. There was no documentation in
       the file to support any commercial analysis that showed similarities to and
       difference from a commercial item. An informal cost breakdown was provided,
       but was cursory and provided no details. For example, material was shown at a
       lump sum per unit with no further breakdown. The contracting officer relied on
       the contractor’s statement that material was based on vendor quotes and labor
       actuals without any further verification. In an interview, the contracting officer
       stated that there was no additional documentation. She stated that she did not
       ask for this mainly due to the fact that the data was uncertified. She also stated

Note: See the list of acronyms at the end of the appendix.


                                           97
       that normally they do not challenge the contractor. There is also no explanation
       for the basis of the Air Force price objective of $11,440. The price objective
       does not appear to have considered the very significant quantity difference
       between the new procurement and prior procurements, while the Air Force price
       analysis does consider this information. The prior buy was for 34 units and the
       current buy is for 367. The unexplained price objective is $11,440 while the
       supported price analysis was $8,286. There was no documentation to explain
       why the price analysis was not used. We do not believe price reasonableness
       was established especially in light of the price analysis that was 38 percent
       below the price objective of $11,440, cursory acceptance of the commerciality
       claim and the limited amount of cost data obtained. The Air Force price
       analysis also supports an overpricing amount almost identical to our
       computation.

       63. Contract: F42630-99-C-0161

       Unit Price: $3,744                   Contract Action Amount: $230,429

       Contractor: Hydro-Mill Co

       Price Reasonableness Basis: Prior history (Primary) and price analysis

       Overpricing Amount: $49,938

       Air Force Comments: The Air Force partially concurred with the audit results.
       The Air Force agreed that it appears the buyer had no knowledge of the contract
       termination of Sean Air or the consistent pricing history of Hydro Mill. This
       information should have been a consideration in the buyers final price
       determination. However, the buyer used a 1990 prior price of $3,362 escalated
       to current year dollars to calculate an adjusted price of $3,744. Although the
       buyer did not use the most recent pricing history, the Air Force did not agree
       that this resulted in overpricing. Sean Air was unable to perform the two
       contracts it was awarded at the prices of $1,825 and $1,026 per unit. On the
       other hand, Hydro Mill was consistent in its bidding of both contracts at $4,308
       and $3,497 per unit.

       The OIG report used an adjusted unit price of $1,043.67 to calculate the amount
       of overpayment. It is inappropriate to use this price as prior price basis, since
       this represents a Sean Air price that was terminated for default. Based upon our
       analysis, we conclude there is no overpricing on this contract

       Audit Response: The Air Force agreed that price reasonableness was not
       adequately established but disagreed with the overpricing. The price negotiation
       was very cursory in nature. Besides using the prior price without verification of
       price reasonableness, the contracting officer did not provide any support for
       purported costs for a reworked die. While we do not know if the termination of
       the other contractor had anything to do with non performance for cost reasons,

Note: See the list of acronyms at the end of the appendix.


                                          98
       we do agree that in light of the new information about the termination of the
       other contractor, it would not be appropriate in this case to use this information
       to determine overpricing. As a result, we have used the price analysis
       performed by the Air Force of $2,883 per unit and recomputed overpricing of
       $49,938 ($3,744-2,883, multiplied by 58 units).


       64. Contract: F42630-99-C-0074

       Unit Price: $7,790                     Contract Action Amount: $311,600

       Contractor: Coltec Industries, Inc.

       Price Reasonableness Basis: Prior history (Primary) and competition
       Overpricing Amount: $185,227

       Air Force Comments: The Air Force nonconcurred with the audit conclusions.
       The Air Force stated that four contractors on the approved source list were
       solicited; award was made to a large business, Coltec Industries (now BF
       Goodrich Aerospace) which was the only offer received. However, based upon
       the fact that only one offer was received, the buyer requested additional cost
       information to validate non-recurring costs for a one-time charge for new dies.
       The contractor submitted a complete cost breakdown for unit price and dies.
       Input from DCMC Dallas was received on rates.

       The OIG stated that prior prices were used as a basis for the negotiated price.
       However, it should be noted that the buyer considered adequate price
       competition in accordance with FAR 15.403-1 and the use of additional cost
       information to make an appropriate price determination.

       The OIG used an adjusted unit price of $3,159.33 from a contractor now
       deemed as an unapproved source due to poor past performance. The buyer was
       aware of this and thereby felt a need to secure additional cost information to
       make an appropriate price determination.

       The Air Force concluded that based upon analysis, there is no overpricing on
       this contract.

       Audit Response: We disagree with the Air Force. We do not believe the
       contracting officer adequately established price reasonableness. There was no
       evidence of adequate market research. The only other source with any price
       history was the other source that was removed from the approved source list.
       According to the contracting officer, she realized that the only other source
       would have been the prior contractor. Therefore, the contracting officer
       decided to review cost data. However, the material costs with additives applied
       accounted for all of the costs except for profit, and the contracting officer had
       nothing in the file to support these costs except for a verbal statement from the

Note: See the list of acronyms at the end of the appendix.


                                             99
       engineer who stated that costs were reasonable. In addition, while lower rate
       information was received from DCAA, the contracting officer still accepted
       rates and costs as proposed without explanation. The contracting officer
       conducted a price analysis, but when the price analysis did not support the
       contractor’s price, the contracting officer’s justification for the difference lacked
       logic. The contracting officer concluded the difference was due to rate
       differences because the contractor was a small business. However, every
       business has its own rate structure that has no bearing on whether it is large or
       small. At the very least, since the proposed price was 170 percent higher than
       the price analysis, the contract file should have contained information on
       material costs. In this case we believe the overpricing is valid. The prior
       contractor was taken off the approved source list for quality and not cost reasons
       and this contractor had successfully performed at least four other contracts at
       prices similar to the price that we used for establishing overpricing. Since the
       contracting officer did not establish price reasonableness on the current
       procurement, we believe the best measure of overpricing would be prices from
       successfully completed contracts.


       65. Contract: F42630-99-C-0178

       Unit Price: $13,200                   Contract Action Amount: $2,191,200

       Contractor: Aircraft Braking Systems Corp

       Price Reasonableness Basis: Catalog price (Primary) and prior history

       Overpricing Amount: $412,067

       Air Force Comments: The Air Force nonconcurred that the contract was
       awarded based on accepting a catalog price without additional review. The
       PNM illustrates that the price analyst used additional information to adjust the
       comparison price of the “virtually identical” DC-10 commercial item. The Air
       Force used the prior price of $13,002 and adjusted it using normal escalation
       equating to $13,794. As a result, the Air Force disagreed that the negotiated
       price of $13,200 was overpriced. The Air Force also stated that the contractor
       stated that the prior unit price was in error. Additionally, the Air Force takes
       exception to the OIG using an adjusted unit price of $10,717.67, which is even
       lower than the previous 1997 buy for 31 units at a cost of $13,002.15. The Air
       Force concluded that there was no overpricing on this contract.

       Audit Response: There was no verifiable support in the file other than a
       statement from the contractor that the prior unit price was in error. While the
       PNM included the contractor’s claim that a process was erroneously deleted,
       there was nothing in the price negotiation memorandum to show that the
       contracting officer attempted to verify this claim. This prior price was
       important since it showed the contractor provided this item at prices of $10,150
       and $9,660 for quantities similar to the current buy. Contractors generally pay

Note: See the list of acronyms at the end of the appendix.


                                           100
       close attention to their profit line and a missed process that decreased profits
       would normally be found during the course of a contract. The negotiation
       memorandum also incorrectly stated that “based on new rules of FASA [Federal
       Acquisition Streamlining Act] a price analysis was performed on this item, the
       price generated in the price comparison was rounded to the nearest dollar and
       used as the Air Force objective.” However, the price generated in the price
       analysis was $11,657. The Air Force price objective was $13,200 and the
       accepted price was $13,200. The difference between the price analysis price of
       $11,657 and the price objective of $13,200 was not explained. Also, when we
       looked at the three pages of documents included in the file to support the
       justification of commercial pricing as similar to the DC-10, we did not see the
       “virtually identical” decision reached by the contract administrator. The
       components had different numbers, different descriptions and difference
       quantities. Further, sizes, features and additional parts were also different.
       Since this decision on commerciality removed the requirement for obtaining
       certified cost or pricing data, we believe more attention and detail should have
       been included. Also, a qualified engineer should have been involved before
       reaching this conclusion. We continue to believe price reasonableness wasn’t
       established and the overpricing was valid.


       66. Contract: F42630-99-C-0084

       Unit Price: $36,342                  Contract Action Amount: $472,446

       Contractor: All Tool Inc.

       Price Reasonableness Basis: Competition

       Overpricing Amount: $151,066

       Air Force Comments: The Air Force partially concurred. The Air Force
       stated the solicitation was issued competitively to four approved sources. One
       response was received from All Tool Inc. at a proposed unit price of $36,342;
       total price of $472,446.

       The use of FAR 15.403-1 as a basis for price reasonableness on this contract
       action cannot be validated, as no PNM was accomplished. Though the
       probability of adequate price competition can be argued, the fact is that there is
       no record of this determination. The Air Force agreed that additional analysis
       and a PNM should have been accomplished. However, the use of the 1990
       price may not produce a valid overpricing estimate. The mere fact that adequate
       price competition exists does not automatically satisfy a fair and reasonable
       determination. Though the buyer sought additional historical information and
       applied an appropriate index to normalize a past price to current dollars, the
       inadequacy of documentation does not validate a fair and reasonable price.



Note: See the list of acronyms at the end of the appendix.


                                          101
       The Air Force estimated the overpricing on this contract to be approximately
       $93,015 which applies 3 percent escalation to the previously negotiated price
       from 1990 of $22,982.

       Audit Response: Our overpricing calculation of $151,066 was based on certain
       learning curve and inflation index assumptions which represent what we believe
       is the best estimate of the overpriced amount. However, we acknowledge the
       Air Force might make different assumptions and compute an amount that could
       be equally defensible.


       67. Contract: F42630-99-C-0139

       Unit Price: $405                      Contract Action Amount: $2,673,000
       Contractor: Michelin Aircraft Tire Corp

       Price Reasonableness Basis: Cost analysis (Primary) and prior history

       Overpricing Amount: $306,042

       Air Force Comments: The Air Force nonconcurred with the audit conclusions.
       The Air Force stated that the mission critical circumstances of this acquisition
       necessitates an immediate contract award to the second source. The Air Force
       also stated it is in the process of reengineering the specifications of this
       requirement to expand the realm of potential sources in support of future
       requirements.

       The OIG contends that the PCO accepted non-supportive costs, reflecting on a
       $358.63 unit price identified in the PNM. After further research, however, it
       was discovered that this figure was in fact an error and is, therefore, not
       overpriced. This is further validated by the fact that it is inconsistent with any
       available price history for this item.

       Audit Response: The Air Force is attempting to defend the price on a contract
       that violated the requirements of the TINA to obtain cost or pricing data. The
       Air Force states that after additional research the amount of $358.63 identified
       in its price negotiation memorandum was an error. However, the contracting
       officer was interviewed on July 12, 2000 and was specifically asked about the
       price analysis amount of $358.63. The contracting officer stated that this
       amount was generated through a learning curve. In light of this apparent
       conflict surrounding the circumstances of the price analysis amount, we are not
       sure which information is correct. We do know that the quantity on this
       purchase (6,600 tires) was significantly higher than the quantity on the last
       purchases from Goodyear (4,292 tires) and Michelin (2,218 tires). The prices
       for both of these buys were also less than the current procurement, and it is
       possible that a learning curve may have reduced the price to the price analysis
       amount. In addition, since the award was made sole source and exceeded the

Note: See the list of acronyms at the end of the appendix.


                                           102
       threshold for obtaining certified cost or pricing data, either a waiver to the
       TINA or certified cost or pricing data was required. The contracting officer
       stated that certified cost or pricing data was waived because the contractor’s
       accounting system would not provide it. However, the contracting officer did
       not obtain a waiver. Therefore, the contracting officer violated the requirements
       of the TINA. Based on all of the available information, we stand by our
       conclusions.




Note: See the list of acronyms at the end of the appendix.


                                          103
Comments From the Defense Logistics Agency (DLA)

       Contracting Organization – Defense Supply Center, Richmond, VA


       68. Contract: N00383-95-G-054M (Order TY45)

       Unit Price: $78,251.50                Contract Action Amount: $5,086,348

       Contractor: Rolls-Royce PLC

       Price Reasonableness Basis: Cost analysis

       Overpricing Amount: Unknown

       DLA Comments: The DLA stated that cost or pricing data was obtained.

       Audit Response: Although DLA did not specifically disagree with our
       conclusion that price reasonableness was not adequately determined, it implied
       disagreement by citing that cost or pricing data was obtained. A certificate of
       current cost or pricing data was obtained. However, there was no evidence of
       any cost or pricing data obtained to go with the certificate. The certificate
       process was flawed because the contracting officer did not appear to understand
       the TINA. First, the Price Negotiation Memorandum stated that at the
       conclusion of negotiations the buyer requested the contractor to submit its “best
       proposal” with a certificate. However, a proposal at the conclusion of
       negotiations would not have been relied upon and hence, would be null and
       void. Second, there was also no statement of reliance by the contracting officer
       included in the price negotiation memorandum. The price negotiation
       memorandum was seriously lacking in detail. In addition, a DLA contracting
       official disclosed to us that the certificate was useless because no cost or pricing
       data was obtained.


       69. Contract: SP0440-99-D-0547

       Unit Price: $924                      Contract Action Amount: $2,055,900

       Contractor: Vaisalia Inc

       Price Reasonableness Basis: Catalog price (Primary) and prior history

       Overpricing Amount: Unknown


Note: See the list of acronyms at the end of the appendix.



                                           104
      DLA Comments: DLA stated that the part was commercial and the contractor
      provided its published catalog, but refused to provide sales data. DLA
      negotiated a discount off the published price and reviewed prior prices paid to
      establish price reasonableness.

      Audit Response: DLA appears to agree with our conclusion that price was not
      adequately determined. The contracting officer attempted to establish price
      reasonableness using two bases, comparison to catalog prices and comparison to
      previous prices. Since the actual sales history is unknown, the DLA does not
      know if a 10 percent, 20 percent or even a 50 percent discount off the catalog
      price is reasonable. The use of prior price was equally ineffective because there
      was no evidence to show that the prior prices were determined to be reasonable.
      The price negotiation also shows that attempts to achieve better pricing during
      negotiations on the last contract were unsuccessful.

      70. Contract: SP0441-99-C-5736

      Unit Price: $1,558                   Contract Action Amount: $623,200

      Contractor: Kaydon Corporation

      Price Reasonableness Basis: Cost Analysis

      Overpricing Amount: $147,934

      DLA Comments: DLA disagreed with the audit conclusions. DLA stated that
      pricing was based on adequate price competition and that additional information
      was obtained to support price reasonableness.

      Audit Response: The two most current prior procurements of this item were
      both from the same company that received this award. Overall, this company’s
      price has increased approximately 218 percent in 11 years on 5 procurements.
      Its unit price went from $490 in 1988 to $620 in 1989, to $969 in 1990, to
      $1,048 in 1992 to $1,558 in 1999. The action was listed in the DD350 contract
      data system as sole-source, which would have required obtaining certified cost
      or pricing data. The Acting Chief of the Cost and Price Analysis Branch
      recommended obtaining certified cost or pricing data. He further stated that it is
      not realistic to assume that the contractor’s offer responds to the threat of
      competition. However, even though the contract exceeded $500,000, cost or
      pricing data was not obtained. In our opinion, the price trend clearly indicates
      that the price is not reasonable.




Note: See the list of acronyms at the end of the appendix.



                                         105
       71. Contract: SP0441-99-C-5324

       Unit Price: $30.85                  Contract Action Amount: $462,750

       Contractor: Kamatics Corp

       Price Reasonableness Basis: Other reasonableness problems (Justified as
       unreasonable)

       Overpricing Amount: $55,100

       DLA Comments: DLA disagreed that price reasonableness was not adequately
       determined. DLA stated that the contractor would not provide adequate
       information, but that adequate procurement history was available to make a
       price reasonableness decision.

       Audit Response: One of the finding areas in our report was the use of prior
       history without determining if the prior prices were fair and reasonable. Using
       a prior price that was not determined reasonable would not now provide a
       reasonable price. The PNM acknowledges that the contracting officer accepted
       the price as proposed and that it was unknown as to if and how prior prices were
       determined fair and reasonable. The PNM also acknowledges that price for this
       procurement cannot be determined fair and reasonable. Although this
       procurement was only slightly under the $500,000 threshold, the contractor
       refused to provide cost or pricing data.




Note: See the list of acronyms at the end of the appendix.


                                          106
Acronyms

BCM        Business Clearance Memorandum
BPA        Blanket Purchase Agreement
CECOM      Army Communications and Electronics Command
DCAA       Defense Contract Audit Agency
DCMC       Defense Contract Management Command
DLA        Defense Logistics Agency
FAR        Federal Acquisition Regulation
GSA        General Services Administration
OIG        Office of the Inspector General
PCO        Procurement Contracting Officer
PNM        Price Negotiation Memorandum
TACOM      U.S. Army Tank-Automotive Command
TINA       Truth In Negotiations Act




                      107
Appendix G. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency




                                          108
_______________________________________________________________________



Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
   Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
   Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
   Government Reform




                                          109
_____________________________________________________________________________




The full text of Management Comments is located at:



http://www.dodig.osd.mil/audit/reports/fy01/01-129pt2.pdf




                                      1
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Terry L. McKinney
Bruce A. Burton
Steven I. Case
Billy J. McCain
Robert E. Bender
John A. Seger
LaNita C. Matthews
Shelly M. Newton
David P. Goodykoontz
Chrispian M. Brake
Elizabeth Baarlaer
